<html>
<title> - HEARING TO REVIEW THE STATUS OF POLLINATOR HEALTH INCLUDING COLONY COLLAPSE DISORDER</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                    HEARING TO REVIEW THE STATUS OF
                      POLLINATOR HEALTH INCLUDING
                        COLONY COLLAPSE DISORDER

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                  HORTICULTURE AND ORGANIC AGRICULTURE

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2008

                               __________

                           Serial No. 110-39


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
50-679 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            BOB GOODLATTE, Virginia, 
    Vice Chairman                    Ranking Minority Member
MIKE McINTYRE, North Carolina        TERRY EVERETT, Alabama
BOB ETHERIDGE, North Carolina        FRANK D. LUCAS, Oklahoma
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 ROBIN HAYES, North Carolina
DENNIS A. CARDOZA, California        TIMOTHY V. JOHNSON, Illinois
DAVID SCOTT, Georgia                 SAM GRAVES, Missouri
JIM MARSHALL, Georgia                JO BONNER, Alabama
STEPHANIE HERSETH SANDLIN, South     MIKE ROGERS, Alabama
Dakota                               STEVE KING, Iowa
HENRY CUELLAR, Texas                 MARILYN N. MUSGRAVE, Colorado
JIM COSTA, California                RANDY NEUGEBAUER, Texas
JOHN T. SALAZAR, Colorado            CHARLES W. BOUSTANY, Jr., 
BRAD ELLSWORTH, Indiana              Louisiana
NANCY E. BOYDA, Kansas               JOHN R. ``RANDY'' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
TIMOTHY J. WALZ, Minnesota           VIRGINIA FOXX, North Carolina
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
STEVE KAGEN, Wisconsin               JEFF FORTENBERRY, Nebraska
EARL POMEROY, North Dakota           JEAN SCHMIDT, Ohio
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
JOHN BARROW, Georgia                 TIM WALBERG, Michigan
NICK LAMPSON, Texas
JOE DONNELLY, Indiana
TIM MAHONEY, Florida

                                 ______

                           Professional Staff
                    Robert L. Larew, Chief of Staff
                     Andrew W. Baker, Chief Counsel
                 April Slayton, Communications Director
           William E. O'Conner, Jr., Minority Staff Director

                                 ______

          Subcommittee on Horticulture and Organic Agriculture

                DENNIS A. CARDOZA, California, Chairman

BOB ETHERIDGE, North Carolina        RANDY NEUGEBAUER, Texas, 
LINCOLN DAVIS, Tennessee             Ranking Minority Member
TIM MAHONEY, Florida                 JOHN R. ``RANDY'' KUHL, Jr., New 
JOHN BARROW, Georgia                 York
KIRSTEN E. GILLIBRAND, New York      VIRGINIA FOXX, North Carolina
                                     K. MICHAEL CONAWAY, Texas

                Keith Jones, Subcommittee Staff Director

                                  (ii)















                             C O N T E N T S

                              ----------                              
                                                                   Page
Cardoza, Hon. Dennis A., a Representative in Congress from 
  California, opening statement..................................     3
    Prepared statement...........................................     3
Foxx, Hon. Virginia, a Representative in Congress from North 
  Carolina, opening statement....................................     5
Neugebauer, Hon. Randy, a Representative in Congress from Texas, 
  opening statement..............................................     4
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................    12
    Prepared statement...........................................    12

                               Witnesses

Knipling, Edward, Ph.D., Administrator, Agriculture Research 
  Service, U.S. Department of Agriculture, Washington, D.C.......     6
    Prepared statement...........................................     9
Delaplane, Keith S., Ph.D., Professor, Department of Entomology, 
  University of Georgia, Athens, GA..............................    13
    Prepared statement...........................................    14
Frazier, Maryann, Senior Extension Associate, The Pennsylvania 
  State University, University Park, PA..........................    17
    Prepared statement...........................................    19
    Submitted material...........................................   101
Godlin, Steve, Beekeeper, Visalia, CA............................    30
    Prepared statement...........................................    32
Mendes, David, Vice President, American Beekeeping Federation, 
  North Fort Myers, FL...........................................    34
    Prepared statement...........................................    36
Edwards, Robert D., Cotton, Corn, Soybeans, Peanuts, and Other 
  Specialty Crops Producer, Halifax, Nash, and Edgecomb Counties, 
  North Carolina, Whitakers, NC..................................    38
    Prepared statement...........................................    40
Flanagan, Edward R., President & CEO, Jasper Wyman and Son, 
  Milbridge, ME..................................................    41
    Prepared statement...........................................    44
Pien, Katty, Brand Director, Haagen-Dazs Ice Cream, Oakland, CA..    46
    Prepared statement...........................................    47
Replogle, John, President and CEO, Burt's Bees, Durham, NC.......    48
    Prepared statement...........................................    50
Davies Adams, Laurie, Executive Director, Pollinator Partnership, 
  San Francisco, CA..............................................    52
    Prepared statement...........................................    53

 
                    HEARING TO REVIEW THE STATUS OF
                      POLLINATOR HEALTH INCLUDING
                        COLONY COLLAPSE DISORDER

                              ----------                              


                        THURSDAY, JUNE 26, 2008

                  House of Representatives,
          Subcommittee on Horticulture and Organic 
                                       Agriculture,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Dennis 
Cardoza [Chairman of the Subcommittee] presiding.
    Members present: Representatives Cardoza, Etheridge, 
Barrow, Gillibrand, Peterson (ex officio), Neugebauer, Foxx, 
and Latta.
    Staff present: Alejandra Gonzalez-Arias, Keith Jones, Scott 
Kuschmider, Sharon Rusnak, John Goldberg, and Jamie Weyer.

 OPENING STATEMENT OF HON. DENNIS A. CARDOZA, A REPRESENTATIVE 
                  IN CONGRESS FROM CALIFORNIA

    The Chairman. This hearing of the Subcommittee on 
Horticulture and Organic Agriculture to review the status of 
pollinator health including Colony Collapse Disorder will now 
come to order.
    I would like to welcome you all here today. We will have 
opening statements as our first order of business. During that 
time I would like to ask all the panelists that will be 
appearing in our first panel to come forward. Chairman Peterson 
and Ranking Member Goodlatte may arrive throughout the hearing 
at some point and I would just like to recognize my Ranking 
Member and good friend, Mr. Neugebauer of Texas, who will be 
here in the hearing today representing the Republican side of 
the aisle. We will have opening statements by myself and Mr. 
Neugebauer and then we will request that other Members submit 
their opening statements for the record as well as witnesses 
will do so with their testimony.
    Nearly 2 years ago now, a number of farmers in my district 
brought to my attention the difficulty they were having when 
they were procuring honey bees for their annual pollination of 
crops. At first many people, myself included, assumed that the 
rapid decline in the pollinator population was an aberration, 
just a fluke perhaps. However, in some regions across the 
country, beekeepers were reporting 30 to 90 percent losses in 
their honey bee colonies. Perhaps even more intriguing, the 
bees seemed to simply disappear, which is extremely 
uncharacteristic for these insects. In February of last year, 
top agriculture researchers in conjunction with USDA termed 
this massive decline in honey bees as Colony Collapse Disorder 
and set out to pinpoint the cause of this problem. 
Unfortunately, it turns out that bees are extremely complex and 
highly sensitive insects. Their behavior patterns can be 
radically affected by slight changes in climate or weather and 
when exposed to small amounts of certain pathogens, including 
pesticides, making it enormously difficult to pinpoint the 
exact cause of their decline.
    In March of 2007, I along with my Ranking Member, Mr. 
Neugebauer, convened the first ever hearing on bees and Colony 
Collapse Disorder. We heard from a number of experts in the 
field ranging from researchers to beekeepers to farmers about 
the possible causes of this decline and potentially devastating 
effects on American agriculture. Not much was known a year ago 
other than there were a number of potential causes including 
pathogens, parasites, environmental and management stress 
issues, as well as potential nutrition problems. But the 
hearing did highlight the intense need for a dedicated Federal 
funding stream to further study and investigate CCD and to 
support the continued longevity of domestic pollinators.
    We have made notable progress towards this goal in the 
recent farm bill. USDA will now encourage pollinator habitat 
development in all conservation programs, thanks to the farm 
bill. Specifically within the EQIP program, the Secretary is 
now authorized to give greater priority to conservation 
practices that promote pollinator habitat.
    Additionally, millions of dollars were authorized to 
conduct research on the various factors that may be 
contributing to the health of honey bees and other pollinators 
including pathogens and pest surveillance. The farm bill will 
also provide for an increase in the capacity and infrastructure 
of USDA's current colony collapse prevention efforts and 
requires annual reports to the House and Senate Agriculture 
Committees detailing the progress the Department has made in 
addressing colony losses. Finally, mandatory funding will now 
be made available under the Specialty Crop Research Initiative 
for Honey Bee Health as it pertains to the specialty crop 
industry.
    Many of these provisions are directed specifically at 
Colony Collapse Disorder but it is important to recognize the 
plight of America's beekeepers and honey producers. Many 
beekeepers in my district have been financially and emotionally 
devastated by the rapid loss of their bee colonies. In the 2008 
Farm Bill, it has also officially made honey and honey bee 
losses eligible for disaster assistance. But all these 
provisions are really stopgap measures. The industry really 
needs answers and solutions. Our last hearing prompted the USDA 
to develop an action plan for CCD. While I am impressed with 
the progress thus far, especially in identifying the recent 
occurrence of Israeli acute paralysis virus in damaged 
colonies, I remain very concerned of the lack of concrete 
findings and a final answer.
    I hope our panelists today can shed some light on what may 
be preventing swift action to stop the continuing decline of 
bee colonies. The importance of bees and other pollinators 
cannot be underestimated. Nearly 130 different crops totaling 
over $15 billion in farm gate value depend on pollinators to 
grow. In fact, in California, in my district particularly, our 
top agricultural products such as almonds, walnuts, cherries, 
melons and countless others are totally dependent on annual 
pollination efforts from local honey bees. Simply put, if there 
are no bees, there is no way for our nation's farmers to 
continue to grow the high-quality nutritious food our country 
relies on. This is a crisis we cannot afford to ignore.
    [The prepared statement of Mr. Cardoza follows:]

   Prepared statement of Hon. Dennis A. Cardoza, a Representative in 
                        Congress From California
    Nearly two years ago now a number of farmers in my district brought 
to my attention the difficulty they were having when procuring 
honeybees for the annual pollination of their crops. At first, many 
people--myself included-assumed that the rapid decline in the 
pollinator population was an aberration-just a fluke perhaps. However, 
in some regions across the country beekeepers were reporting 30-90% 
losses in their honeybee colonies. But perhaps even more intriguing, 
the bees seemed to simply disappear.
    In February of last year, top Apiculture researchers, in 
conjunction with USDA, termed this massive decline in honeybees as 
``Colony Collapse Disorder'' and set out to pinpoint the cause of this 
problem. Unfortunately, it turns out that bees are extremely complex 
and highly sensitive insects. Their behavior patterns can be radically 
affected by slight changes in the climate or weather and when exposed 
to small amounts of certain pathogens and pesticides.
    In March of 2007, I--along with my Ranking Member Mr. Neugebauer--
convened the first ever hearing on bees and Colony Collapse Disorder. 
We heard from a number of experts in the field ranging from researchers 
to beekeepers to farmers about the possible causes and potential 
devastating effects on American agriculture.
    Not much was known a year ago, other than there were a number of 
potential causes including pathogens; parasites; environmental and 
management stresses; and nutrition problems. But the hearing did 
highlight the intense need for a dedicated Federal funding stream to 
further study and investigate CCD and to support the continued 
longevity of domestic pollinators.
    We made notable progress towards this goal in the recent farm bill. 
USDA will now encourage pollinator habitat development in all 
conservation programs. Specifically in the EQIP program, the Secretary 
is now authorized to give greater priority to conservation practices 
that promote pollinator habitat. Additionally, millions of dollars were 
authorized to conduct research on the various factors that may be 
contributing to the health of honey bees and other pollinators, 
including pathogen and pest surveillance. The farm bill also provided 
for an increase in the capacity and infrastructure of USDA's current 
Colony Collapse prevention efforts and requires an annual report to the 
House and Senate Agriculture Committees detailing the progress the 
Department has made in addressing colony losses. And finally, mandatory 
funding will now be made available under the Specialty Crop Research 
Initiative for honey bee health as it pertains to the specialty crop 
industry.
    Many of these provisions are directed specifically at Colony 
Collapse Disorder, but it is important to recognize the plight of 
America's beekeepers and honey producers. Many beekeepers in my 
district have been financially and emotionally devastated by the rapid 
loss of their bee colonies. The 2008 Farm Bill has made honey and honey 
bee losses eligible for disaster assistance.
    But all of these provisions are really stop-gap measures. What the 
industry really needs are answers and solutions. Our last hearing 
prompted USDA to develop an action plan for Colony Collapse Disorder. 
While I am impressed with the progress thus far--especially in 
identifying the occurrence of the Israeli acute paralysis virus in 
damaged colonies, I remain very concerned about the lack of concrete 
findings. I hope our panelists today can shed some light on what may be 
preventing swift action to stop the continuing decline of bee colonies.
    The importance of bees and other pollinators can NOT be 
underestimated. Nearly 130 different crops--totally over $15 billion in 
farm gate value--depend on pollination to grow. In fact, in California, 
and in my district particularly, our top agricultural products such as 
almonds, walnut, cherries, melons and countless others are totally 
dependent on annual pollination efforts from local honey bees. Simply 
put, if there are no bees, there is no way for our nation's farmers to 
continue to grow the high quality, nutritious foods our country relies 
on.

    The Chairman. With that, I would like to turn this opening 
statement over to my Ranking Member, Mr. Neugebauer.

OPENING STATEMENT OF HON. RANDY NEUGEBAUER, A REPRESENTATIVE IN 
                      CONGRESS FROM TEXAS

    Mr. Neugebauer. Thank you, Mr. Chairman, for calling this 
hearing today to provide the Horticulture and Organic 
Agriculture Subcommittee with an update on pollinator health 
and any progress being made to find the cause of the solution 
to the Colony Collapse Disorder.
    When this Subcommittee met about this issue last March, we 
heard about new research and initiatives aimed at solving the 
mystery behind the cause and solution of CCD. I look forward to 
hearing an update about these programs and any development or 
advancements in this issue and about any new research projects 
that have begun since that hearing.
    I was honored to serve on the conference committee for the 
recently passed farm bill and am proud we were able to include 
several provisions that address pollination, especially CCD. 
The new Specialty Crop Research Initiative provides $230 
million in mandatory funding for research and extension, which 
includes research threads to pollinators. As we speak, USDA is 
working to write the rules to implement these programs, and I 
hope that the steps taken in the farm bill will serve the needs 
of the pollinators and help protect this very important aspect 
of agriculture.
    While USDA is a very important component in combating CCD, 
it is also critical that the private sector stakeholders become 
active on this issue. I am encouraged to learn that some 
proactive groups have already taken an active role in finding a 
solution to CCD, and I look forward to learning more about how 
the private sector and the government entities can work 
together to find cause and treatment for CCD and in doing so 
ensure the longevity of bees that pollinate crops for food, 
fiber, beverage, condiments, species and medicines that we 
consume and use on a daily basis. I appreciate the efforts of 
the several agencies of the Department of Agriculture that have 
taken a lead in research and dissemination of information 
regarding Colony Collapse Disorder, and I encourage USDA and 
its university and state partners to work closely with the bee 
industry in an effort to work together to coordinate research 
and disseminate the findings.
    I look forward to learning more from researchers, 
beekeepers, farmers and industry leaders here today. While you 
may not yet understand the cause of the colony losses, you do 
understand the importance of honey bee pollination in 
agriculture and the Subcommittee benefits from your expertise.
    With that, I yield back my time, Mr. Chairman.
    The Chairman. Well, thank you, Mr. Neugebauer. Thank you 
for your work with us on the farm bill. You did a fabulous job 
and it is my pleasure to work with you on a regular basis on 
this Committee.
    I want to welcome our first panel today, and as such, we 
have one of our Members who has a constituent on this panel, 
and I am going to turn it over to Mr. Barrow to introduce his 
constituent and then I will recognize the rest of the panel. So 
Mr. Barrow, the floor is yours to recognize your constituent.
    Mr. Barrow. Well, I thank the chair, and it is a point of 
personal privilege to introduce Dr. Keith Delaplane, Professor 
of Entomology at the University of Georgia. A technicality, Mr. 
Chairman, he is no longer a constituent. My district no longer 
includes the physical territory that houses the home offices 
and campus of the University of Georgia, but coming from the 
State of Georgia, I think it is fair to say that all of us 
represent the University of Georgia to some extent or another. 
In fact, I wish Brother Costa was here today so I could 
congratulate him on his Bulldogs beating our Bulldogs yesterday 
in the College Championship World Series.
    It is a point of personal pride to me to introduce this 
national champion in his field, Dr. Delaplane, who is here 
basically to present the model that the University of Georgia 
has developed in response to the USDA's RFP, which is the most 
complex and robust proposal to me. It is why he has been 
selected totally on the merits and without regard to this 
Member. Dr. Delaplane, you can no longer vote for me, but I 
want you to know, I can vote for you and I want to thank you 
very much for what you do and thank you for your leadership in 
this endeavor, and Mr. Chairman, thank you for the privilege. I 
have to leave now to go to a hearing of my Committee on Energy 
and Air Quality, so please accept my apologies for not being 
able to stay but, Dr. Delaplane, thank you for being here. 
Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Barrow, and we all represent 
the University of Georgia. They are a fine institution. I am 
particularly proud that our Bulldogs beat your Bulldogs 
yesterday because--
    Mr. Barrow. I am going to have to teach you all how to say 
``dogs.'' It is a two syllable word with a little more 
emphasis, but you are coming along pretty good.
    The Chairman. I will probably have to do that since my son 
just enrolled this week in Southern High football in Maryland, 
where they also are the Bulldogs, and so I will try and get 
that down and I will keep practicing with you. Thank you, Mr. 
Barrow, and we will make sure that we get you the testimony of 
your witness and all the rest of them.
    Mr. Barrow. Thank you, Mr. Chairman.
    The Chairman. Ms. Foxx, I will be happy to yield to you for 
an opening statement at this time, a short opening statement. 
It is outside the parameters of what we laid out, but I would 
be happy to accommodate you.

 OPENING STATEMENT OF HON. VIRGINIA FOXX, A REPRESENTATIVE IN 
                  CONGRESS FROM NORTH CAROLINA

    Ms. Foxx. I appreciate it, Mr. Chairman. The thing I want 
to say is that I think I am probably the only former beekeeper 
on the panel. My husband and I have been farmers all of our 
lives, and we lost our bees. Actually I know why people are 
losing their bees. We lost ours, too. We had nine hives and so 
I have experience as a beekeeper, and I have just 
extraordinarily strong feelings about this issue. I have made 
several speeches on the floor about it, in fact, when I first 
came to the Congress alerting people, so I want to thank all of 
you for this. I have votes at 10:30 in the Education Committee 
and so I am going to have to leave, but I just want the members 
of the panel and the Members of the Committee to know of my 
strong interest in this issue, both from my knowledge of the 
problem as well as my personal experience.
    I thank you very much for that indulgence, Mr. Chairman.
    The Chairman. Ms. Foxx, you are very welcome, and I didn't 
realize that you had had this experience but certainly it is 
very valuable to the Committee, and we will make sure we 
consult you as we go forward on this. Thank you.
    At this time I would like to introduce the other members of 
our panel, and we are very delighted today to have Dr. Edward 
Knipling, Ph.D. and administrator with the ARS, U.S. Department 
of Agriculture here in Washington, D.C. Thank you, Doctor, for 
being here with us today. Mr. Delaplane has already been 
introduced by Mr. Barrow. We have Ms. Maryann Frazier, senior 
extension associate with the Pennsylvania State University at 
University Park, Pennsylvania. I would like to welcome all 
three of our first panelists.
    Dr. Knipling, please begin when you are ready, and let me 
just read this following statement before you do begin. The 
Chair would like to remind all Members that they are recognized 
for questioning in order of seniority. Members who are here at 
the start of the hearing will be recognized first. After that, 
Members will be recognized in order of arrival, and I 
appreciate the Members' understanding. Dr. Knipling.

            STATEMENT OF EDWARD B. KNIPLING, Ph.D.,
 ADMINISTRATOR, AGRICULTURAL RESEARCH SERVICE, U.S. DEPARTMENT 
                OF AGRICULTURE, WASHINGTON, D.C.

    Dr. Knipling. Thank you, Mr. Chairman and Members of the 
Committee. I am Edward Knipling, Administrator of the 
Agricultural Research Service, which is the intramural research 
agency of the Department of Agriculture, and thank you for this 
opportunity to appear before the Subcommittee today to present 
testimony on USDA's efforts to improve pollinator health and 
address the problem of Colony Collapse Disorder.
    Mr. Chairman, you and others have already characterized the 
CCD problem very well and the importance of honey bees and 
other pollinators. Thus, I will only add at this point that the 
2008 spring survey results following last winter indicate that 
bee colony losses across the United States were an average of 
about 36 percent compared to about 31 percent the year before 
in 2007. These levels are about twice what were experienced by 
beekeepers previously in so-called normal or typical years and 
winters, and the additional losses of about 15 to 20 percent 
over normal are being attributed to the CCD malady.
    Numerous factors have been suggested as possible causes of 
this problem. These include increased pressure from viruses and 
other pathogens, parasites, environmental stresses, poor 
nutrition, transport stresses and pesticides, among other 
possible causes.
    My comments today will focus principally on the progress of 
research and planned activities by ARS and our sister agency, 
the Cooperative, State, Research, Education and Extension 
Service.
    Although scientists have not yet identified definitively 
the cause of CCD or a solution to the problem, they have 
greatly increased our understanding of the nature of the 
disorder and its potential contributing factors. For example, 
research suggests that CCD follows the weakening of a colony 
due to various stresses to the point that the colony cannot 
rear a replacement brood in the spring. Studies on the immune 
system response of bees support the hypothesis that CCD is 
caused by an interaction of multiple factors stressing the 
colony rather than any one single cause.
    Along these lines in 2007, researchers identified a virus 
known as the Israeli acute paralysis virus, which appears to 
have a high degree of association with CCD, and further studies 
suggest that a parasite, the Varroa mite, may be spreading the 
virus to other bees. Researchers later observed high levels of 
a different but potentially related virus in CCD samples.
    Other studies have shown that affected colonies tend to 
have elevated levels of other pathogens not commonly found in 
bee colonies. Specifically, investigations have identified a 
pathogen known as Nosema ceranae that infects bees in 
significantly different ways than does Nosema apis, a species 
long present in the United States.
    Research has also focused on determining whether 
pesticides, which remain a top concern among beekeepers, are 
associated with CCD. This research has yet to confirm such as 
association but these studies are continuing.
    Research has also been directed to beekeeping management 
practices, and progress in this area has been significant. A 
new protein supplement diet has been developed and shown to 
improve colony strength and protect against colony decline. 
This research has also shown that supplemental diets 
significantly improve the strength of colonies infected with 
Varroa mites. Other research has provided the first documented 
evidence of stress effects of long-distance transport of bee 
colonies for pollination services.
    In 2006, the honey bee genome was sequenced prior to 
recognition of the CCD problem, and this genetic information is 
now proving very timely and valuable to researchers to detect 
and interpret immune response disorders in CCD-affected bees. 
Additional genomic sequencing research is underway on the 
suspected viruses and Nosema pathogens I mentioned earlier, and 
comparative analysis of these genomes will be important to 
understand the potential role in CCD and may lead to control 
measures.
    I will now comment on the USDA research capacity and 
funding resources. ARS honey bee research is principally 
carried out at four laboratories located in Louisiana, 
Maryland, Arizona and Texas. This collective national honey bee 
program is supported by an annual base budget of $7.7 million 
of which 80 percent has been oriented since 2006 toward the CCD 
problem and its probable causes. In addition to this base 
funded research, $200,000 was provided to ARS scientists last 
year to sequence the genomes of the major microbial pathogens 
suspected of having a role in CCD.
    Beginning this year in 2008, ARS has initiated what we are 
calling the Areawide Project on Honey Bee Health. The 
objectives of this 5-year project are to investigate the 
effects of migratory beekeeping including nutrition and the use 
of supplemental protein diets on honey bee health as well as 
developing more resistant bee lines and better control methods 
for honey bee pests. This project is being carried out by all 
four ARS laboratories in cooperation with commercial beekeepers 
and university partners and with base funding that is available 
for ARS pest management research. This first year support is 
$670,000, and funding for the subsequent 4 years will be about 
$1 million per year.
    The President's Fiscal Year 2009 budget proposals for ARS 
requests $780,000 in new funding to enhance base program 
support for honey bee health and CCD research.
    CSREES, as the USDA extramural funding agency, is 
supporting university research at significant levels. Already, 
funds have been committed for five independent research and 
extension projects related to honey bee genetics and diseases 
and pesticide effects. Additionally, CSREES has recently 
completed panel review of proposals for a sizable competitive 
grant for multi-institutional honey bee health research and 
expects to make a $4.1 million, 4-year award next month in 
July. Overall, CSREES funding for CCD and bee health-related 
research has risen from about $500,000 in Fiscal Year 2006 to 
over $1 million in 2007, and funding this year is expected to 
exceed $2.5 million. The President's Fiscal Year 2009 budget 
also proposes to include an increase in the line item for 
critical issues and plant and animal diseases of about $1.7 
million, which will be expected to provide additional resources 
for honey bee health.
    As the Chairman has already noted, the newly enacted 2008 
Farm Bill provides $30 million in mandatory funding this fiscal 
year to be awarded competitively by CSREES for specialty crop 
research, and the formal request for applications is expected 
to be issued next month in July. A considerable number of 
proposals related to honey bee health for specialty crops are 
expected.
    Subject to future appropriations, the new farm bill also 
authorizes up to $20 million per year for the Fiscal Years 2008 
through 2012 for honey bee and other pollinator research 
extension and surveillance.
    Before closing, I will now briefly comment on the 
capabilities and activities of other USDA agencies relative to 
CCD. The Animal and Plant Health Inspection Service proposes to 
initiate the authorized national honey bee health and pest 
survey to obtain data and determine trends on the extent and 
possible causes of CCD. The Agricultural Marketing Service 
provides a capability on a user-fee basis for pesticide testing 
of agricultural samples, and AMS has already tested a number of 
honey bee samples, but the data obtained to date do not appear 
to associate pesticides conclusively in any way with CCD. The 
Natural Resources Conservation Service provides leadership and 
assistance in establishing conservation areas and other 
pollinator protection habitats which will be important for CCD 
mitigation.
    In summary, Mr. Chairman, even though research to date has 
not produced a definitive finding on the cause or a solution to 
the CCD problem, the research is making important progress 
toward our understanding of the disorder, and these efforts are 
continuing at an accelerating pace. USDA very much appreciates 
Congress' interest in this issue, and I thank you once again 
for the opportunity to appear before you. We very much value 
also all of the cooperation and partnerships we have with 
universities, the beekeeping industry, non-government 
organizations and the like.
    Thank you, Mr. Chairman. I would be pleased to address any 
questions that you have at a later time.
    [The prepared statement of Dr. Knipling follows:]

    Prepared Statement of Edward B. Knipling, Ph.D., Administrator,
    Agricultural Research Service, U.S. Department of Agriculture, 
                            Washington, D.C.
    Mr. Chairman and Members of the Committee, I am Edward Knipling, 
Administrator of the Agricultural Research Service (ARS), which is the 
intramural scientific research agency of the Department of Agriculture 
(USDA).
    Thank you for the opportunity to appear before the Subcommittee 
today to present testimony on USDA's efforts to improve pollinator 
health and address the problem of colony collapse disorder, known as 
CCD.
Background on CCD
    As the members of the Subcommittee know, CCD is characterized by 
the sudden decline of a honey bee colony and absence of dead bees. 
Typically, all but a few bees disappear from a given colony's 
population for no apparent reason. These unexplained losses were first 
reported in the fall of 2006, with further investigations indicating 
that the problem may have been occurring since at least 2005. Given the 
critical role played by honey bees and other pollinators in plant 
reproduction, resulting in $15 billion in added crop value to at least 
30 percent of our Nation's crops, CCD poses a significant threat to the 
U.S. beekeeping industry, food and honey production, and ecosystem 
health.
    In 2007, bee colony losses to CCD and other stressors were reported 
to be 31 percent. Surveys to date in the 2008 season indicate losses of 
about 36 percent, which is about twice the percentage of losses 
sustained during a typical winter. Although beekeepers are still 
meeting their pollination service contracts, the costs for pollination 
of some crops such as almonds have more than doubled over the past few 
years. Fortunately, the cost increases for other crops during off-peak 
pollination periods have not been as dramatic.
    Numerous factors have been suggested as possible causes of the CCD 
malady. These include viruses and other pathogens, parasites, 
environmental stresses, poor nutrition, transport stresses, and 
pesticides among others.
USDA Leadership Efforts
    Upon hearing reports of CCD in the fall of 2006, USDA began to 
mobilize resources and bring university partners, honey and pollination 
industry leaders, and other stakeholders together to approach the 
problem. Working teams were formed to begin preliminary investigations 
into CCD. These groups also met formally in February and April 2007 to 
develop a comprehensive CCD Action Plan, which resulted in a framework 
approach to solve the problem and identify available resources to 
address research needs. The goals and objectives of the plan are 
centered around four main components: survey and data collection; 
sample analysis; hypothesis-driven research; and mitigation and 
preventative measures.
Research
    My comments today will focus principally on the progress of 
research to date and ongoing and planned activities by ARS and our 
sister agency the Cooperative State Research, Education, and Extension 
Service (CSREES). CSREES is the primary extramural research funding 
agency of USDA for universities, agricultural experiment stations, and 
cooperative extension services across the Nation.
    Although ARS and university scientists have not yet identified the 
cause of CCD or a solution to the problem, they have greatly increased 
our understanding of the nature of the disorder and its potential 
contributing factors.
    For example, research suggests that CCD follows the weakening of a 
colony due to various stresses to the point that the colony cannot rear 
replacement brood in the spring. Studies on the immune system response 
of bees support the hypothesis that CCD is caused by an interaction of 
multiple factors stressing the colony rather than by any one single 
cause.
    Along these lines, in 2007 researchers identified a virus, known as 
the Israeli acute paralysis virus (IAPV), which appears to have a high 
degree of association with CCD. Further studies suggest that a 
parasite, the varroa mite, may be spreading the virus to other bees. 
Researchers later observed high levels of a different, but potentially 
related virus in CCD samples that is associated with IAPV. Although 
additional work is needed to confirm a link between these viruses and 
CCD, this research provides a basis for identifying important markers 
for the disorder.
    Additional studies have shown that CCD-affected colonies tend to 
have elevated levels of other pathogens not commonly found in bee 
colonies. Specifically, investigations have identified a pathogen known 
as Nosema ceranae that infects bees in significantly different ways 
than does Nosema apis, a species long present in the United States.
    Research has also focused on determining whether pesticides, which 
remain a top concern among beekeepers, are associated with CCD. This 
research has yet to confirm such an association, but research will 
continue to analyze bee samples for pesticide exposure to definitively 
confirm or refute an alleged correlation.
    In addition to pathogens, parasites, and pesticides, research has 
also been directed to beekeeping management practices, which are 
critical to honey bee health. Progress in this area has been 
significant. A new protein supplement diet has been developed and shown 
to improve colony strength and protect against colony decline. This 
research has also shown that supplemental diets significantly improve 
colony strength in colonies infested with varroa mites. Other research 
has provided the first documented evidence of stress effects of long 
distance transport of bee colonies for pollination services. These 
studies will help establish critically-needed management strategies and 
guidelines for beekeepers to improve the health and strength of their 
bees as a protection against CCD.
    In early 2006, the entire honey bee genome was sequenced prior to 
recognition of the CCD problem. This genetic information is now proving 
timely and invaluable to researchers to detect and interpret immune 
response disorders in CCD affected bees. Additional genomic sequencing 
research is underway on the suspected viruses and Nosema pathogens 
previously mentioned. Bioinformatic analyses and comparisons of these 
genomes will be important to understand their role in CCD and may lead 
to control measures.
Research Capacity
    ARS honey bee research is principally carried out at four bee 
laboratories located in Baton Rouge, Louisiana; Beltsville, Maryland; 
Tucson, Arizona; and Weslaco, Texas. We also conduct alternative 
pollinator research at Logan, Utah. The collective national honey bee 
research by ARS is supported by an annual base budget of $7.7 million, 
of which 80 percent has been oriented since 2006 toward the CCD problem 
and its probable causes. This research also includes breeding efforts 
to improve honey bee resistance to varroa mites and other pests.
    In addition to this base funded research, $200,000 was provided to 
ARS scientists in 2007 to sequence the genomes of the major microbial 
pathogens suspected of having a role in CCD.
    Beginning this year in 2008, ARS has initiated what we are calling 
the Areawide Project on Honey Bee Health. The objectives of this 5-year 
project are to investigate the effects of migratory beekeeping, 
including nutrition and use of supplemental protein diets, on honey bee 
health, as well as developing more resistant bee lines and better 
control methods for honey bee pests. This project is being carried out 
by all four ARS bee laboratories in cooperation with commercial 
beekeepers and university partners. Base funding is available from ARS 
pest management research. First year support is $670,000. Funding for 
subsequent years will be based upon available appropriations.
    The President's fiscal year 2009 budget proposal for ARS requests 
$780,000 in new funding to enhance base program support for honey bee 
health and CCD research. ARS also proposes to consolidate some of its 
existing base program activity on honey bee research in order to 
achieve a stronger critical mass of scientific effort and focus on the 
CCD problem.
    CSREES, as the USDA extramural funding agency, is also supporting 
CCD research at significant levels. Already funds have been committed 
for five independent research and extension projects relating to honey 
bee genetics and diseases, and pesticides effects. Additionally, CSREES 
has completed panel reviews of proposals for a sizeable competitive 
grant for multi-institutional honey bee health research and expects to 
make a $4.1 million, 4-year award in July 2008. Approximately $1.025 
million will be provided each year. Overall, CSREES funding for CCD and 
bee health related research has risen from $538,000 in fiscal year (FY) 
2006 to over $1,000,000 in FY 2007, and funding will exceed $2.5 
million in FY 2008. The President's fiscal year 2009 budget proposal 
for CSREES also includes an increase of $1,743,000 for the Critical 
Issues in Plant and Animal Diseases line item which was used 
extensively to mount the agency's initial response to the CCD crisis.
    As this Subcommittee knows, the newly enacted 2008 Farm Bill 
provides $30 million in mandatory funding this fiscal year, to be 
awarded competitively by CSREES, for specialty crop research. CSREES 
plans to issue the formal Request for Applications in July 2008. 
Because honey bee pollination is important for many fruit, nut, and 
vegetable crops, some proposals for honey bee health research related 
to the CCD problem are anticipated to be received.
    Subject to future appropriations, the new Farm Bill also authorizes 
up to $20 million per year for the fiscal years 2008 through 2012 for 
honey bee and other pollinator research, extension, and surveillance.
Other USDA Agencies
    I would now like to briefly comment on the capabilities and 
activities of other USDA agencies relevant to CCD. The Animal and Plant 
Health Inspection Service (APHIS) proposes to initiate the authorized 
national honey bee health and pest survey to obtain data and determine 
trends on the extent and possible causes of CCD. The Agricultural 
Marketing Service (AMS) provides a capability on a user fee basis for 
pesticide testing of agricultural samples. AMS has already tested a 
limited number of dead honey bee samples, but the data obtained to date 
do not appear to associate pesticides with CCD. The Natural Resources 
Conservation Service (NRCS) facilitates the USDA Pollinator Protection 
Committee, an 11-agency committee that provides leadership in 
pollinator protection endeavors, including CCD mitigation. Among other 
activities, in 2007 NRCS entered agreements with several national 
pollinator protection efforts to assist at the national, regional, 
state, and local levels to build awareness of and better address the 
nesting and foraging needs of wild and managed pollinators, which may 
serve as alternatives to honey bees.
Closing
    Even though research to date has not produced a definitive finding 
on the cause of or solution to the CCD problem, the research is making 
important progress toward our understanding of the disorder. These 
efforts are continuing across the Nation. USDA appreciates Congress' 
recognition of the significance of colony collapse disorder and thanks 
you for your support and the opportunity to testify before you today. 
USDA also values our partnerships with universities, industry, and 
other stakeholders in the collective efforts to safeguard honey bees, 
the beekeeping industry, and U.S. agriculture. Mr. Chairman, this 
concludes my remarks. I would be pleased to answer any questions at 
this time.

    The Chairman. Thank you, Dr. Knipling. We will indeed have 
the panel ask you a series of questions after our other 
witnesses have had their opportunity to testify.
    I wanted to inform the audience and the panel and the 
Members of the Committee that we just got word from the 
Agriculture Appropriations Subcommittee that their Fiscal Year 
2009 appropriation that will be coming out of that Subcommittee 
will be $780,000 for specific work on the items that you 
mentioned in your testimony and $10 million to your Department 
in order to conduct general bee research. So that is what the 
Subcommittee is working on, as we speak, and their hearing is 
still ongoing, and as further updates become known, we will 
pass that on too.
    I wanted to also take a moment to digress from our 
testimony and just recognize the Chairman of the full 
Committee, Mr. Peterson, who is here with us and has joined us 
briefly. He is working on some other very important matters 
today with regard to gas prices and he is going to have to 
excuse himself, but while I have him here, this is the first 
hearing that we have had post farm bill and I just wanted to 
thank the Chairman for the unbelievably outstanding work that 
you did getting that bill passed to completion. You have had 
unbelievable burdens getting that bill passed but the country 
is better off for its passage, and thank you on behalf of 
everybody on the Committee for the work you did. Mr. Peterson, 
if you have any statements, I would like to recognize you now.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. I thank the Chairman for the work he did and 
the Ranking Member and all the Members of this Subcommittee and 
our Committee. It wasn't just me, it was a team effort, and in 
the end I think the bill isn't perfect but we were able to 
accommodate concerns from all parts of the country, from all 
aspects of agriculture, and as it relates to honey bees, which 
I have some history with too. I used to have clients back when 
I was in the CPA business that were in the honey bee business 
and witnessed firsthand the trials and tribulations that those 
people went through from year to year, and so we were pleased 
to be able to raise the loan rates for honey to do some of the 
research aspects, to make changes in conservation, which will 
further support honey bees and a lot of those efforts and 
credit goes to Mr. Cardoza and the Subcommittee for focusing on 
this and to continue on this.
    So I have a statement. I ask that it be made part of the 
record, and thank you all for your leadership and we will keep 
our eye on this situation and hopefully we will come up with 
the right outcome. Thank you.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress From Minnesota
    Thank you, Chairman Cardoza, for calling this hearing today and for 
the great leadership you have shown as Chairman of the Horticulture and 
Organic Agriculture Subcommittee, and for highlighting a health issue 
that is crucial not just to beekeepers and producers, but to every 
American who enjoys a balanced diet.
    In March of last year, this Subcommittee held the first ever 
Congressional hearing that focused exclusively on the honey bee 
industry and their vital role as pollinators to the nation's food 
supply.
    The hearing focused on Colony Collapse Disorder, an epidemic that 
is killing honey bees at a rapid rate nationwide. Despite a host of 
theories, some credible and some not, the cause of CCD has yet to be 
determined. It continues to be of great concern for beekeepers and 
farmers who rely on bees to pollinate their crops.
    I'm proud of the work that this Committee did in writing and 
passing the farm bill to recognize the threat of CCD and how important 
pollinators are to agriculture. The farm bill that was passed and 
signed into law over the President's veto ensures that all Americans 
have access to a safe, secure and inexpensive food supply.
    That supply depends in large part to the presence and health of 
honey bees, who are the most economically valuable pollinators of farm 
crops in the world, with an estimated value in the tens of billions of 
dollars. They contribute to the production of fruits, vegetables, nuts, 
forage crops, and, of course, honey, accounting for almost one third of 
all crop cash receipts in the United States.
    Bee pollination roughly accounts for one third of the American 
diet. And pollinators are crucial to the growing value-added market for 
fruits and vegetables like organic products and local food networks, 
which are also prioritized in the farm bill.
    Recognizing the valuable role that pollinators play in our farm 
economy, the farm bill has provisions across several of the bill's 
fifteen titles to support beekeepers and Colony Collapse Disorder 
research. Language in the farm bill research title prioritizes the 
identification of causes and solutions for CCD, while expanding USDA's 
infrastructure to be able to address CCD research for the long term. It 
extends the honey marketing loan, which helps keep market prices 
stable.
    Conservation provisions in the bill will encourage habitat 
development and protection for native and managed pollinators, ensuring 
that technical assistance includes applicable standards. And provisions 
affecting bees and pollinators were also added to the farm bill's crop 
insurance and disaster assistance sections.
    Despite some good signs, there are still vital concerns about CCD 
and the future of pollinators. We are here to learn from researchers in 
the field, beekeepers, and the producers who depend on pollinators for 
the health of their crops, about the challenges they still face after 
that March 2007 hearing. I welcome today's witnesses, I look forward to 
their testimony, and I yield back my time.

    The Chairman. Thank you, Mr. Chairman. Thank you again for 
your hard work.
    Now I would like to recognize Mr. Keith Delaplane, 
Professor of the Department of Entomology at the University of 
Georgia in Athens. Sir, the floor is yours.

       STATEMENT OF KEITH S. DELAPLANE, Ph.D., PROFESSOR,
  DEPARTMENT OF ENTOMOLOGY, UNIVERSITY OF GEORGIA, ATHENS, GA

    Dr. Delaplane. Thank you. Chairman Cardoza and Members of 
the Subcommittee, it is a pleasure and an honor to present to 
you a summary of some of the research being planned in response 
to pollinator decline. I am project director of a $4.1 million 
proposal to the USDA CSREES NRI competitive grants program 
targeted for managed pollinators. The proposal falls under the 
category of a Coordinated Agricultural Project, or CAP, and CAP 
proposals must address problems of national concern in a 
coordinated program of research and knowledge delivery. By 
inviting CAP proposals in managed pollinators in 2008, CSREES 
has rightly prioritized pollinator decline as a matter of 
public interest, and we are pleased to be informed that our 
proposal has been recommended for funding by the review panel.
    The team comprising our CAP project represents 17 
institutions including 14 land-grant universities, one 1980 
school, one ARS lab and one state lab, and the following are 
specific objectives. First, to determine and mitigate causes of 
CCD. This will include studying the interactive effects of 
disease agents and environmental factors on honey bee health. 
Second, to incorporate genetic traits that help honeybees 
resist pathogens and parasitic mites and to increase genetic 
diversity of commercial stocks. Third, to improve conservation 
and management of non-Apis pollinators by identifying new or 
emerging pathogens and parasites, abiotic stresses and 
practices that optimize their pollinating efficiency. Fourth, 
to deliver research knowledge to client groups by developing a 
technology transfer program for queen breeders and literature 
on best management and conservation practice for managed 
pollinators and queen breeders.
    In forming these objectives, we placed priority on 
identifying causes of pollinator decline. At this time, CCD 
cannot be assigned rigorously to any one definitive cause. 
However, pollinator decline has been the focus of worldwide 
research for decades, and we do have good starting points in 
our search for a definitive cause. There is evidence, for 
instance, that new or emerging bee viruses and pathogenic 
microsporidia contribute to honey bee morbidity, and in our 
proposal we have chosen to focus on four: Israeli acute 
paralysis virus, deformed wing virus, Nosema ceranae and Nosema 
apis. It is likely that these viruses and microsporidia 
interact negatively with other more familiar honey bee problems 
such as Varroa mites, tracheal mites, pesticides, both in hive 
and out, and stresses associated with migratory beekeeping. 
Similar to experiments on honey bees, another set of studies 
will tease apart the risks to non-honey bees from pathogens and 
field-exposed pesticides.
    A similar priority has been placed on mitigating pollinator 
decline and optimizing bee management. For instance, one of our 
native pollinators, the bumble bee, Bombus impatiens, will be 
the focus of experiments to identify management practices that 
optimize its pollinator performance in the field. We have also 
placed high priority on advancing the powerful advantages of 
genetic host resistance. There is rich literature on classical 
bee genetics augmented with new advances in genomics that place 
within our reach the prospect of identifying genes responsible 
for honey bee resistance, genetically marking individuals that 
carry those genes and selectively propagating them.
    The knowledge delivery mandate will be met in large part by 
the extension activities of our team. However, it will also be 
addressed more deliberately by creating a new literature on 
best management practices for honey bee managers and non-honey 
bee managers and queen breeders. The vehicle for delivering 
these publications will be the web-based platform extension. We 
will share this platform with our sister group, the ARS 
Areawide Project, which has been already alluded to this 
morning.
    In summary, Mr. Chairman, it is my wish to affirm this 
Subcommittee and CSREES for their vision in prioritizing 
pollinator decline as a fundable problem in 2008. I have 
showcased the NRI CAP program as a model for addressing 
problems of national concern. In developing our CAP project, we 
have emphasized candidate disorders for which there is strong 
evidence that they contribute significantly to bee decline. It 
remains to test these candidate factors alone and in 
combination to discover the chief causes of bee decline. Our 
mitigation efforts will focus on genetic host resistance and 
developing best management practices based on research flowing 
from our CAP and from the ARS Areawide Project.
    Rarely has the opportunity been better for American bee 
scientists to work together across university and Federal 
boundaries on a problem of such magnitude and national 
significance. It is to be hoped that Federal assistance will be 
sustained in a strategic and long-term manner, permitting bee 
science to mature and engender healthier bee populations across 
the United States.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Delaplane follows:]

     Prepared Statement of Keith S. Delaplane, Ph.D., Professor of 
             Entomology, University of Georgia, Athens, GA
    Chairman Cardoza and Members of the Subcommittee, it is a pleasure 
and honor to present to you a summary of some of the research being 
planned in response to pollinator decline. I am a professor of 
entomology at the University of Georgia, and my research specialty is 
pollination and honey bee management. I am also Project Director of a 
$4.1 million proposal to the USDA CSREES NRI competitive grants program 
targeted for Managed Pollinators. This proposal falls under the 
category of a Coordinated Agricultural Project, or CAP. CAP proposals 
must address assigned problems of national concern in a coordinated 
program of research and knowledge delivery. CAP proposals must address 
the problem with linkages that are multi-institutional and multi-
disciplinary and relatively lengthy, in our case 4 years. CAP proposals 
must identify and eliminate redundancies and design research that 
builds naturally and progressively upon earlier discoveries. The 
knowledge delivery component is integral, designed, deliberate, and 
outcome-oriented. The CAP model has proven an effective means of 
addressing national-scale problems such as Porcine Reproductive and 
Respiratory Syndrome and Avian Influenza. By inviting CAP proposals in 
Managed Pollinators in 2008, the CSREES NRI competitive grants program 
has rightly prioritized pollinator decline as a matter of public 
interest. We're pleased to be informed that our proposal was 
recommended for funding by the review panel.
    The team comprising our CAP project represents 17 institutions 
including 14 land-grant universities, one 1890 school, one ARS lab, and 
one state lab. Eleven of the 19 team members have whole or partial 
appointments in agricultural extension. Thus, the CAP knowledge 
delivery component is integral to the makeup of the team.
    Here are the objectives of our project:

    1. Determine and mitigate causes of CCD: study the interactive 
        effects of disease agents (pathogens, parasites) and 
        environmental factors (pesticides, nutrition) on honey bee 
        health.

    2. Incorporate traits that help honey bees resist pathogens and 
        parasitic mites and increase genetic diversity of commercially 
        available stocks.

    3. Improve conservation and management of non-Apis pollinators by 
        identifying new or emerging pathogens and parasites, abiotic 
        stresses, and practices that optimize their pollinating 
        efficacy.

    4. Deliver research knowledge to client groups by developing a 
        technology transfer program for queen breeders and a literature 
        on Best Management and Conservation Practices for managed 
        pollinators and queen breeders as an eXtension Community of 
        Practice.

    In forming our objectives, priority was placed on identifying 
causes of pollinator decline. At this time, honey bee Colony Collapse 
Disorder (CCD) cannot be rigorously assigned to any definitive causes. 
However, bee morbidity and pollinator decline have been the focus of 
worldwide research for decades, and we have good starting points in our 
search for definitive causes. There is strong evidence that new or 
emerging bee viruses contribute significantly to honey bee morbidity. 
In our proposal we have chosen to focus on two: Israeli Acute Paralysis 
Virus and Deformed Wing Virus. Similarly, there is strong and recent 
evidence for bee morbidity from Nosema ceranae, a single-celled 
microsporidian pathogen recently introduced into Europe and North 
America, presumably from southeast Asia. It is likely that viruses and 
microsporidia, whether new to our continent or latent, interact 
negatively with more familiar honey bee problems such as parasitic 
Varroa mites and tracheal mites, pesticides both in-hive and out-, and 
stresses associated with intense migratory commercial beekeeping 
practices. Similar to these experiments on honey bees, another set of 
studies will tease apart the risks to non-honey bees from pathogens and 
field-exposed pesticides. At this stage in our understanding of bee 
decline, it is necessary to include numerous interaction experiments to 
discover the major contributors of bee morbidity and the extent to 
which they act singly or in synergy.
    In forming our objectives, a similar priority was placed on 
mitigating causes of pollinator decline and optimizing bee management. 
These objectives include research, but also represent our heaviest 
investments in knowledge delivery. In the interest of minimizing our 
reliance on chemical remedies, we have placed a high priority on 
advancing the powerful advantages of genetic host resistance. There is 
a rich literature on classical bee genetics, augmented with new 
advances in genomics that place within our reach the prospect of 
identifying genes responsible for honey bee resistance to disorders, 
genetically marking individuals that carry those genes, and selectively 
propagating them. Our proposal includes research that moves us in this 
direction as well as initiatives for delivering improved stock to bee 
breeders and for training them in classical selection techniques. One 
of our native pollinators, the bumble bee Bombus impatiens, will be the 
focus of experiments to identify management practices that optimize its 
pollinator performance in the field.
    The knowledge delivery mandate will be met in large part by the 
extension activities of our team members, most of whom have at least a 
partial extension appointment. However, the mandate will be addressed 
more deliberately by creating a new literature on Best Management 
Practices for honey bee managers, non-honey bee managers, and queen 
breeders. The primary vehicle for delivering these publications will be 
the web-based eXtension platform http://about.extension.org/, which on 
its homepage is described as ``. . . an Internet-based collaborative 
environment where Land Grant University content providers exchange 
objective, research-based knowledge to solve real challenges in real 
time.'' The ``content providers,'' or Communities of Practice, are each 
a delimited group of content specialists who use the eXtension platform 
to jointly write, edit, peer-review, and publish knowledge-based 
extension literature. Our CAP team has agreed to join forces with our 
sister group, the ARS Areawide Project, to form one Managed Pollinator 
Community of Practice. This combined website will be the chief conduit 
through which new knowledge from our research flows to beekeepers and 
crop growers who need real answers to the problem of pollinator 
decline.
    In summary, it is my wish to affirm this Subcommittee and CSREES 
for their vision in prioritizing pollinator decline as a fundable 
problem in 2008. I have showcased the NRI CAP program as a model for 
addressing problems of national concern through a synthesis of multi-
disciplinary research and outcome-oriented knowledge delivery. In 
developing our CAP project, we have emphasized candidate disorders for 
which there is strong evidence that they contribute significantly to 
bee decline. It remains to test these candidate factors, alone and in 
interaction, to discover the chief causes of bee decline. Our 
mitigation efforts focus on genetic host resistance and developing Best 
Management Practices based on research flowing from our CAP and from 
the ARS Areawide Project.
    Rarely has the opportunity been better for American bee scientists 
to work together across university and federal boundaries on a problem 
of such magnitude and national significance. It is to be hoped that 
federal assistance will be sustained in a strategic and long-term 
manner, permitting bee science to mature and engender healthier bee 
populations across the United States.

 Key Personnel, Their Institutions, and Roles in the Managed Pollinator
                                   CAP
------------------------------------------------------------------------
       Co-Investigator                            Role
------------------------------------------------------------------------
Keith S. Delaplane, Univ GA,   Project Director; Exercise general
 All years                      oversight of the project and do
                                Objectives 1.9 (Varroa IPM) and 4.3
                                (queen market).
Kate Aronstein, ARS, Weslaco,  Objectives 1.1 (Nosema), 1.3 (stationary
 TX, All years                  apiary), and 2.1 (ID genes). Dr.
                                Aronstein will manage the Texas
                                replicate of the stationary apiaries,
                                collaborate with T. Webster and L.
                                Solter on Nosema ceranae infection and
                                analyze bee samples with qRT-PCR to
                                estimate differences in immune response
                                between infected and healthy bees.
                                Microarrays will be done by C.
                                Grozinger.
Anne Averill, Univ MA, All     Executive Committee; Objectives 1.3 (non-
 years                          Apis pathogens in stationary apiaries),
                                3.1 (non-Apis pathogens), 3.2 and 3.3
                                (non-Apis toxicology). Dr. Averill will
                                study insecticide effects on non-Apis
                                bees and coordinate flow of non-Apis
                                deliverables to eXtension.
Nick Calderone, Cornell Univ,  Objective 2.2 (Genetic diversity). Dr.
 Years 1-3                      Calderone will study genetic variability
                                of northern bee populations. Desirable
                                germplasm will be sent to G. Hunt and to
                                S. Sheppard for use in their research.
                                Dr. Calderone will develop eXtension
                                protocols for stock selection and
                                conduct bee breeding workshops.
Diana Cox-Foster, PA State,    Objectives 1.2 (IAPV, DWV), 1.3 (Apis
 All years                      pathogens in stationary apiaries), 1.4
                                (diagnostics) and 1.5 (pathogen voucher
                                collection). Dr. Cox-Foster will have
                                lead roles in the diagnostic,
                                curatorial, and diagnostic development
                                aspects of these Objectives.
Robert Danka, ARS, Baton       Dr. Danka's lab will phenotype bees for
 Rouge (non-funded)             Varroa-Sensitive Hygiene and conduct
                                gene expression assays in collaboration
                                with Hunt and Spivak in association with
                                Objective 2.1 (ID genes).
Frank Drummond, Univ ME, All   Objectives 1.3 (stationary apiary), 3.4
 years                          (Bombus management), and 3.5 (economics
                                of non-Apis). Dr. Drummond will manage
                                the Maine replicate of the stationary
                                apiaries and do original studies on
                                pollinating efficacy of Bombus impatiens
                                and local-scale habitat restoration.
Brian Eitzer, CT Ag Exp Sta,   Conduct toxicology in Objectives 1.3
 All years                      (Apis stationary apiaries) and 3.3 (non-
                                Apis).
Marion Ellis, Univ NE, Years   Objective 1.6 (pesticide synergies and
 1-2                            sub-lethals). Dr. Ellis will recruit and
                                mentor the post-doc assigned to this
                                work, supervise its execution, analyze
                                data, complete reports, and channel
                                relevant deliverables to eXtension. His
                                budget will support the services of his
                                colleague Dr. Blair Siegfried,
                                Professor, Univ Nebraska.
Christina Grozinger, NC State  Objective 2.1 (ID genes). Dr. Grozinger
 Univ, Year 3                   will be responsible for microarray
                                analyses of Nosema-infected bees
                                collected by K. Aronstein and the Nosema-
                                infected resistant and sensitive bees
                                used in the QTL analysis by G. Hunt
                                (Purdue).
Zachary Huang, MI State Univ,  Objective 1 (Nosema). Dr. Huang will
 All years                      cooperate with T. Webster, L. Solter,
                                and K. Aronstein on aspects of Nosema-
                                induced morbidity of honey bees.
Greg Hunt, Purdue Univ, All    Executive Committee; Objectives 1.4
 years                          (diagnostics) and 2.1 (ID genes). Dr.
                                Hunt will develop probes for single-
                                nucleotide polymorphisms (SNPs),
                                determine SNP genotypes throughout the
                                genome, map quantitative trait loci
                                (QTL), and identify genes for
                                resistance. In addition, Dr. Hunt will
                                coordinate with M. Spivak and T. Webster
                                to develop crosses for QTL mapping and
                                with C. Grozinger to analyze gene
                                expression. Dr. Hunt will direct
                                deliverables from the genetics goal to
                                eXtension.
Chris Mullin, PA State, Years  Objective 1.7 (pesticide metabolites).
 3-4                            Dr. Mullin will provide project
                                leadership for the sublethal behavioral
                                bioassays. He will be assisted (non-
                                funded) by M. Frazier who will supervise
                                extension communications and by J.L.
                                Frazier who will provide leadership on
                                measures of chemosensory cells.
Nancy Ostiguy, PA State, All   Executive Committee; Objectives 1.2
 years                          (IAPV, DWV) and 1.3 (stationary apiary).
                                Dr. Ostiguy will manage the PA replicate
                                of the stationary apiaries and be
                                responsible for descriptive epidemiology
                                of IAPV and DWV, provide overall
                                guidance on the stationary colony
                                project, and assist D. Cox-Foster with
                                pathogen molecular biology. She will
                                direct deliverables from the CCD goal to
                                eXtension.
Steve Sheppard, WA State       Executive Committee; Objectives 1.3
 Univ, All years                (stationary apiary) and 2.2 (Genetic
                                diversity). Dr. Sheppard will manage the
                                WA replicate of the stationary apiaries,
                                characterize genetic diversity in U.S.
                                honey bee populations with emphasis on
                                the western and southern U.S. and
                                Australia. Comparisons will be made with
                                previous U.S. collections of commercial
                                stocks and a concurrent database from
                                northern producers (N. Calderone).
J. Skinner, Univ TN, All       Executive Committee; Objective 4.1
 years                          (establish eXtension Community of
                                Practice). Dr. Skinner will set up a
                                Managed Pollinator Community of Practice
                                on eXtension, coordinate receipt of
                                deliverables from co-investigators, and
                                facilitate its delivery on the eXtension
                                website.
Leellen Solter, IL Natural     Objectives 1.1 (Nosema-induced bee
 History Survey, Years 1-2      morbidity), 1.2 (Nosema interactions
                                with biotics and other stressors). Dr.
                                Solter will take the lead on Nosema with
                                experiments in collaboration with Drs.
                                Huang, Ostiguy, Cox-Foster, Webster, and
                                Aronstein.
Marla Spivak, Univ MN, All     Executive Committee; Objectives 1.3
 years                          (stationary apiary), 2.1 (ID genes), and
                                4.2 (queen market). Dr. Spivak will
                                manage the MN replicate of the
                                stationary apiaries, assist G. Hunt and
                                B. Danka in phenotyping VSH bees, and
                                lead CA queen breeding workshops.
Kirk Visscher, Univ CA, All    Objective 1.3 (stationary apiary). Dr.
 years                          Visscher will manage the CA replicate of
                                the stationary apiaries.
Tom Webster, KY State Univ,    Objectives 1.1 (Nosema), 1.4
 All years                      (diagnostics), and 2.1 (ID genes). Dr.
                                Webster will conduct comparative
                                bioassays on the virulence of Nosema
                                apis and Nosema ceranae and interactions
                                with other stressors. Bees infected with
                                N. apis, infected with N. ceranae, or
                                not infected will be sent to K.
                                Aronstein for immune assays.
------------------------------------------------------------------------


    The Chairman. Thank you, sir. I appreciate your testimony.
    I would now like to recognize Ms. Maryann Frazier, Senior 
Extension Associate with the University of Pennsylvania at 
University Park, Pennsylvania. Welcome, and please proceed.

 STATEMENT OF MARYANN T. FRAZIER, SENIOR EXTENSION ASSOCIATE, 
                 DEPARTMENT OF ENTOMOLOGY, THE
       PENNSYLVANIA STATE UNIVERSITY, UNIVERSITY PARK, PA

    Ms. Frazier. Good morning. Chairman Cardoza and Members of 
the Subcommittee on Horticulture and Organic Agriculture, thank 
you for the opportunity to be here today and to bring you up to 
date on CCD, pollinator health and our land-grant universities' 
efforts to address this critical issue.
    I want to thank this Committee for the critical research 
funding that has been allocated to the land-grant system to 
work on pollinator health and CCD to date. This includes over 
$300,000 in CSREES critical issues funding and the pending $4.1 
million CAP grant. In addition, I want to acknowledge the 
extraordinary level of cooperation between several land-grant 
universities, state departments of agriculture and the USDA to 
address this critical problem.
    However, I do believe the magnitude and timeliness of this 
response has not matched the scale and urgency needed to save 
an industry valued at $15 billion. A quote by one of our CCD 
working team colleagues helps put this situation into 
perspective: ``How would our government respond if one out of 
every three cows was dying.''
    After facing almost 2 years of CCD ravaging the beekeeping 
pollinator industry, we would like to propose five additional 
action items that, if taken, could immediately move critical 
research forward and help our beekeepers survive this difficult 
time. These actions in turn would ensure ongoing pollination 
services to the fruit, nut, seed and vegetable industry, and 
thus provide an uninterrupted supply of reasonably priced fresh 
fruits and vegetables to consumers. These action items include 
reducing the cost of pesticide analytical services provided by 
the USDA Agricultural Marketing Service to both USDA and 
university researchers working on pollinator health, 
particularly the pesticide angle, creating a new USDA critical 
issues program to develop alternative control methods for 
Varroa mites, provide additional authorized funding aimed at 
understanding pollinator decline and improving pollinator 
health, providing direct financial assistance to beekeepers 
suffering from hive losses, and directing APHIS to immediately 
implement a national survey for honey bee diseases, and 
increased screening for diseases on imported bees.
    Despite significant efforts over the past 18 months on the 
part of the USDA, state departments of agriculture and land-
grant universities, we have yet to understand this most recent 
manifestation of pollinator die-off, CCD. Its cure and its 
cause remain unknown. Important funding to address this problem 
has been received from the beekeeping industry, in particular, 
the National Honey Board and beekeeping organizations, the 
Pennsylvania and Florida departments of agriculture, the 
Pennsylvania State University HATCH funds, USDA CSREES, Haagen-
Dazs and many concerned public groups and individuals.
    While the CCD team has not been able to identify, as you 
already heard, a single factor responsible for CCD, we feel 
that factors likely working together include pathogens, 
pesticides, poor nutrition and Varroa mites. These are 
stressing the bees and the beekeepers beyond their ability to 
cope. This scenario makes the situation far more complex and 
difficult to understand and to fix. However, current studies 
are underway to evaluate the pathogenicity of IAPV with 
additional field studies planned through the CAP, two long-term 
studies following 260 colonies in different migratory 
operations that is being conducted by a multi-institutional 
effort including Penn State, Pennsylvania Department of 
Agriculture, North Carolina State University and the USDA.
    Over the past 18 months, our research group at Penn State 
has worked on the question of whether or not pesticides are 
responsible for CCD specifically and pollinator decline in 
general. This work would not be possible without the assistance 
of chemist Roger Simonds and the services of the USDA 
analytical lab in Gastonia, North Carolina, and of course, our 
other CCD working group members.
    In 2007, we analyzed pollen, wax and bees for pesticide 
residues. In a total of 108 pollen samples analyzed, 46 
different pesticides including 6 of their metabolites were 
identified. Up to 17 different pesticides were found in a 
single pollen sample. Samples contained on average five 
different pesticide residues. Only 3 of these 108 had no 
detectable pesticides. We fear this large number and multiple 
kinds of pesticides could result in potential toxic 
interactions for which there are no scientific data to date. 
Also, these chronic levels of pesticide need further 
investigation with regard to their potential interaction with 
other stressors like IAPV in order to determine their potential 
contribution to CCD. From February 2007 to the present, 60 
percent of our available funds have gone to pay the USDA for 
pesticide analytical services. If this service could be 
provided at reduced cost, it would allow us to redirect our 
limited research dollars to understanding the impacts 
pesticides are having on bees and other pollinators.
    For most of the last 20 years, U.S. beekeepers have had 
only two registered chemical miticides to combat the most 
significant honey bee pest in the world, the Varroa mite. There 
has been significantly little effort put into biological 
control alternatives. For our beekeeping industry to survive, 
we must have safe, alternative Varroa mite controls. This will 
only happen if significant new resources are focused in this 
direction. In an effort to keep their bees and their businesses 
alive and to meet their pollination contracts, our beekeepers 
have pushed themselves and their bees to the limits 
financially, emotionally and physically. Direct financial 
assistance is overdue and is critical to their survival or next 
year's agricultural pollination needs may not be met.
    I thank you for this opportunity to provide you this 
testimony, and would be happy to answer any questions that you 
might have.
    [The prepared statement of Ms. Frazier follows:]

 Prepared Statement of Maryann T. Frazier, Senior Extension Associate,
      Department of Entomology, The Pennsylvania State University,
                          University Park, PA
Introduction
    Chairman Cardoza and Members of the Subcommittee on Horticulture 
and Organic Agriculture,

    I would like to begin by thanking you for the opportunity to be 
here today and bring you up to date on CCD, pollinator health, and our 
land-grant universities' efforts to address these critical issues.
    As the Senior Extension Associate at Penn State, specializing in 
apiculture for the past 20 years, I have had the opportunity to work 
closely with beekeepers as well as university and USDA researchers 
involved in honey bee research. I am also a beekeeper and am intimately 
involved in scientific research dealing with the health and 
productivity of honey bees and other pollinators. I believe this gives 
me a unique perspective and understanding of the challenges faced by 
both groups. I am also a founding member of the Mid-Atlantic Apiculture 
Research and Extension Consortium (MAAREC). This group, established in 
1997, is focused on addressing the pest management crisis facing the 
beekeeping industry in the Mid-Atlantic Region. I have worked in the 
regulatory arena as the assistant state apiary inspector in Maryland 
and as a beekeeping specialist in Africa and Central America. In 
addition I am one of the members of the CCD working team that formed in 
response to the latest threat to honey bee health.
    I want to thank this Committee for the critical research funding 
allocated to work on honey bee health and CCD since this Committee 
first met in March 2007. This includes $321,932 in CSREES critical 
issues funding awarded to Penn State and the University of Georgia and 
the pending $4.1 million CAP grant that will fund work on pollinator 
health at several collaborating universities. However I believe the 
magnitude and timeliness of the response has not matched the scale and 
the urgency needed to save an industry valued at more than $14 billion. 
A quote by one of our CCD working team colleagues helps put the 
situation into perspective, ``How would our government respond if one 
out of every three cows was dying?'' While this Committee held it first 
timely hearing in March of 2007, the funding that has been allocated to 
date falls far short of the time sensitive and potentially catastrophic 
nature of this problem.
    After facing almost two years of CCD ravaging the beekeeping and 
pollination industries, we would like to propose five additional 
``action items'' that if taken, could immediately move critical 
research forward and help our beekeepers survive this difficult time. 
These actions would, in turn, help ensure on-going pollination services 
to the fruit, nut, seed and vegetable industries across the US and thus 
provide reasonably priced fresh fruits and vegetables to consumers with 
minimal interruption.
     These actions include:

    (1) Reducing the cost of pesticide analytical services provided by 
        USDA Ag Marketing Services to USDA and University researchers 
        working on pollinator health.

    (2) Creating a new USDA critical issues program to develop 
        alternative control methods for Varroa mites

    (3) Providing additional funding aimed at understanding pollinator 
        decline and improving pollinator health that includes native 
        species of pollinators

    (4) Providing direct financial assistance to beekeepers suffering 
        from high losses

    (5) Directing APHIS to immediately implement a national survey for 
        honey bee diseases
Justification
    Due to our current agricultural methods, including the 
establishment of large monocultures and the use of insecticides and 
herbicides, wild pollinators are largely absent from cropping systems 
that require insect pollination. For this reason, growers depend on 
beekeepers to move their honey bee colonies in and out of crops during 
bloom. The contribution of honey bees to agriculture production in the 
US is valued at $14 billion annually. However, according to the latest 
Apiary Inspectors of America and USDA/ARS survey, losses of managed 
colonies nationwide topped 36 percent in 2008, compared to a 31 percent 
loss during the same period last year. Despite significant efforts over 
the past year and a half on the part of USDA, state departments of 
agriculture, and land-grant university researchers to understand the 
most recent manifestations of pollinator die-offs, Colony Collapse 
Disorder, its cause and cure remain unknown.
Status and Progress to date
    Government, industry and the private sector have mobilized to 
address this problem. Important timely funding to address this problem 
has been received from the beekeeping industry, in particular the 
National Honey Board and beekeeping organizations, the Pennsylvania and 
Florida Departments of Agriculture, The Pennsylvania State University 
(HATCH funds), USDA; CSRESS, Haagen-Dazs, and many concerned public 
groups and individuals. Two grants totaling $250,000 from Haagen-Dazs 
were made to Penn State and UC Davis. At Penn State, an additional 252 
gifts from individuals, foundations and small businesses have been made 
totaling $52,884. Of these, 150 gifts totaling $7,300 were made as a 
direct result of the Haagen-Dazs web site. This creative effort to 
support research into pollinator decline and public education on the 
importance of pollinators is relatively new and additional funding is 
expected as a result of this unique effort initiated by Haagen-Dazs. 
However many of the research and education activities to date have 
relied on short-term and somewhat uncertain funding sources.
    Critical ongoing research projects by the CCD working team include 
the potential role of IAPV as a major contributing factor causing CCD. 
The initial work identifying IAPV would not have been possible without 
the assistance of Dr. Ian Lipkin and resources from a Northeast 
Biodefense grant from NIH awarded to Columbia University. Since this 
work is not directly related to human health, this significant 
contribution to CCD research has ended. Studies are underway to 
evaluate the pathogenicity of IAPV to honey bees in a controlled 
greenhouse; additional studies are planned for field studies through 
the CAP grant. A recent survey of bee colonies from 11 states has 
revealed that IAPV is more widely distributed than previously observed; 
however, it and other viruses are regarded as being major contributors 
to colony death.
    Two long-term studies following 260 colonies in different migratory 
operations was initiated and conducted by a multi-institutional team 
including PSU, PDA, NCS and the USDA. Over the course of this 
experiment 3,702 samples were collected while the health of these 
colonies was assessed over time. Some of these samples are now being 
tested for levels of parasites, viruses, and pesticide residues. These 
long-term studies have also highlighted several other previously 
undescribed conditions in honey bee colonies that appear to have a 
negative impact on colony health, such as ``entombed'' pollen. Theses 
samples will also be an invaluable resource when we begin to test the 
predictive value of diagnostic tests which are presently in the final 
stages of development. For instance, based on the autopsies of several 
thousand bees, we hope to develop a CCD diagnostic test based on gross 
symptoms. When this diagnostic key is finalized it can be tested 
against samples in storage to validate the tests ability to predict 
disease outbreak. The USDA/ARS, PDA and PSU have also initiated studies 
to develop practical and effective ways for beekeepers to control 
parasitic infections, such as Nosema and Varroa mites.
    Ongoing research into the role of pesticides in pollinator decline 
and CCD includes a study to track colonies heath and pesticide exposure 
in three Pennsylvania apple orchards, the use of gamma radiation to 
mitigate pesticide build-up in wax combs and foundation, lab bioassays 
on the synergistic effects of multiple pesticide residues and the 
potential impacts of pesticide adjuvants.
    At present, the CCD team has not been able to identify a single 
cause for CCD. We are now performing a multi-factorial analysis on the 
data set resulting from the initial CCD sample collection. Over 180 
analyses were preformed on a common set of colonies by more than seven 
different laboratories. We are hopeful that the multi-factorial 
analysis will highlight those factors, which, in combination, might 
explain CCD. Factors likely working together, including the recently 
identified IAPV plus the parasitic microsporidia and Kashmir Bee Virus, 
pesticides, poor nutrition, and varroa mites are stressing the bees 
(and the beekeepers) beyond their abilities to cope. This scenario 
makes the situation far more complex and difficult to understand and to 
``fix.'' However, the potential ramifications of not understanding the 
collapse of our biological systems, in this case, pollinators are huge 
and potentially disastrous on many levels, including the sustainability 
of our food supply as we know it.
The Potential Role of Pesticides
    As the original member of the CCD working team charged with 
investigating the potential role of pesticides in CCD, I have, over the 
past 18 months worked closely with chemist and toxicologist, Dr. Chris 
Mullin, and physiologist Dr. Jim Frazier on the question of whether or 
not pesticides are contributing to pollinator decline in general and 
CCD specifically. This work would not be possible without the 
assistance of chemist Roger Simonds and the services of the USDA, 
Agricultural Marketing Service, National Science Laboratory in Gastonia 
NC and our CCD working team colleagues and their teams; especially 
Dennis vanEngelsdorp from the Pennsylvania Department of Agriculture/
PSU and Dr. Jeff Pettis with the USDA/ARS in Beltsville MD.
    Honey bee exposure to chemical pesticides has long been a concern 
of beekeepers and growers alike. Over one half of our 2.4 million 
colonies is utilized for crop pollination and typically employed on 
several different crops per season. These colonies are at risk of 
exposure to the pesticides used by growers to control pest insects, 
diseases and weeds. Beekeeper use of miticides within the beehive to 
control varroa mites is cause for concern due to their potential 
impacts on developing bees (especially queens) and contamination of 
hive products. In the past, pesticide poisoning of honey bees has been 
associated with lethal exposure and the obvious symptom of a pile of 
dead bees in front of the hive. We are becoming increasingly concerned 
that pesticides may affect bees at sublethal levels, not killing them 
outright, but rather impairing their behaviors and their abilities to 
fight off infections. For example, pesticides at sublethal levels have 
been shown to impair the learning abilities of honey bees and to 
suppress their immune systems. For these reasons, we believe that 
pesticide exposure may be one of the factors contributing to pollinator 
decline and to CCD.
    In 2007 we analyzed pollen, wax and bees for pesticide residues. A 
significant number of samples analyzed were from operations impacted by 
CCD and control operations (not impacted by CCD) that were collected by 
members of the CCD working team as part of a larger CCD study. 
Additional samples were collected from honey bee colonies placed in 
specific Pennsylvania apple orchards (PSU field study) and a third 
source was pollen, wax or bees submitted by beekeepers who placed their 
bees in specific crops, or who were concerned about the declining 
health of their colonies.
    In a total of 108 pollen samples analyzed, 46 different pesticides 
including six of their metabolites were identified. Up to 17 different 
pesticides were found in a single sample. Samples contained an average 
of 5 different pesticide residues each. Only three of the 108 pollen 
samples had no detectable pesticides. In a total of 88 wax samples 
analyzed, 20 different pesticides including two of their metabolites 
were identified. As was found in pollen, fluvalinate, coumaphos, 
chlorpyrifos, and the fungicide chlorthalonil, were the most commonly 
detected pesticides with fluvalinate and coumaphos detected in 100% of 
the samples.
    Unprecedented amounts of fluvalinate (up to 204 ppm) at high 
frequencies have been detected in brood nest wax, and pollen (bee 
bread). Changes in the formulation of fluvalinate over time resulting 
in a significant increase in toxicity to honey bees, makes this a 
serious concern. The large numbers and multiple kinds of pesticides 
that have been found could result in potentially toxic interactions for 
which there are no scientific studies to date. European researchers 
have found similar pesticides and frequencies in hive matrices and 
express similar concerns. Also these chronic levels of pesticides in 
pollen and wax at potentially acute toxicity levels need further 
investigation with regard to their potential interactions with other 
stressors (e.g., IAPV) and their potential contribution to CCD.
Closing Remarks
    We know that pesticides are present in the food the bees are 
consuming, in the wax combs where they develop and live, and in the 
bees themselves. What we don't know is how these chemical residues are 
affecting the bees. From February 2007 to the present, $247,334 has 
been committed to our work on pesticide research. Of the $96,000 spent 
to date, $57,683 or 60% has been paid to the UDSA for pesticide residue 
analysis. If this service could be provided at a reduced cost, it would 
allow us to redirect our limited research dollars to understanding the 
impact pesticides are having on honey bees and other pollinators.
    For most of the last 20 years US beekeepers have had essentially 
only two registered chemical miticides to combat the most significant 
honey bee pest in the world, the varroa mite. Granted three ``soft'' 
materials have been registered more recently, but these are of limited 
use for our large commercial beekeepers. These materials require 
specific time and temperatures to work and often give sporadic results 
not amenable to migratory operations. There has been little effort 
invested in finding biologically-based alternatives to pesticides, 
including the most promising, the development of bees resistant to 
mites. Thus, the varroa mite, known to transmit diseases, possibly 
including the newly identified IAPV, and to impair the honey bee immune 
system has been largely ignored by industry and researchers, thus 
beekeepers have been left to their own devices to try to control it. 
Additionally, the chemical miticides being used to control varroa 
mites, accumulate in the wax combs and pollen reserves and are possibly 
contributing to the bee's demise as much as they are controlling the 
mites. For the beekeeping industry to survive we must have safe, 
effective varroa mite control methods. This will only happen if 
significant new resources are focused in this direction.
    While in the long run honey bees will most likely survive, our 
beekeepers may not. In an effort to keep their bees alive and their 
businesses afloat, and to meet critical pollination contracts they have 
pushed themselves to the limits financially, emotionally and physically 
during the past 18 months. Direct financial assistance is overdue, and 
is critical to their survival, or next years agricultural pollination 
needs will not be met. One immediate small step would be to exempt 
beekeepers from paying the sugar tariff on sugar used to feed their 
bees. I urge the Committee to consider these five suggestions for 
improving our efforts to find the cause or causes for CCD and save our 
pollination industry before it is too late.
    I thank you for this opportunity to provide testimony and would be 
happy to answer any questions.

    The Chairman. Thank you, Ms. Frazier. Your testimony is 
compelling. I am sure that Members will have significant 
questions.
    I am going to open it up for questions at this time and I 
will begin the questioning with Dr. Knipling. In your 
testimony, you state that one area of research focus has been 
on determining whether pesticides are associated with CCD and 
that you continue to analyze bee samples for their pesticide 
exposure. Can you give the Committee a sense of the universe of 
these samples under consideration and how many of these samples 
have been examined to date?
    Dr. Knipling. Certainly, sample analysis is very critical 
to support of all of the efforts you have heard about and in 
fact much of the progress and our understanding of the 
directions that we need to take are based upon those sample 
analyses. There have been a considerable number of samples 
tested at considerable expense. They are expensive. I don't 
know the precise number--we could provide that for the record--
but I think it is on the order of 4,000 to 5,000 samples and 
over $100,000 has been spent from various sources and from 
various projects. There are probably about that many remaining 
samples and these samples are bee samples, pollen samples, and 
wax samples. About \2/3\ of the analyses that are required are 
for pathogens, the various pathogens we have heard about, and 
perhaps about \1/3\ for pesticides. Certainly the additional 
resources that we now have and will be forthcoming will allow 
us to move forward on this.
    We do know, however, that based on the samples that have 
already been analyzed, they have given us a very good sense of 
direction and helped us to establish and define hypothesis-
driven research. Certainly, the priorities for sample analyses 
will be given to those samples coming from those research 
projects, as opposed to samples that have come from various 
sources unrelated to research projects. But we are well on 
track of this issue and we have the increasing resources to 
address the problem.
    The Chairman. I would like to follow up on that. I 
understand from your testimony that these samples are being 
examined by AMS for pesticide residues. Can you describe the 
mechanism and/or the relationship between ARS and AMS in 
conducting the analysis of these samples? It has been reported 
to the Committee and it comes up in witness testimony today 
that samples are not being examined on a timely basis. You 
mentioned that half of them have not been examined yet. And I 
understand that AMS involvement in this analysis is on a fee-
for-service basis. You just heard from Ms. Frazier that it is 
very expensive and is using a great deal of their resources. 
Can you discuss this in some great detail?
    Dr. Knipling. Yes. The Agricultural Marketing Service 
facility in North Carolina operates a pesticide testing 
capability on a user-fee basis. That capability has been in 
existence for some time unrelated to this issue. AMS is 
responsible for the so-called pesticide data inventory for 
agricultural samples which they do on a user-fee basis. They do 
not have a mission responsibility with respect to this honey 
bee issue. The testing they have done has been based upon the 
resources that have been provided to them from the researchers, 
both the ARS researchers and the university researchers. There 
has been support from some of the other state-level 
organizations as well. The tests are expensive, depending on 
whether it is bees, pollen or wax, perhaps up to $200 per 
sample, and as the researchers can pay for those samples, they 
will be tested. With the new additional resources, we see that 
considerable additional progress will be made in that area.
    The Chairman. Dr. Knipling, the ARS CCD work plan 
coordinates the Federal strategy in response to this problem. 
In the March 2007 hearing, we heard from a number of witnesses 
who stress the need for increased data collection and accurate 
annual surveys of bee colonies and bee health. Can you describe 
for the Committee the activities that USDA has undertaken to 
increase the data associated with an accurate assessment of 
pollinator health? Your testimony seems to indicate that action 
on a national bee health survey is sometime in the future. Is 
USDA solely at the mercy of appropriators in paying these 
resources to conduct these surveys, and is there any other 
means that we can expedite this critical aspect of what we need 
to have happen in order to get to the bottom of this?
    Dr. Knipling. The data we have to date, and some of the 
loss numbers I quoted earlier in my testimony, are based upon 
surveys that have been conducted by some of the ARS researchers 
in cooperation with the Apiary Inspectors of America. Those are 
the state department of agriculture-level organizations. And we 
are using research dollars to do this and they are using state-
level resources as well. APHIS is planning, as indicated and as 
authorized in the new farm bill, to conduct a more systematic 
national survey of honey bee health and pests, and that is in 
process at this point. The planning for that survey, I 
understand, is in process.
    The Chairman. When can we expect the results from that 
survey?
    Dr. Knipling. The planning, of course, is just being 
initiated, and then I imagine it would take months, perhaps a 
full season, to get the additional data. But this is, as you 
said at the outset, a very difficult and complex issue and we 
are continuing to address all avenues as resources permit.
    The Chairman. One of the things that I am wanting to 
discuss with you today, certainly we all realize that this is a 
big problem, and I am not in any way holding this hearing in an 
effort to beat you all up, but we have to find out and we have 
to hear from you very directly what are the necessary resources 
needed to be brought to bear on this problem in order to find 
out the information that we need to get to the bottom of this 
question. I am a little concerned that we are a year from the 
last hearing and we still don't know all of the requests that 
are needed to get to answers, and that is something that is of 
grave concern to me. Do you have a response that you would like 
to share?
    Dr. Knipling. I would just acknowledge that we are very 
conscious of the concern and we are addressing it as vigorously 
as we can with the resources available to us.
    The Chairman. That is my point, sir. We need to know if 
there are additional resources that need to be brought to bear. 
That is something that this Committee needs to be aware of, and 
we just heard from the appropriators today what the level of 
resources that they have allocated. Now, you have friends on 
this Committee who want to get to the bottom of this question. 
If you don't tell us what we need to do, then we can't be your 
advocates in making sure that the appropriators provide those 
dollars. Now, either the President hasn't requested enough 
dollars or we have not provided them, but one way or another, 
we can't let this problem go on for lack of funding. So I just 
reiterate my request that you need to tell us what the 
impediments are so that we can get to the bottom of this.
    Dr. Knipling. Well, we will certainly provide additional 
information for the record, and the new resources that were 
requested in the President's Fiscal Year 2009 budget and, as 
you acknowledged earlier, the House Subcommittee action will 
help us move in that direction.
    The Chairman. Thank you.
    Dr. Delaplane, both you and Dr. Knipling have raised the 
role of the Israeli acute paralysis virus as a marker for CCD. 
Your proposal has an IAPV component. What kind of research is 
needed to explore the possibility of a causal link? How long 
does research of this nature take? And Dr. Knipling, you are 
welcome to weigh in on this as well as Dr. Delaplane, if you 
could just comment on the resources issue if you see fit.
    Mr. Delaplane. The situation with IAPV, as well as any of 
the disorders, to rigorously assign cause and effect would have 
to go through a step called Cox postulates which is a standard 
epidemiological method of trying to reproduce symptoms when the 
pathogen is artificially inserted into the host, let the 
pathogen reproduce in the host and then reinfect another 
generation of the host. This is the most rigorous way to pin 
down cause and effect, and the studies that we are proposing--
which, I should say, will be led primarily by Dr. Diana Cox 
Foster at Penn State--involve this type of design work.
    The Chairman. Thank you, sir.
    Ms. Frazier, you state in your written testimony that there 
has been little effort or investment in finding biologically 
based controls for bee parasites. Can you expand on your 
statement and your call for significant new resources as we 
were just discussing with regard to biological-based materials?
    Ms. Frazier. Sure, and I don't want to say that there have 
been no resources or no effort. Certainly there has been by the 
USDA and by researchers as well, university researchers as 
well, but I think you have to understand that the bee research 
community unfortunately is quite small. So, the number of us 
trying to address this problem along with the resources that we 
have had to tackle this huge problem of Varroa mites, and 
particularly trying to find biological alternatives to its 
control, has been very minimal compared to the size of the 
problem. If you are asking me what would it take, that is a 
difficult question. But certainly what we need is more people, 
more manpower to address this problem of alternatives, and I 
think one of the ways to do that is through critical issues 
funding through USDA CSREES to develop a critical issues 
project that would be devoted specifically to Varroa mite 
control alternatives. And I think that the research community 
as a whole, like the group that came together to design the 
CAP, could do the same for an effort made specifically to 
finding alternative controls for Varroa mites.
    The Chairman. I have taken significant liberty about going 
over my time so far but I am going to take that liberty one 
more time. Ms. Frazier, you also advocate in your testimony the 
need for reduction in cost of the pesticide analysis service 
provided by USDA and AMS, which we discussed. You said in your 
testimony 108 pollen samples were analyzed. Do you know how 
many samples are waiting for analysis?
    Ms. Frazier. Well, there are several different efforts that 
are ongoing. Some are just at Penn State. Some are 
collaborations between Penn State and USDA. Some are including 
the Department of Agriculture in Pennsylvania and Florida. Our 
best recollection is that there are about 2,000 samples, our 
best estimate is that there are about 2,000 samples that need 
to be analyzed, which would be a cost of well over $200,000. 
Again, the idea of trying to reduce that cost would be very 
significant to our research effort.
    The Chairman. It seems like a significant problem. I just 
want to be sure, are those samples waiting solely due to the 
lack of funds?
    Ms. Frazier. Yes.
    The Chairman. Thank you.
    Mr. Neugebauer had to go to a classified briefing that he 
was compelled to attend and has been excused from the hearing. 
In his place, Mr. Latta from Ohio has taken over the chores of 
Ranking Member here and we will now allow him to ask questions. 
Welcome, Mr. Latta, and please proceed with your questions.
    Mr. Latta. Thank you very much, Mr. Chairman. I appreciate 
that. I also would like to thank you for this hearing. Where I 
come from in northwest Ohio, this is a big issue, and I know 
firsthand from when my cousin had--I want to use the word 
``had''--bees, and I would help him on many occasions when we 
would bring the honey in to get it extracted. I know of many, 
many cases across our area where we have lost bee hives and 
also in my old Senate district along Lake Erie, some of the 
people I used to represent had 10,000 apple trees and it is 
very important up there along with apples and peaches and 
everything else to make sure that these hives remain active and 
we can get this problem solved.
    Dr. Knipling, if I could ask a couple questions, the first 
being, is there any collaboration between Canada, the United 
States and Mexico to establish pollinator monitoring projects 
for all of North America?
    Dr. Knipling. I am not aware of any specific collaboration 
of the type we have been talking about this morning. Certainly 
we do have collaborations generically with the research 
organizations in those countries, the national research 
organizations as well as many of the universities, but I could 
provide some additional information for the record.
    Mr. Latta. Thank you. Also, does the USDA regulate the 
interstate movement of honey bees and honey bee pests?
    Dr. Knipling. It is my understanding that there are no such 
regulations except perhaps in the case of Hawaii, which does 
not have the Varroa mite on all of its islands, but again, I 
would seek some assistance from our APHIS partners and USDA and 
provide that information. They would have the responsibilities 
for those quarantine-type activities.
    Mr. Latta. Another question pretty much along the same 
lines is on the importation of honey bees into the United 
States and how do we justify allowing these importations?
    Dr. Knipling. Once again, that would be a question I would 
seek input from APHIS on. Moving the honey bees is quite 
common. Other countries do provide breeding stock for the 
commercial bee industry. Also, sources of genetic resistance 
for our research efforts are important. The honey bee we have 
now was introduced from Europe many years ago, so we are very 
highly dependent in the United States on germ plasm resources 
from other countries under proper regulation and insurance that 
they are not carrying pests. But once again, I could provide 
information on the regulations in place regarding imports from 
other countries.
    Mr. Latta. Thank you very much, Mr. Chairman.
    The Chairman. Thank you, sir.
    Now I would like to recognize my colleague, Mr. Etheridge, 
Mr. Bobby Etheridge from North Carolina, and I just want to 
congratulate him on the work that he did with regard to the 
farm bill and getting it to goal, and the work he continues to 
do on the energy front through the Agriculture Committee. The 
Agriculture Committee is responsible for commodity trading and 
so we have a significant role in dealing with this current oil 
crisis, and Mr. Etheridge is a leader in making sure that the 
American people aren't shortchanged. So Mr. Etheridge, I 
recognize you and thank you for your work.
    Mr. Etheridge. Thank you, Mr. Chairman. Let me thank you 
for calling this hearing and let me say to our folks who are 
testifying and others who may follow, if you see me slip out, 
we are going to have a bill on the floor today, so I may be 
back and forth over there speaking. But let me thank you for 
being here.
    My State of North Carolina has sort of changed its crop mix 
and we are putting a lot more fruits and vegetables out so this 
is an issue of importance to the people in North Carolina. I 
was telling the Chairman a little earlier, most of us who grew 
up on a farm, as I did, and just had a few fruits and 
vegetables, didn't think about it or realize that honey bees 
were really all that important. We thought they were a nuisance 
from time to time, especially if you got out in your garden and 
one of them stung you. But today we have a much greater 
appreciation as we have larger and larger fields where we 
produce a lot of fruits and vegetables that supply the world. 
One of the common observations that I picked up in this hearing 
is that we don't really know what is causing CCD, or at least 
we are not certain as to any one thing, and I guess since this 
problem has arisen relatively recently, is it possible there 
was some type of similar problem that we experienced back in 
the 1980s? As you remember, in the 1980s we had a mite problem. 
It took a while. We figured it out. And my question is, is it 
similar to that, or in your opinion, what can be done to 
maximize--I know we are working on it but it seems to me we 
ought to be able to maximize our Federal support at our 
university-based research to really focus on this problem. I 
know we took some action in the farm bill, as the Chairman 
indicated earlier, but it seems to me that that is where we can 
get the quickest return and the biggest bang for the buck to 
get this fixed. Whoever would like to answer, or all three of 
you.
    Dr. Knipling. I will start. As has been pointed out, the 
honey bee science community is actually very small relative to 
other disciplines. We have at ARS approximately 15 scientists 
scattered among four different laboratories and university 
depth is often much more shallow than that------
    Mr. Etheridge. Do we know how many------
    Dr. Knipling.--one or two persons.
    Mr. Etheridge. Do we know how many universities have some 
expertise?
    Dr. Knipling. Perhaps my colleagues could help me on that. 
No, I don't know offhand. But let me just say that these new 
resources that we have available will help us bring in other 
disciplines, maybe not honey bee scientists but 
microbiologists, genomic scientists and so forth. So, we see a 
great opportunity to bring more expertise to this problem, and 
sometimes those outsiders have some insights and abilities to 
suggest some promising areas that we may have overlooked.
    Dr. Delaplane. I might add that we have seen in this 
session a couple good examples, more industry involvement, some 
real innovative things with Haagen-Dazs and Burt's Bees, for 
instance, and these types of linkages should only be encouraged 
and increased. Specific areas like the Critical Issues 
Initiative with CSREES is a logical place to pump more dollars 
into this, and the CAP program of which I have written a 
proposal is also a good model for targeted issues like bee 
decline.
    Ms. Frazier. Just in answer to your question about the 
number of researchers at universities, I don't know the exact 
number, but over the last few years researchers and extension 
specialists focused on bee or apiculture has dramatically 
declined. It is a small industry and unfortunately resources 
and personnel have just not gone in that direction. I do 
totally agree that what we also need is not necessarily 
researchers who are trained, for instance, in apiculture, but 
we need toxicologists and pathologists and physiologists. We 
need to bring that kind of expertise to bear on this problem. 
It is a very big and a very complex problem and unfortunately, 
for better or worse, researchers go where the funding is. So if 
we had significant resources, I think we would get that kind of 
expertise, researchers working on this kind of problem.
    Mr. Etheridge. I thank you. I think that is important.
    Dr. Delaplane, you mentioned the importance of increasing 
the funding and all of you touched on that to combat the CCD 
and I agree that is important. I think we all agree on that 
one. But tell me what are universities studying to see what 
kind of things they are doing, asking individual landowners how 
they can help, what kind of information they have. It seems to 
me, as has just been stated, they have a lot of information. I 
wonder if we are really getting that information then to use 
because it seems to me the person who is at the end of that 
food chain, so to speak, would have pretty good information as 
to be able to assist the researchers.
    Dr. Delaplane. We do, and we are certainly not starting at 
ground zero. Bee decline has been an interest for literally 
decades, and some aspects of this can be tracked back to the 
1940s even with declining bee numbers. So this in some sense is 
not new so we do have a large information base to capitalize on 
with the current crisis. I guess that raises a question, what 
is the current crisis, and I think it is an acute expression of 
trends that we are already familiar with. We have been seeing 
declining bees and it is getting worse. So that is what is new. 
So I make that point just to emphasize that several university 
programs have been working on issues related to this. One thing 
that is really exciting about the present situation is the 
ability to coordinate all of this, and to sort of get all on 
one page and to avoid redundancies, and to use our resources 
more effectively, and I see that happening with some of these 
funding opportunities that we are seeing now.
    Mr. Etheridge. Ms. Frazier, let me ask you, and others may 
want to comment on this because it seems when something appears 
relatively quickly and we don't have a quick answer, I really 
wonder, is there any indication that this is regional, in 
regional parts of the country?
    Ms. Frazier. No.
    Mr. Etheridge. Could it be affected by drought or change in 
weather patterns? Have you got enough research to indicate 
whether that could be an impact? I know in our part of the 
country we may be starting the third year of a drought, which--
----
    Ms. Frazier. It certainly would be helpful if that was the 
case but unfortunately, it is not the case. This is very much 
nationwide. If you had to kind of characterize it in any one 
way, I would say unfortunately it does seem to be a problem 
mainly in our large commercial migratory operations. That is 
CCD. Overall pollinator decline, though, is across the board in 
terms of all beekeepers whether they be small, migratory or 
not. We have been seeing this decline of pollinators, as Keith 
just described, for years. But CCD does seem to be particularly 
a problem among our large commercial migratory beekeepers.
    Mr. Etheridge. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Just a follow-up on that last question. Does it continue to 
seem to be a worldwide problem or is there some improvement in 
other parts of the world?
    Ms. Frazier. Pollinator decline is most certainly a 
worldwide problem. Whether or not it is CCD is a hard thing to 
discern at this point. In many parts of the world, they don't 
do a very good job at actually--I mean, certainly in Europe, 
they have a very good handle on declines, numbers of bees, 
numbers of bees that are dying for whatever reasons, but in 
many parts of the world like South America and Africa and so 
forth, this information is not collected and not documented. In 
Europe, certainly for a number of different reasons, they have 
had significant declines and not the least of which they 
blame--certainly their declines in the most recent one, for 
instance, in Germany--on pesticides.
    The Chairman. Thank you.
    Dr. Knipling, I want to thank this panel in general for 
their testimony and thank you, sir, specifically but also I am 
going to be wanting to follow up, this Committee is going to 
want to follow up with USDA and your agency with regard to 
adequate funding levels and that question. We are not going to 
let this just die with this hearing closing today. So I would 
encourage you to be in contact with my staff on the Committee 
because we are going to have a lot of further questions and 
follow-up, and I don't want this to just sort of languish until 
next year.
    Dr. Knipling. Yes, Mr. Chairman, and we will work with you 
and your staff and provide the requested information.
    The Chairman. Thank you very much. With that, I would like 
to dismiss this panel, thank you for your testimony, and call 
up our second panel. As you are coming forward, I would just 
like to mention that it is anticipated that we are going to 
have a series of votes coming up. We could have up to nine 
votes, which would take a significant amount of time if in fact 
they are called. So we are going to have to try and move the 
hearing along as best we can. With the next panel coming 
forward, I would ask you to submit your written testimony and 
please summarize and give us your best summation, in as brief a 
fashion as possible, the salient points that you want to convey 
in live testimony to the Committee. So with that, I will call 
and introduce the next panel.
    The staff has actually come up with a good suggestion, and 
what I would like to do is combine both panels two and three, 
so if we can all just shift over a bit, bring up some chairs. 
The staff is going to try and rearrange the name placards, and 
we will try and make one large panel of the next witnesses who 
are planning to testify. So staff, if you can take the other 
name placards down. Sorry for this rearranging, but this often 
happens in Congress. I have noted that you are not sitting in 
order, which I can't blame you for after all the moving around. 
I will call you up individually in the correct order that we 
had laid you out on the panel, because there is some rhyme and 
reason to why we have done it this way. I would like to begin 
by introducing our witnesses. First of all, I will introduce 
you all and then I will introduce you one by one.
    We have with us today Mr. Steve Godlin, beekeeper from 
Visalia, California. Welcome. We have Dr. David Mendes, Vice 
President of the American Beekeeping Federation from North Fort 
Myers, Florida. We have Mr. Robert Edwards, producer from 
Whitakers, North Carolina, who is a constituent of Mr. 
Etheridge's and I believe he will want to introduce you when he 
comes back. We have Mr. Edward Flanagan, President and Chief 
Executive Officer of Jasper Wyman and Sons, Millbridge, Maine. 
We have with us as well Ms. Katty Pien, Brand Director, Haagen-
Dazs Ice Cream, Oakland, California. Welcome very much. We have 
Mr. John Replogle, President and CEO of Burt's Bees, Durham, 
North Carolina. Welcome. And Ms. Laurie Davies Adams, Executive 
Director of the Pollinator Partnership in San Francisco, 
California. Welcome to you all.
    Mr. Etheridge, we have combined panels two and three so 
that we can hopefully expedite. We have asked our witnesses to 
summarize their testimony, to submit their written testimony 
and just give us their salient points in their oral testimony.
    We will now start out with Steve Godlin, beekeeper from 
Visalia. Steven, welcome. Thank you very much for being here 
with us today and the floor is yours.

  STATEMENT OF STEVE GODLIN, BEEKEEPER, S.P. GODLIN APIARIES, 
                          VISALIA, CA

    Mr. Godlin. Thank you, Mr. Chairman, honorable Committee. 
My name is Steve Godlin. I am a commercial beekeeper from 
Tulare County in California's Central Valley. I am here today 
to give you an update on the condition of our industry.
    Before I do, I would like to say my old mentor, Hood 
Littlefield, was here 40 years ago and he is the guy that got 
me in business, and he always said Steve, take care of your 
bees and the bees will take care of you, and he was a great man 
and I hope to honor him here today.
    The Chairman. It sounds like great advice, sir.
    Mr. Godlin. Our bees look good today. We have over 5,000 
hives alive and well, and this is about where we were last year 
at this time. Things started to unravel in the middle of July. 
By the time October mercifully arrived, we were down to 2,500 
hives and not the strongest hives at that. But like all good 
farmers, we took what money we made and dumped it back into the 
bees. We took a 50 percent hit and survived because we are 
fortunate to have our operation based in the best place in the 
world for bees, the heart of the almond industry. In case you 
haven't heard, cotton is no longer king in San Joaquin. 
Currently there are 660,000 acres producing and would be more 
if not for the water crisis in our state. This requires about 
1.3 million hives of bees. The number of managed hives in 
California has dropped despite beekeepers' efforts to meet 
growers' demand. Bees are now being shipped into California 
from everywhere in the United States. Even Australia is trying 
to get in the game.
    We have created the biggest experiment ever performed on 
the honey bee. Take bees from all over the continent and stick 
them in the valley to mingle and forage together with mites and 
diseases, an apparent list of viruses as long as your arm and 
see what happens. Or maybe this isn't what is wrong. Haven't we 
heard bees around the world are having a problem and beekeepers 
here in the United States who do not ship bees to California 
are losing hives as well.
    We began to notice these losses in recent years. We have 
had rough years from time to time with higher than usual 
losses, but nothing has been on the levels we are facing right 
now, and this is why there has been all this attention on us. 
People now realize that that $15 billion worth of food that 
requires pollination to exist is a lot of pretty delicious 
stuff.
    We appreciate this attention and have been encouraged by 
the legislative actions. At home, the bee lab at UC Davis is up 
and running again thanks to generous contributions by 
beekeepers, almond growers and companies like Haagen-Dazs Ice 
Cream, who donated $250,000 to honey bee research and is 
running a priceless ``Save the Bee'' ad campaign. We couldn't 
buy this.
    Researchers across the country have been collaborating on 
projects in an attempt to find answers. Beekeepers themselves 
have put aside their differences and are working with the 
scientific and governmental communities, as well as each other, 
on an unprecedented level. I know the fact that our two 
national organizations had a shared conference this year speaks 
volumes to the importance of this issue.
    I am here today to ask that you continue to fund honey bee 
research. There are some very important projects just getting 
up and started and we really haven't time to waste. I hope we 
are getting there. The middle of July is looming and I am more 
than a little worried. We are providing our bees all the 
supplemental nutrition and fresh queens we can. We are treating 
for Nosema ceranae aggressively and hope for a better fall than 
this last one.
    Of critical importance is bee pasture. Like any other 
animals, bees need forage. Recently there has been a lot of 
discussion about bee farms where forage is planted specifically 
for bees. CRP land in the Midwest is a perfect example of this 
but, as you all know, this is going away fast. Feedlot 
beekeeping is not working. I have seen areas in California 
where literally thousands of hives are gathered in a few square 
miles with disastrous results. It is a very unnatural situation 
for the bees when all they have to feed on is each other.
    Finally, I would be remiss if I didn't talk about 
pesticides. Thirty to 40 percent of our honey and pollen 
sources are wild from the Sierras, the Mojave Desert and the 
coast range, all based on rainfall. All the rest comes from 
irrigated crops where we are guests, and a good guest doesn't 
complain about the smell on his food while he is eating at his 
host's table. It has been a very delicate task to make what 
little headway we have, thanks in part to public awareness and 
everyone's desire for a cleaner world. All farmers bear a 
tremendous burden to produce food safely and still make a 
profit.
    I am proud to be a part of the greatest agricultural 
powerhouse in the world. I know that the honey bee industry is 
an odd, hard-to-fit gear in this machine and the average person 
needs to understand that food doesn't magically appear at our 
grocery stores who, by the way, need to step up and help with 
this education.
    Thank you for your time. I am a producer. I believe hard 
work is a cure for everything and I know we all need to work 
smarter, not harder. Please be smart. Thank you and good luck 
to us all.
    [The prepared statement of Mr. Godlin follows:]

 Prepared Statement of Steve Godlin, Beekeeper, S.P. Godlin Apiaries, 
                              Visalia, CA
    Chairman Cardoza and Members of the Subcommittee:

    My name is Steve Godlin; I am a commercial beekeeper from Tulare 
County in the middle of California's central valley by the western 
foothills of the Sierra Nevada. I am here today to give an update on 
the condition of the honey bee industry right now.
    Our bees look good. We have over 5,000 hives alive and well in the 
field today. We are coming off a surprisingly good desert buckwheat 
honeyflow considering the dry spring we had. I am very encouraged by 
the honey prices and the pollination season ahead in 2009.
    This is about where we were last year at this time. Things started 
to unravel in the middle of July. By the time October mercifully 
arrived we were down to 2,500 hives, and not the strongest hives at 
that. But like all good farmers, we took what money we made and dumped 
it back into bees.
    We traveled to South Dakota and bought $100,000 worth of bees from 
another beekeeper and put them into our empty equipment and shipped 
three semi loads of bees across the country. We arranged to buy another 
semi load of bees from a man in Minnesota. We arranged to lease another 
5,000 hives from beekeepers in North and South Dakota, Minnesota and 
Texas. We were up and running.
    We took a fifty percent hit and survived because we are fortunate 
to have our operation based in the best place in the world for making 
money with bees, the heart of the almond industry. In case you haven't 
heard, cotton is no longer king in the San Joaquin. Almond acreage is 
at an all time high and is an economic juggernaut for California 
agriculture.
    Currently there are 660,000 acres producing and would be more if 
not for the water crisis in our state. This requires about 1,300,000 
hives of bees to pollinate them. The number of managed hives in 
California has dropped to around 400,000 hives despite beekeepers' 
efforts to meet growers' demands. Bees are now being shipped into 
California from everywhere in the U.S.; even Australia is trying to get 
in the game. Now I have to go to national bee conventions and defend my 
state as beekeepers from New York or Montana disparage us and call us a 
gutter for bees.
    We have created the biggest experiment ever performed on the honey 
bee. Take bees from all over the continent and stick them in the valley 
to mingle and forage together with mites and diseases and apparently a 
list of viruses as long as your arm and see what happens. Or maybe this 
isn't what is wrong--haven't we been hearing that bees around the world 
are having a problem? And beekeepers here in the U.S., who do not ship 
bees to California are losing hives as well.
    We began to notice these losses in recent years. We have had rough 
years from time to time with higher than usual losses, and in history 
there have been a few epidemics in the bee world. But nothing has been 
on the levels we are facing now. This is why there has been all this 
attention on us. People now realize that the $15 billion dollars worth 
of food that requires pollination to exist is a lot of pretty delicious 
stuff.
    We appreciate this attention and have been encouraged by the 
legislations actions. At home, the Bee Lab at U.C. Davis is up and 
running again thanks to generous contributions by beekeepers, almond 
growers, and companies like Haagen-Daz Ice Cream who donated $250,000 
to honey bee research and is running a priceless ``save the bee'' ad 
campaign.
    Researchers across the country have been collaborating on projects 
in an attempt to find answers. Beekeepers themselves have put aside 
their differences and are working with the scientific and governmental 
communities as well as each other on an unprecedented level. I know the 
fact that our two national organizations had a shared conference this 
year speaks volumes to the importance of this issue.
    I am here today to ask that you would vote to continue helping to 
fund honey bee research. There are some very important projects just 
getting up and started, and we really haven't time to waste, or money. 
We need results. We need a united effort by all and shared knowledge 
from a variety of fields.
    I hope we are getting there; the middle of July is looming and I am 
more than a little worried. We are providing our bees all the 
supplemental nutrition and fresh queens we can. We are treating for 
Nosema ceranae aggressively and hope for a better fall than this last 
one.
    Beekeeping is more challenging now than it has ever been and you 
dare not walk very far away from them if you expect them to survive. My 
old mentor always told me to ``take care of the bees and they will take 
care of you.'' Well, Mr. Littlefield, I wish I knew what to do.
    Of critical importance is bee pasture. Like any other animals, bees 
need forage. No farmer grows crops just for bees; they grow crops to 
make money. Recently there has been a lot of discussion about bee farms 
where forage is planted specifically for bees. CRP land in the Midwest 
is a perfect example of this, but as you all know this is going away 
fast with the pressure to grow more corn and soybeans. Feedlot 
beekeeping is not working. I have seen areas in California where 
literally thousands of hives are gathered in a few square miles with 
disastrous results. It is a very unnatural situation for the bees when 
all they have to feed on is each other.
    Finally, I would be remiss if I didn't talk about pesticides. 
Thirty to forty percent of our honey and pollen sources are wild such 
as the Sierras, the Mojave and the coast range, all based on rainfall. 
All the rest comes from irrigated crops where we are guests, and a good 
guest doesn't complain about the smell on his food while he is eating 
at his host's table. It has been a very delicate task to make what 
little headway we have, and I would hope that progress is being made, 
thanks in part to public awareness and everyone's desire for a cleaner 
world. All farmers bear a tremendous responsibility and burden to 
produce food that is safe and still make a profit.
    I am proud to be a part of the greatest agricultural powerhouse in 
the world and I know that the honey bee industry is a little, odd, 
hard-to-fit gear in the machine. We need help right now, and we need 
the average person to understand that food doesn't magically appear at 
our grocery stores, which, by the way, need to step up and help with 
this education.
    Thank you for your time. I am a producer. I believe that hard work 
is the cure for everything, but I know we all need to work smarter not 
harder, please be smart.
    Thank you and good luck to us all.

Steve Godlin,
S.P. Godlin Apiaries.

    The Chairman. Thank you, Mr. Godlin. I will tell you that 
your testimony rings true to me. It is certainly the last part 
that you talked about, hard work. That was my daddy's answer to 
everything as well. Maybe because we come from the same part of 
the country, we have the same views on that.
    I have just been informed that we are going to have a 
series of three votes between 11:30 and 11:45. We will continue 
taking testimony through that period of time. We will have to 
recess for those three votes and then I will come back and we 
will probably engage in questions at that time.
    Next up, I would like to call Mr. David Mendes, Vice 
President of the American Beekeeping Federation from North Fort 
Myers, Florida. Welcome, sir. The floor is yours.

STATEMENT OF DAVID MENDES, VICE PRESIDENT, AMERICAN BEEKEEPING 
             FEDERATION, INC., NORTH FORT MYERS, FL

    Mr. Mendes. Chairman Cardoza and Members of the 
Subcommittee, thank you for the opportunity to address you and 
other Members of the Subcommittee who have continued to 
demonstrate your concern about honey bee Colony Collapse 
Disorder, or CCD. My name is David Mendes. I am representing 
the American Beekeeping Federation, a national beekeepers' 
association of about 1,100 members in all 50 states. I hope to 
speak for this organization and also to share with you my own 
personal observations as a beekeeper in the field. I will try 
to keep my comments brief.
    I would like to be able to tell you that over the last 18 
months we have figured out the cause of CCD, but that would not 
be an accurate statement. What I can tell you is that many 
beekeepers have a pretty good idea of what is hurting their 
bees. I hope to share with you my opinions on the problem and 
what we need to do about it. I need to emphasize the 
frustration and in many cases desperation felt by beekeepers 
that have watched large numbers of their bees die and felt 
helpless to do anything about it. Beekeepers are not very good 
at asking for help. We tend to be an independent and self-
reliant bunch. But what is happening now is different than 
anything that we have seen before, and I am convinced that we 
will not solve this problem without a significant research 
effort.
    So far there has been tremendous media coverage of CCD and 
a lot of talk about efforts to solve this problem, but actual 
research money spent in the field has been very little. I would 
encourage you to add up the dollars invested so far. You would 
be amazed to know how little money has been made available for 
such a big problem.
    It is my opinion that CCD is more than just a beekeeping 
problem. There is something in the environment that is making 
our bees sick. It is generally accepted that honey bees can be 
used as indicators of environmental quality. The Defense 
Department has funded projects to use honey bees to locate land 
mines and biological agents that may be used in chemical 
warfare. I can direct you to people that are doing this 
research. It is amazing that a honey bee can detect such low 
levels of toxins even in the parts per billion range.
    I participated in a project coordinated through Penn State 
to collect samples of bees, comb, pollen and honey from my 
hives from March 2007 to January 2008. Two other East Coast 
beekeepers were also involved. For each of us, 18 to 24 hives 
were selected and marked. The goal was to take samples out of 
each hive each time they were moved to a new location. In my 
case, hives were sampled seven times, twice in Florida in the 
spring, once in Maine on blueberry pollination, once in 
Massachusetts on cranberry pollination, and three more times in 
Florida through the fall and winter.
    Samples were collected for analysis with the intent that 
some conclusions could be drawn to compare the conditions in 
the hive that result in survival or death of these hives. 
Varroa mite levels and Nosema spore counts were to be examined 
to either confirm or deny their role in hive mortality. One of 
the most interesting aspects of this study is the ability to do 
pollen analysis for pesticide, fungicide and herbicide levels 
inside the hive. Unfortunately, this type of testing is costly 
and only a few of the samples collected have been analyzed so 
far. The balance are in storage awaiting funding.
    The information from the samples that have been run so far 
is absolutely amazing and certainly the type of data that 
beekeepers need to direct where they can safely keep their 
bees. My first samples from Florida citrus showed levels of 
imidacloprid and aldicarb inside the pollen that are much 
higher than expected. The samples taken while my bees were in 
Massachusetts for cranberries show levels of fungicide in the 
pollen as high as 7,000 parts per billion. It may be 
interesting for you to know that of the 18 hives that began 
this study in March 2007, only 4 of these hives were still 
alive 10 months later. Of these four hives, only one was of 
sufficient strength to pollinate almonds in California in 
February. My calculations show this to be a 95 percent loss on 
these test hives in 10 months.
    I am here this morning to appeal to you that a first step 
in figuring out CCD is to develop a comprehensive program to 
look inside bee hives all across the nation to find out what 
types of substances our bees are exposed to. Beekeepers 
understand that something is making our bees sick, but in order 
to be taken seriously by regulatory officials who control the 
use of agricultural products, we need data to back up our 
opinions.
    I personally contacted the pesticide regulatory department 
in Florida to discuss the levels of imidacloprid and aldicarb 
that my bees were exposed to in Florida citrus, and was 
politely told that nothing could be done to protect my bees 
without proper data collection to show that these products were 
performing differently than show in their original EPA 
certification. In effect, I was educated on how the regulatory 
system works. It is data and not opinion that is needed. This 
makes sense to me and that is why we need to get to work 
collecting this data.
    I know that monitoring beehives and lab analysis of samples 
is expensive. The work that has been done so far has been paid 
for by the industry through our organizations and the National 
Honey Board with some supplemental funding by ARS. The 
institutions doing the CCD work, both government and 
universities, have had to divert money from other projects to 
cover these costs. Companies such as Haagen-Dazs and Burt's 
Bees have been a tremendous help in providing some funding for 
some of this work.
    Who should be shouldering this cost? Right now the 
beekeepers are getting hit with all the expense in the form of 
dead beehives. It would likely be appropriate for the 
manufacturers of pesticides, fungicides and herbicides to share 
in the cost of monitoring the distribution of their products in 
the environment. This should be included as a normal cost of 
selling ag chemicals. Honey bees could be a valuable tool to 
monitor how these products travel in the plants, water and soil 
that they are applied to.
    I am sure that most of the people at this hearing are aware 
of recent actions in Germany to restrict the use of many 
systemic pesticides. This follows regulatory actions originally 
implemented in France to limit the use of these products until 
they can be clearly proven to be safe to honey bees and other 
beneficial insects. Our regulatory system in the United States 
is different than in Europe and it may require more data 
collection to challenge products that have already received EPA 
approval. I say that the effort to collect the data that either 
proves or disproves the safety of these products needs to be 
required now.
    Much of the frustration felt by beekeepers is directed at 
the lack of any concrete actions to address the causes of CCD. 
A comprehensive program to sample hives all over the country 
would be a visible first step to get the ball rolling. If a 
person is sick, the first thing a doctor does is take their 
vital signs and run lab tests. This is the place to begin with 
CCD. The answers to this problem will only be discovered if we 
take the time to look inside our hives.
    I appreciate the opportunity to speak to you this morning. 
I would be glad to offer much more detail or answer questions 
about any of our field observations. Thank you.
    [The prepared statement of Mr. Mendes follows:]

Prepared Statement of David Mendes, Vice President, American Beekeeping 
                 Federation, Inc., North Fort Myers, FL
    Chairman Cardoza and Members of the Subcommittee:

    Thank you for the opportunity to address you and the other members 
of the Subcommittee who have continued to demonstrate your concern 
about honey bee Colony Collapse Disorder (CCD). My name is David 
Mendes. I am representing the American Beekeeping Federation, a 
national beekeepers association of about 1,100 members in all 50 
states. I hope to speak for this organization and also to share with 
you my own personal observations as a beekeeper in the field. I will 
try to keep my comments brief and will be happy to answer any questions 
that you or the Subcommittee may have.
    I started keeping bees when I was in the seventh grade. By the time 
I was in high school, I was in the bee business with over 300 hives. 
Today I operate 7,000+ hives from a base in Florida, with annual 
migration up the East Coast to pollinate blueberries in Maine and 
cranberries in Massachusetts. This past February I sent 15 tractor-
trailer loads of bees to California to pollinate almonds.
    My experience with CCD started with a phone call from my good 
friend Dave Hackenberg in November 2006. I was attending the California 
State Beekeepers convention when Dave told me that something was very 
wrong with his bees. I flew back to Florida a few days later and met 
with Dave to look at the bees he was having problems with. Out of a 
load of over 400 hives he had brought to Florida from Pennsylvania in 
October, less than 40 were still alive a few weeks later. Hackenberg 
went on to discover that many of his other hives were also dying and by 
the end of the year almost 70% of his hives were dead. This episode was 
the opening chapter in the story of Colony Collapse Disorder. During 
that winter of 2006-2007 many other beekeepers experienced excessive 
hive mortality resulting in over 30% hive loss nationwide. The winter 
of 2007-2008 has been worse with some reports of over 37% loss 
nationwide.
    I would like to be able to tell you that over the last 18 months we 
have figured out the cause of CCD, but that would not be an accurate 
statement. What I can tell you is that many beekeepers have a pretty 
good idea of what is hurting their bees. I hope to share with you my 
opinions on the problem and what we need to do about it. I need to 
emphasize the frustration and in many cases desperation felt by 
beekeepers that have watched large numbers of their bees die and felt 
helpless to do anything about it. Beekeepers are not very good at 
asking for help. We tend to be an independent and self-reliant bunch. 
But what is happening now is different than anything that we have seen 
before, and I am convinced that we will not solve this problem without 
a significant research effort. So far, there has been tremendous media 
coverage of CCD and a lot of talk about efforts to ``solve'' this 
problem, but actual research money spent in the field has been very 
little. I would encourage you to add up the dollars invested so far. 
You would be amazed to know how little money has been made available 
for such a ``big'' problem.
    It is my opinion that CCD is more than just a beekeeping problem. 
There is something in the environment that is making our bees ``sick.'' 
It is generally accepted that honey bees can be used as indicators of 
environmental quality. The Defense Department has funded projects to 
use honey bees to locate land mines and biological agents that may be 
used in chemical warfare. I can direct you to people that are doing 
this research. It is amazing that a honey bee can detect such low 
levels of toxins even in the parts per billion range.
    I participated in a project coordinated by Dennis VanEngelsdorp 
from the Pennsylvania Department of Agriculture to collect samples of 
bees, comb, pollen, and honey from my hives from March 2007 to January 
2008. The purpose of this study was to monitor as many variables as 
possible in a small sample of hives to see if any patterns emerge that 
can identify factors causing hive mortality. Two other East Coast 
beekeepers were also involved. For each of us 18 to 24 hives were 
selected and marked. The goal was to take samples out of each hive each 
time they were moved to a new location. Sampling began while the bees 
were in Florida citrus groves and followed each beekeeper as they 
migrated up to the northern crops they would pollinate. In my case, 
hives were sampled 7 times, twice in Florida in the spring of 2007, 
once in Maine on blueberry pollination, once in Massachusetts on 
cranberry pollination, and three more times in Florida through the 
following fall and winter.
    Samples were collected for analysis with the intent that some 
conclusions could be drawn to compare the conditions in the hive that 
result in survival or death of these hives. Varroa mite levels and 
Nosema spore counts were to be examined to either confirm or deny their 
role in hive mortality. One of the most interesting aspects of this 
study to me is the ability to do pollen analysis for pesticide, 
fungicide, and herbicide levels inside the hive. Unfortunately this 
type of testing is costly and only a few of the samples collected have 
been analyzed so far. The balance are in storage awaiting funding for 
the analyses.
    The information from the samples that have been run is absolutely 
amazing and certainly the type of data that beekeepers need to direct 
where they can safely keep their bees. My first samples from Florida 
citrus showed levels of imidacloprid and aldicarb inside the pollen 
that are much higher than expected. The samples taken while my bees 
were in Massachusetts cranberries show levels of fungicide in the 
pollen as high as 7000 ppb. It may be interesting for you to know that 
of the 18 hives that began this study in March 2007, only 4 of these 
hives were still alive 10 months later in January 2008. Of these 4 
hives only one was of sufficient strength to pollinate almonds in 
California in February. My calculations show this to be a 95% loss on 
these test hives in ten months.
    I am here this morning to appeal to you that a first step in 
figuring out CCD is to develop a comprehensive program to look inside 
beehives all across the nation to find out what types of substances our 
bees are exposed to. Beekeepers understand that something is making our 
bees sick, but in order to be taken seriously by regulatory officials 
who control the use of agricultural products, we need data to back up 
our opinions. I personally contacted the pesticide regulatory 
department in Florida to discuss the levels of imidacloprid and 
aldicarb that my bees were exposed to in Florida citrus groves and was 
told that nothing could be done to protect my bees without proper data 
collection to show that these products were performing differently than 
shown in their original EPA certification. In effect, I was 
``educated'' on how the regulatory system works. It is data and not 
opinion that is needed. This makes sense to me and that is why we need 
to ``get to work'' collecting this data.
    I know that monitoring beehives and lab analysis of samples is 
expensive. The work that has been done thus has been paid for by the 
industry through our organizations and the National Honey Board, with 
some supplemental funding by Agricultural Research Service. The 
institutions doing the CCD work, both government and universities, have 
had to divert money from other projects to cover these costs.
    Who should be shouldering this cost? Right now the beekeepers are 
getting hit with all the expense in the form of dead beehives. It would 
likely be appropriate for the manufacturers of pesticides, fungicides, 
and herbicides share in the cost of monitoring the distribution of 
their products in the environment. This should be included as a normal 
cost of selling agricultural chemicals. Honey bees could be a valuable 
tool to monitor how these products travel in the plants, water and soil 
that they are applied to.
    I am sure that most of the people at this hearing are aware of 
recent actions in Germany to restrict the use of many systemic 
pesticides. This follows regulatory actions originally implemented in 
France to limit the use of these products until they can be ``clearly 
proven'' to be safe to honey bees and other beneficial insects. Our 
regulatory system in the United States is different than in Europe, and 
it may require more data collection to challenge products that have 
already received EPA approval. I say that the effort to collect the 
data that either proves or disproves the safety of these products needs 
to be required now.
    Much of the frustration felt by beekeepers is directed at the lack 
of any concrete actions to address the causes of CCD. A comprehensive 
program to sample hives all over the country would be a visible first 
step to get the ball rolling. If a person is sick, the first thing a 
doctor does is take their vital signs and run lab tests. This is the 
place to begin with CCD. The answers to this problem will only be 
discovered if we take the time to look inside our hives.
    I appreciate the opportunity to speak to you this morning. I would 
be glad to offer much more detail or answer questions about any of our 
field observations.
            Thank you,

David Mendes.

    The Chairman. Thank you, sir.
    Next we have Mr. Etheridge's guest witness, so I would like 
to ask him to introduce his constituent from North Carolina.
    Mr. Etheridge. Thank you, Mr. Chairman. I will be brief 
because we want to get it in, but Mr. Edwards, glad to have 
you.
    Mr. Edwards. Thank you.
    Mr. Etheridge. He is a large producer of multiple crops, 
cucumbers being the one he has great need for bees on, and a 
lot of cucumbers and a lot of vegetables are grown in our part 
of the state that weren't grown 10, 15 years ago. Welcome. We 
look forward to your testimony.

         STATEMENT OF ROBERT D. EDWARDS, COTTON, CORN,
          SOYBEANS, PEANUTS, AND OTHER SPECIALTY CROPS
PRODUCER, HALIFAX, NASH, AND EDGECOMB COUNTIES, NORTH CAROLINA, 
                         WHITAKERS, NC

    Mr. Edwards. Thank you, Mr. Etheridge. Good morning. My 
name is Robert Edwards and I am a third-generation farmer from 
Whitakers, North Carolina. Along with my brother and father, we 
grow over 5,000 acres of cotton, corn, soybeans, peanuts, 
tobacco and cucumbers in Halifax, Nash and Edgecomb Counties, 
that is located in eastern North Carolina. Our farm is a family 
operation and I have grown up working on this land and look 
forward to continuing this operation for many years in the 
future.
    For over 10 years, a vital part of our firm has been the 
100 acres of cucumbers that we plant each year. I am sorry to 
have to report to this Committee, however, that due to the 
severe and sudden rise in the price of fuel, the ongoing and 
worsening problem of a lack of labor to harvest, and the recent 
and increasing problem of a lack of honey bees needed to 
pollinate these crops, we have been forced to reduce our 
acreage of cucumbers by 50 percent.
    I am not alone in experiencing these problems. Not only do 
I grow cucumbers on my farm, I also work for a much larger 
cucumber operation, Carolina's Best, managing cucumber 
production producing hundreds of acres of cucumbers that supply 
the $36.2 million cucumber industry in North Carolina.
    I emphasize again the economic pressures that all farmers 
are feeling with respect to labor availability and the rising 
cost of fuel, and I know that Congress is working to address 
these issues, but we are here today to discuss a problem that 
is just as harmful as those previously mentioned, that is, 
pollinator availability or honey bees. The simple fact is, no 
honey bees, no cucumbers. The cucumbers we grow today are 
highly pollinator intensive. There is a very short window for 
this fruit to be pollinated, which also requires a high number 
of bees to perform this task successfully, and I again 
emphasize if this pollination does not occur within that window 
of opportunity, there will be no cucumbers to harvest.
    We have always rented honey bees from beehive operations 
located within the State of North Carolina. Over the past 3 
years, however, we have seen a notable decrease in the 
availability of the hives for rent in North Carolina. The 
reason for this is that the hives produced in the southeastern 
part of the United States are being shipped all over the nation 
due to shortages of bees in other areas, thus increasing the 
cost we pay to rent hives. These longer shipping distances have 
also increased the cost. Three years ago, I was paying 
approximately $45 per hive. Today I am paying $68 for that same 
hive, and I don't know what the cost will be tomorrow.
    In other states the story is even worse. In California, 
there is already concern about a shortage of bees to pollinate 
the almond crop. Growers are scrambling to reserve bees, and I 
have heard prices as high as $140 per hive.
    Honey bees are truly unsung heroes in feeding our nation 
and the world. I tell my non-farmer friends that these bees are 
out there pollinating more than my cucumbers. They are critical 
for the growth of virtually everything in our food chain, 
because everything in this chain eats something that has been 
pollinated or ate something else that was pollinated by a honey 
bee.
    Mr. Chairman, I am not a scientist, I am a farmer, and I 
know one thing for certain: no bees, no crops. As a farmer who 
relies on these bees, I am searching for solutions just like 
you. I think in the short term, possible solutions could be to 
give these beekeepers access to some of the same programs that 
we provide to the farmers. For example, my beekeeper that I use 
lost 40 percent of his bees last year. If I lost 40 percent of 
a crop without crop insurance, I wouldn't be here today, I 
would be probably picking up tin cans on the side of the road. 
But Congress is working to fix the H2-A problem to correct our 
labor crisis in the specialty crop industry and I am hopeful 
that at some point fuel prices will go back down. But Congress 
needs to understand that the problem of the lack of bees to 
pollinate the very foods we consume every day is a real and 
growing problem that needs to be studied, addressed and 
corrected. Bees are as important to our crops as the water and 
the sunshine.
    I would like to thank you for your attention to this 
matter. If you have any questions, I will be glad to answer 
them.
    [The prepared statement of Mr. Edwards follows:]

    Prepared Statement of Robert D. Edwards, Cotton, Corn, Soybeans,
    Peanuts, and Other Specialty Crops Producer, Halifax, Nash, and
            Edgecomb Counties, North Carolina, Whitakers, NC
    Good morning, my name is Robert Dowe Edwards, I am a third 
generation farmer from Whitakers, North Carolina. Along with my brother 
and father, we grow over 5,000 acres of cotton, corn, soybeans, 
peanuts, and other specialty crops such as cucumbers in Halifax, Nash, 
and Edgecomb Counties in Eastern North Carolina. Our farm is a family 
operation, I have grown up working this land, and look forward to 
continuing this operation for many years in the future.
    For over ten years, a vital and profitable part of our farm, has 
been the 100 acres of cucumbers we plant each year. I am sorry to have 
to report to this Committee, however, that due to the severe and sudden 
rise in the price of fuel, the ongoing and worsening problem of a lack 
of labor to harvest these cucumbers, and the recent and increasing 
problem of a lack of honey bees needed to pollinate these crops, we 
have been forced to reduce our acreage of cucumbers by 50 percent.
    I am not alone in experiencing these problems. Not only do I grow 
cucumbers on my farm, I also work as a grower for a much larger 
cucumber operation, Carolina's Best Farms, managing cucumber production 
operations in these counties, producing hundreds of acres of cucumbers 
that supply pickling cucumbers for the significant pickling and canning 
industry in the State of North Carolina.
    I emphasize again the economic pressures that all farmers are 
feeling with respect to labor availability and the rising cost of fuel, 
and I hope that Congress is working to address these issues. But we are 
here today to discuss a problem that is just as harmful as those 
previously mentioned: pollinator availability, honeybees. The simple 
fact is, no honeybees, no cucumbers.
    The hybrid Vlaspick pickle breed that I grow, specially bred and 
designed as a heavy fruit set variety designed for five to six pickings 
at harvest, is highly labor, irrigation, and time intensive. This breed 
is also highly pollinator intensive, there is a short window for this 
fruit to be pollinated, which also requires a high number of bees to 
perform this successfully. And again I emphasize, if this pollination 
does not occur within the window of opportunity, these will be no 
cucumbers to harvest.
    Our decision to reduce our acreage of cucumber production is as 
directly related to the declining availability of honey bees for 
pollination of these crops. Our farm and the surrounding cucumber farms 
that I work with have until recently always rented honey bees for 
pollinators from bee hive operations located within the State of North 
Carolina. Over the past three years, however, we have seen a notable 
decrease in the availability of these hives for rent. The reason for 
this is that the bee hives produced in the Southeastern part of the 
United States are being shipped all over the country due to shortages 
of bees in other areas, this increases in the cost we pay to rent these 
bees. These longer shipping distances have also increased the cost of 
the hives. Three years ago I paid $45 per hive, today I am paying $68 
to rent that same hive.
    In other states the story is even worse. In California, there is 
already a concern about a shortage of bees to pollinate the almond 
crop, growers are scrambling to reserve bees, and the price their has 
risen to $140 per hive.
    The lower number of hives for rent has also decreased the time 
these bees are available to sit on the field to be pollinated, making 
the window for pollination even smaller. This increases my pressure to 
increase irrigation to make sure the crop is ready for the time I will 
have these bees, and this in turn further increases my fuel costs.
    For our purposes, our operation has always used one hive per acre 
to ensure adequate pollination. As I mentioned earlier, cucumbers are a 
difficult fruit to pollinate, this is a very sticky plant that requires 
a high number of bees due to the increased effort that is needed on the 
part of the bee. And as I tell my non-farmer friends, these bees are 
out there pollinating more than my cucumbers, they are critical for the 
growth of virtually everything in our food chain; because everything in 
this chain eats something that has been pollinated, or ate something 
else that was pollinated by a honey bee.
    My great concern is that we are witnessing a serious and 
unexplained reduction in the availability of these bees. This sudden 
reduction in the number of bees has been explained to me as Colony 
Collapse Disorder, but the cause of this is not so clear.
    Mr. Chairman, I am not a scientist, I am a farmer, and I know one 
thing for certain: no bees, no crops. As a farmer who relies on these 
bees I am searching for solutions just like you are. I think in the 
short term, possible solutions could be to give these farmers some of 
the access to the programs that we provide to the farmers who rely on 
them. My bee supplier lost 40 percent of his hive last year, if I lost 
40 percent of my crop and did not have crop insurance, I would go 
under. Congress should consider making crop insurance and low interest 
FSA loans available to these bee keepers, and to increase the amount of 
bees, possibly making them eligible for beginning farmer loans.
    I did not reduce my acreage of cucumbers because of the cost of 
fuel, I was forced to reduce my acreage because I could not ensure that 
I would be able to rent enough bees to pollinate my crop. Congress can 
work to fix the H-2A problem, to correct our labor crisis in the 
specialty crop industry, and I am hopeful that at some point fuel 
prices will have to go back down. But Congress needs to understand that 
the problem of a lack of bees needed to pollinate the very foods we 
consume every day is a real and growing problem that needs to be 
studied, addressed, and corrected. Bees are as important to our crops 
as the water and the sunshine.
    Again, I thank this Committee and Chairman Cardoza for his 
attention to this important matter. I would be happy to try to answer 
any questions the member of this Committee might have.

    The Chairman. Thank you, Mr. Edwards. As usual, Mr. 
Etheridge has brought up one of his constituents that has given 
us very salient testimony. We have some folks from the media 
here today, and in the next few weeks and next few months, 
people are going to be asking why food prices are so high, and 
today you gave the testimony in advance to answer that 
question. There is a lack of pollination. You have had to cut 
down the number of acres that you have under production. Energy 
costs and input costs to produce that food is costing you more 
and you are going to have to pass that on, and then the 
transportation costs and all the rest to get that food to 
market is all going to be higher, and unfortunately, like you 
indicated, the consumer is going to be paying higher prices and 
bearing the brunt of all these input costs, and so you gave 
some very salient testimony today to that question.
    Next up we are going to have Mr. Edward Flanagan, President 
and Chief Executive Officer of Jasper Wyman and Sons from 
Millbridge, Maine, and then as soon as you are done with your 
testimony, sir, we are going to recess for the duration of the 
votes. I would like to make the floor available to you at this 
time.

STATEMENT OF EDWARD R. FLANAGAN, PRESIDENT & CEO, JASPER WYMAN 
                     & SON, MILLBRIDGE, ME

    Mr. Flanagan. Thank you, Chairman Cardoza. My name is Ed 
Flanagan. I am here today as the President and CEO of Jasper 
Wyman & Son, the largest U.S.-owned blueberry grower. We grow 
wild, or lowbush, blueberries in eastern Maine and we also have 
operations on Prince Edward Island and New Brunswick in the 
Canadian Maritimes. In Maine, combining what we grow on our 
land and what we buy from other growers, we process and market 
between 35 and 40 percent of the U.S. wild blueberry crop. But 
besides Wyman's, I am here to express the concern of all wild 
blueberry and cultivated blueberry growers who according to the 
USDA had farm gate value in 2007 of nearly $600 million. To 
echo my colleague here beside me, in our business too, it is 
simple: no bees, no blueberries.
    You may not know that there are three fruits that are 
native to North America: concord grapes, cranberries and wild 
blueberries. Early Native Americans used wild blueberries for 
food, coloring and for medicinal remedies. What they knew then, 
the American consumer has come to know in the last several 
years, thanks to well-grounded research from some of our best 
universities and laboratories, and that is that blueberries are 
one of the healthiest foods you can add to your diet. Wild 
blueberries can't be planted, not here, not in Chile, not in 
China. It is a root system that is indigenous to Maine and the 
Maritimes and more like a mineral resource than a crop in that 
way. Thus, it has always has strong, enduring export market 
demand. It is a small but important crop for America and it is 
a very important crop to the economy of eastern Maine.
    That health news has led to some good years. In 
agriculture, it seems that supply and demand are almost never 
in balance. In the case of blueberries in recent years, demand 
has been ahead of supply. Farm gate earnings have been healthy 
and we have been able to absorb pollination costs that have 
more than doubled in the last 3 years. We know that supply will 
catch up with demand, prices will go down and we will need 
sharp control of our costs. Agriculture is one tough and honest 
way to make a living and we face our challenges head on, but we 
are very scared at the prospect of no pollinating bees in our 
fields. There is no alternative.
    Wild blueberry fields, called barrens, are usually bordered 
by forestland and we have learned to live with nature and its 
perils and marvel at its complex interactions. For example, if 
we don't string electrified wire around the hives in the 
fields, the bears have a feast at our expense.
    What scares us about Colony Collapse Disorder is what the 
beekeepers have observed, healthy bees refusing to go into the 
sick hives to rob the honey, the normal predators, hive beetles 
and moths, keeping their distance from an impacted hive, the 
practice of putting a healthy hive near a diseased one to 
repopulate the weak one but instead it is killing the healthy 
one. Something is very, very wrong.
    A good wild blueberry crop needs three basic things to 
happen: a snow cover over the low growing plants in the winter 
to protect the buds from cold temperatures, good pollination in 
May, and then from June to August, a good mix of sun and rain. 
The wild blueberry crop blooms in May and it takes 2 to 3 weeks 
to get good pollination. The bees won't work if it is cold or 
windy, which it can be in Maine then, and we accept that 
neither the beekeepers nor Congress can do anything about that.
    The Chairman. Sir, I am going to need to interrupt. I have 
been informed I have less than 3 minutes to get to the vote and 
so I am going to have to call a recess. If you would just mark 
a place in your testimony, we will reconvene the hearing as 
soon as I can possibly get back from the votes. At this time 
the Committee is in recess.
    [Recess.]
    The Chairman. If the witnesses and the guests would please 
retake their seats, we will get this hearing reconstituted here 
in just about 2 minutes.
    If everyone is ready, we will continue the hearing. Mr. 
Flanagan, I want to apologize. I have never had to interrupt 
someone in the middle of their testimony before but the vote 
just crept up on us. I apologize for having to interrupt you 
and I would like if you can remember exactly where you were in 
your testimony, I would like to give you the floor to continue 
from that point.
    Mr. Flanagan. I can. Thank you very much.
    Where I left off was, the wild blueberry crop blooms in May 
and it takes 2 to 3 weeks to get good pollination. The bees 
won't work if it is cold or windy, which it can be in Maine 
then, and we accept that neither the beekeepers nor Congress 
can do anything about that. We don't ask for your help often 
because really there isn't much you can do, but we do need it 
here.
    If you have my testimony in front of you, you can see what 
a good blueberry crop in August looks like. Every single one of 
those berries owes its existence to the crazy, neurotic dancing 
of a honey bee from flower to flower. If there were no 
beekeeping industry to come to Maine, the amount of fruit 
pollinated by natural pollinators would not amount to enough to 
keep farming the land. We would either be out of this business 
all together or charging a price fivefold or tenfold what it is 
now just to go out and get what was there.
    I don't know who or why anyone would oppose budgeting 
research funds for this critical problem. I urge you not to use 
Washington inertia as an excuse. I firmly believe that if it 
was the pesticide family of neonicotonoids, it may have been an 
unintended consequence of the chemical industry trying to 
replace directly toxic organophosphates with a more benign 
alternative. We need to put the blame game aside and get to the 
endpoint, which is knowledge.
    Chairman Cardoza, I heard you inform us today that the labs 
were rebudgeted at $10 million and CCD research received an 
extra $800,000. The budget process here is a mystery to an out-
of-towner like me but an extra 8 percent in funding is way 
short of what is needed.
    Thank you very much.
    [The prepared statement of Mr. Flanagan follows:]
Prepared Statement of Edward R. Flanagan, President & CEO, Jasper Wyman 
                          & Son, Milbridge, ME

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, sir. I would like to make a point. 
During this last series of votes, I talked to Mr. Alcee 
Hastings from Florida, who has been a true champion on behalf 
of getting to the bottom of this crisis. I also talked to 
Chairwoman Rosa DeLauro of the Appropriations Subcommittee on 
Agriculture, and both of them agreed with me and my previous 
statement that funding should not be an issue here, that we 
need to know exactly what funds are needed to bring to bear on 
this program and we will work diligently to make sure that all 
the funds necessary are used, that they are provided and used 
to get to the bottom of this. Now, I am going to reiterate that 
in no way should anyone leave here thinking that they should 
not request the total amount necessary to get to the bottom of 
this question, and Ms. DeLauro stands ready to be of assistance 
to us. We will go to the Speaker. We will go to Mr. Reid. We 
will go and shout off the top of the Washington Monument if 
necessary. We will find the funds for this problem, but we have 
to know exactly how much we need, and funds should not be an 
excuse for why we can't find the problem on this research. So I 
am just putting USDA on notice today that if next year or in 6 
months we get back and we hear again that funds are a problem, 
there is going to be some hell to pay. So let us understand 
that all here together today.
    Next up we have Ms. Katty Pien. I am sorry------
    Ms. Pien. It is Katty.
    The Chairman. Brand Director from Haagen-Dazs Ice Cream, 
Oakland, California. My daddy used to butcher people's names 
and I have taken up in his footsteps on this as well, so I 
apologize. Thank you for being with us today.

STATEMENT OF KATTY PIEN, BRAND DIRECTOR, HAAGEN-DAZS ICE CREAM, 
                          OAKLAND, CA

    Ms. Pien. Thank you. Good morning, Chairman Cardoza. My 
name is Katty Pien and I am the Brand Director for Haagen-Dazs 
Ice Cream, America's leading super-premium all-natural ice 
cream. I will comment today on how pollinators are an essential 
part of our business.
    Thank you for the opportunity to testify about Colony 
Collapse Disorder and for the leadership you have shown in 
addressing it through the pollinator provisions of the farm 
bill. I would like to highlight some key points and ask that my 
full statement be submitted for the record.
    Haagen-Dazs has a major stake in the health of America's 
honey bees. Pollination is essential for ingredients in more 
than 40 percent of Haagen-Dazs flavors. For example, to produce 
our vanilla Swiss almond and rocky road flavors, we use more 
than 1 million pounds of almonds every year. Should the CCD 
crisis continue, pollinated ingredients such as strawberries, 
cherries, blueberries, and almonds could all become scarce or 
too expensive to obtain, forcing us to evaluate whether we can 
continue to offer flavors that depend on pollinated ingredients 
because of higher production costs, which could lead to higher 
consumer prices.
    Haagen-Dazs recognized that to preserve our variety of 
flavors, to help consumers and to be a responsible steward of 
the resources we use, we needed to take corporate action. 
Earlier this year we introduced Haagen-Dazs Loves Honey Bees, a 
public education program. Among our efforts, we have launched a 
limited edition flavor, vanilla honey bee, to pay tribute to 
the hardworking honey bees. We pledged $250,000 to fund 
sustainable pollination and CCD research at Pennsylvania State 
University and the University of California Davis. We have 
developed print, television and in-store advertising campaigns 
drawing attention to this crisis. We have even launched a 
dedicated consumer education website, helpthehoneybees.com.
    Despite these efforts, there is a long way to go. A recent 
survey commissioned by the Haagen-Dazs brand showed that more 
than half of Americans are not even aware of the honey bee 
crisis. Haagen-Dazs Ice Cream challenges other consumer 
products companies reliant on pollinators to join us in 
educating the public and helping efforts needed to save this 
essential natural resource.
    Nevertheless, robust Federal action is needed. We urge 
Congress to fully implement and fund the pollinator provisions 
of the farm bill.
    Mr. Chairman, thank you for your time today. I would be 
happy to answer any questions.
    [The prepared statement of Ms. Pien folllows:]

       Prepared Statement of Katty Pien, Brand Director, Haagen-
                Dazs<SUP>'</SUP> Ice Cream, Oakland, CA
    Chairman Cardoza, Ranking Member Neugebauer, and members of the 
Subcommittee, good morning.
    My name is Katty Pien. I am the Brand Director for Haagen-
Dazs<SUP>'</SUP> Ice Cream, America's leading super-premium all-natural 
ice cream. The Haagen-Dazs brand sells more than 70 flavors of ice 
cream, sorbet and frozen yogurt around the world. As you will learn, 
pollinators are an essential part of our business.
    Thank you for the opportunity to testify on the very important 
issue of Colony Collapse Disorder, and for the leadership you have 
shown in addressing it through the pollinator provisions of the Farm 
Bill. Full funding and implementation of those provisions would be an 
excellent step in ensuring the survival of America's honey bees.
    I'm here today to highlight the importance of pollinators to 
Haagen-Dazs Ice Cream; to explain the dangers posed to consumer 
products such as ours by CCD; to highlight our corporate reaction to 
the crisis; and to suggest next steps the federal government and the 
private sector might take to reduce the impact of the crisis on 
producers and consumers.
    The Haagen-Dazs brand relies on the finest all-natural ingredients 
for its ice cream. Not surprisingly, pollination is essential for 
ingredients in more than 40 percent of Haagen-Dazs flavors. For 
example, to produce our popular Vanilla Swiss Almond and Rocky Road 
flavors, we use more than one million pounds of almonds every year. 
Almonds, as you know, Mr. Chairman, are 100 percent dependent on honey 
bees for pollination.
    As you can see, the Haagen-Dazs brand has a major stake in the 
health of America's honeybees. Should the CCD crisis continue 
unchecked, pollinated ingredients such as strawberries, cherries and 
almonds could become scarce or too expensive to obtain, forcing us to 
evaluate whether we can continue offering popular flavors that depend 
on pollinated ingredients because of higher production costs.
    That brings us to the looming specter of higher consumer prices. 
While CCD has not yet led to higher prices, we fear that's a likely 
result if the crisis remains unabated. Farmers and pollinators will 
either pass along their skyrocketing costs, or choose to exit a field 
that is less profitable, thereby reducing the supply of pollinated 
ingredients to companies such as Haagen-Dazs.
    Mr. Chairman, a combination of private sector and government 
efforts can make sure that doesn't happen.
    The Haagen-Dazs brand is doing its part. We recognized that to 
preserve our variety of flavors, to help consumers, and to be a 
responsible steward of the resources we use, we needed to take 
corporate action. Earlier this year, we introduced Haagen-Dazs loves 
Honey Bees, a multi-faceted public education program. Among our 
efforts:

  <bullet> A limited edition flavor, Vanilla Honey Bee, to draw 
        attention to the crisis.

  <bullet> A $250,000 pledge to fund sustainable pollination and CCD 
        research at Pennsylvania State University and the University of 
        California, Davis, partially funded by sales of Vanilla Honey 
        Bee ice cream and our other bee-dependent flavors.

  <bullet> A commitment to work with community groups to distribute 1 
        million bee-friendly flower seeds (more than 350,000 
        distributed so far).

  <bullet> A Honey Bee Board of leading scientists and beekeepers to 
        advise us on the issue.

  <bullet> An online, downloadable honey bee education program for 
        students and families, available at www.helpthehoneybees.com.

  <bullet> Sponsorship of ``The Vanishing of the Bees,'' a documentary 
        that investigates the bee crisis.

  <bullet> Print, television, in-store and online advertising campaigns 
        drawing attention to the crisis, as well as information in 
        retail stores.

  <bullet> At Haagen-Dazs offices, we landscape with bee-friendly 
        plants such as glory bushes, jasmine and rosemary.

  <bullet> We give our employees free seeds and encourage them to plant 
        bee-friendly gardens at home.

    Despite those efforts, there's a long way to go. A recent survey 
commissioned by the Haagen-Dazs brand showed that more than half of 
Americans are not even aware of the honey bee crisis.
    So Haagen-Dazs Ice Cream challenges other consumer-product 
companies reliant on pollinators to step up to the plate--to educate 
the public and help in efforts needed to save this essential natural 
resource. It only makes economic sense that companies which benefit 
from pollination should help ensure the survival of those species that 
allow us to commercially thrive. We applaud Burt's Bees for doing so, 
as well.
    Nevertheless, there is no substitute for robust federal action in 
this area. The Haagen-Dazs brand stands with the Pollinator Partnership 
in urging Congress to fully fund and implement the pollinator 
protection provisions of the recently-passed farm bill.
    Mr. Chairman, this concludes my oral presentation. I ask that my 
entire statement be submitted for the record. Thank you for your time 
today. I'd be happy to answer any questions.

    The Chairman. Thank you for being here, and God bless your 
company for the work they do. Normally we don't have such a 
high-profile corporate involvement in Congressional hearings, 
but I will tell you that the work your company has done has 
been quite extraordinary.
    Ms. Pien. Thank you, Mr. Chairman.
    The Chairman. Next up we have Mr. John------
    Mr. Replogle. Replogle.
    The Chairman. Replogle--I am so sorry, but I can't get that 
one, my tongue doesn't seem to go that way--President and CEO 
of Burt's Bees, Durham, North Carolina, and the fact is that I 
can't say your name but I certainly know my children use your 
products on a regular basis, so thank you for being here and 
please proceed with your testimony.

  STATEMENT OF JOHN REPLOGLE, PRESIDENT AND CEO, BURT'S BEES, 
                           DURHAM, NC

    Mr. Replogle. Mr. Chairman, thank you for the opportunity 
to testify about the status of research and other activities 
related to the health of the honey bees and to all pollinators. 
My name is John Replogle and I am the President and CEO of 
Burt's Bees based in Durham, North Carolina, a 400-person 
company invested in the well-being of humans. More importantly, 
I am the father of four girls and I am vitally interested in 
their health and well-being.
    Allow me to state the obvious: honey bees are important to 
Burt's Bees. Our roots are entangled with theirs. We share 
their name. Their image still adorns our logo, and to this day 
a majority of our products rely on their instinctive skills. 
The health and welfare of bees is very dear to us. While we 
rely on bee byproducts as well as ingredients pollinated by 
bees, our interest in the health of bees is also very closely 
linked with our commitment to the environment. We work with our 
suppliers to ensure our beeswax, honey and bee-pollinated 
ingredients are sourced with bee-friendly and sustainable 
sourcing methods. Our commitment to the finest natural 
ingredients and products is intrinsically tied to how we care 
for our environment. Even more important than our own product 
supply is the impact on our bees to the overall health of the 
ecosystem. Bees are responsible for pollinating a third of the 
fruits and vegetables we eat, and collectively they support a 
$15 billion cash crop as well as are the backbone to 
ingredients of a $50 billion personal care industry here in the 
United States.
    Without being overstated, honey bee health is directly 
linked to our planet's health and every person's well-being. If 
we fail to take action now to mitigate the loss of honey bees, 
there will be broad implications on the foods we love, the 
plants that we depend on for many of our products and the well-
being of our planet. Put bluntly, in 2008, honey bees are the 
proverbial canary in the coal mine. So go the bees, so goes the 
well-being of all Americans.
    We applaud and support the efforts by the Congress and by 
the USDA to address Colony Collapse Disorder and other 
pollinator health issues through the historical inclusion of 
pollinators in the farm bill with both research and 
conservation. I would like to say thank you to you, Chairman, 
today for the Committee's pledge to fully fund the issue. I 
believe business along with government can powerfully join 
forces to have a positive impact on our changing environment. 
Therefore, Burt's Bees has taken action directly, given the 
gravity of this situation. We hope the government will continue 
to play a much more active role in partnering with business to 
find solutions to this acute issue.
    While the causes for CCD are unknown, we do know that 
forces like habitat disruption, misuse of pesticides, invasive 
species and global warming create risks to honey bees. That is 
why Burt's Bees is taking a holistic approach to honey bee 
health. We have joined forces with the Pollinator Partnership 
to provide funding to support research projects through the new 
Honey Bee Health Improvement Project, which is guided by a task 
force of the North American Pollinator Protection Campaign, 
which is also focusing on four key areas: breeding stock 
improvement, best practices for commercial beekeeping, effects 
of pesticides and chemicals, and improving nutritional 
resources. We are very pleased with the progress and quality 
efforts of the task force and we have already committed to a 
second year in partnering with the Pollinator Partnership.
    Second, Burt's Bees has launched a public service awareness 
campaign. Not enough Americans are aware of the issue today, 
and we believe when individuals become aware of the 
environmental challenges and are given information about simple 
actions they can take, many will be inspired to take action.
    Third, we are expanding our reach to make the issue known 
on every main street in America. We are doing this by launching 
a Help the Honey Bees beeswax lip balm with 5 percent of the 
proceeds going to directly fund the Pollinator Partnership. We 
will distribute over 2 million units to further engage 
consumers and to fund research.
    In closing, we at Burt's Bees truly believe that by helping 
to save the bees, we save a lot more than the bees. We 
appreciate the time, attention and leadership you are devoting 
to the health of our pollinating partners. Thank you very much.
    [The prepared statement of Mr. Replogle follows:]

 Prepared Statement of John Replogle, President and CEO, Burt's Bees, 
                               Durham, NC
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify about the status of research and other 
activities related to the health of honeybees and all pollinators. My 
name is John Replogle, and I am President and CEO of Burt's Bees, which 
is headquartered in Durham, North Carolina. Burt's Bees is the leading 
Natural Personal Care brand, bringing Earth-friendly, natural personal 
care products to consumers for more than 20 years. Our mission, simply 
put, is `to make people's lives better everyday, naturally.' We do this 
by creating the best natural personal care products with the finest 
natural ingredients to help individuals maximize their well-being and 
the well-being of the world around them. We operate our business with a 
commitment to The Greater Good--care for our products, our planet and 
our communities.
Why Burt's Bees is Involved in Pollinator Health Efforts:
    Honeybees are important to Burt's Bees. Our roots are entangled 
with theirs. We share their name. Their image still adorns our logo. 
And, to this day, many of our products rely on their instinctive 
skills. Our co-founder, Burt Shavitz, was a beekeeper for over 20 
years.
    Indeed, bees are the foundation of Burt's Bees' business. The 
health and welfare of bees are very dear to us. Even though we get 
beeswax and honey in a completely bee-friendly way, we know we all can 
and must do more. More important than our own product supply, the 
impact of bees on our ecosystem is critical--they are responsible for 
\1/3\ of the food we eat. It's another major indicator that 
demonstrates the importance of caring for our environment. If we fail 
to take action, there could be further negative impact on the fruits 
and vegetables that we eat as well as the biodiversity of the plants 
that we depend on for many of our products.
    Burt's Bees is deeply concerned about the health of honeybees and 
other pollinators because of two of our core beliefs: natural 
ingredients work in harmony with the body; and we must protect and 
provide for the precious resources of our planet. Many of the natural 
ingredients in our personal care products are either directly produced 
by honeybees, such as beeswax and honey, or are derived from plants 
pollinated by honeybees, such as almond oil, sunflower oil, avocado 
butter and peach stone. To make certain that all our products meet the 
highest natural standards, we carefully craft them using time-tested, 
proven recipes with ingredients that are the best nature has to offer: 
beeswax, botanical and essential oils, herbs, flowers and minerals. 
These safe, effective ingredients have withstood the test of time. And 
because of that, we never use any ingredient that isn't proven safe and 
effective. This fine attention to quality is recognized by our 
consumers; for the past two years, college students around the country 
have recognized us as one of the Top 10 Socially Responsible Companies 
through the Alloy U awards.
    Burt's Bees has a long-standing commitment to the environment, 
which is a central component of our mission. We are committed to 
leading innovation in our choices for packaging, using materials that 
are biodegradable, recycled and/or recyclable. We strive to operate our 
business with constant attention to minimizing our impact, including 
reducing our energy and water use and educating and inspiring our 
employees to change personal habits. For example, our company grew 26 
percent in 2007 and, through the work of our dedicated team, was able 
to reduce our energy use by 2 percent. In 2008, the Carolina Recycling 
Association gave Burt's Bees an award for the Best Business Recycling 
Program, which was developed and led by volunteer employees. This year, 
we also led the first annual Planet Earth Celebration in Raleigh, NC, 
attended by over 15,000 members of our community.
    Burt's Bees got its start back in 1984 in Maine, when Roxanne 
Quimby and Burt Shavitz teamed up selling candles and lip balm made 
from the beeswax created as a by-product of Burt's honey business. At 
the very first craft fair, they sold $200 worth, and by the end of the 
first year, sales climbed to $20,000. As the company grew, they 
realized the need to relocate to best position for further growth and 
brought the company to North Carolina in 1993. Since then, company 
growth has been a testament to individuals living the `American Dream,' 
with the company experiencing double-digit growth year over year, 
reaching $350 million in retail sales in 2007.
Actions to Support Honeybee Health:
    Burt's Bees has chosen to take a holistic approach to supporting 
honeybee health. Colony Collapse Disorder, or CCD, has been the 
catalyst for increased research efforts, even though it is one of a 
myriad of challenges confronting honeybees, beekeepers, and growers who 
require pollination services as a vital stage in crop production. While 
the causes for Colony Collapse Disorder are unknown, we do know that 
forces such as habitat destruction, misuse of pesticides, invasive 
species and global warming create risks to honeybees.
    Research is critical to providing the knowledge and science-based 
solutions needed to address CCD and a host of other challenges 
threatening the health and sustainability of honeybees and other 
pollinators. We commend the increasing efforts by the U.S. Department 
of Agriculture (USDA) to conduct and coordinate research on CCD and 
other challenges impacting honeybees and other pollinators, such as 
USDA's CCD research action plan launched last summer.
    We also applaud this Subcommittee, the Agriculture Committee, and 
the Congress for enacting a new farm bill that for the first time 
includes pollinator-specific research and conservation provisions 
laying the groundwork for further action.
    Burt's Bees urges the Congress to provide additional funding for 
pollinator research and conservation in the Fiscal Year 2009 
appropriations. We also urge the research and conservation agencies at 
USDA to take maximum advantage of the new pollinator provisions in the 
farm bill in implementing their programs.
    I believe business, along with government, can collaborate as a 
powerful force to positively impact our changing environment. At Burt's 
Bees, we feel a responsibility to take action directly, given the 
gravity of the situation. After considering options on how best to 
help, Burt's Bees joined forces last fall with the Pollinator 
Partnership. We are providing funding for research projects through the 
Pollinator Partnership's Honeybee Health Improvement Project, which is 
focusing on four critical areas:

    1. Breeding stock improvements

    2. Best practices for commercial beekeeping

    3. Effects of pesticides and chemicals

    4. Improving nutritional resources

    The Honeybee Health Improvement Project is being managed by the 
Honeybee Health Improvement Task Force of the North American Pollinator 
Protection Campaign (NAPPC). NAPPC is a tri-national, public-private 
sector collaboration facilitated by the Pollinator Partnership. With a 
well-respected team of researchers guiding the project, we believe 
their work will go a long way in improving honeybee health and 
sustainability.
    Additional information about the Task Force and research projects 
is provided in the testimony of the Pollinator Partnership as well as 
at www.pollinator.org/honeybee_health.htm.
    As a bee-friendly company, we know the critical role bees play in 
our ecosystem. We are proud to support this Task Force and believe the 
research projects will yield outcomes that will help improve the health 
of bees and indeed benefit all of us who depend upon their industrious 
pollination labors.
    Burt's Bees has been so pleased with the progress and quality of 
existing efforts that we have already committed to a second year in 
partnering with the Pollinator Partnership.
Increasing Public Awareness and Encouraging Consumers to Take Action:
    Burt's Bees believes that when individual citizens become aware of 
environmental challenges and are given information about simple actions 
they can take to help, many will be inspired to take action. Individual 
actions can collectively make a difference.
    Last year Burt's Bees produced a 60-second Public Service 
Announcement (PSA) (http://www.burtsbees.com) that describes the CCD 
problem and outlines basic actions our consumers can take to help, 
including purchasing locally grown organic foods and planting bee-
pollinated flower seeds. Visitors to our website are encouraged to 
visit the Pollinator Partnership's website (http://www.pollinator.org) 
for more information.
    The PSA launched last November, generating over 5 million 
impressions in its first few weeks. Through the PSA and our website, we 
distributed over 50,000 seed packets in just 8 weeks. That's millions 
of flowers planted around the country that represent forage for 
honeybees and other pollinators. We continue to educate consumers with 
the PSA this year on our website and as part of our 2008 Bee-utify Your 
World Mobile Tour, which will be visiting 30 cities around the United 
States. While we know flower seed packets aren't the cure, we hope 
they'll help broadcast the problem and educate consumers about the 
life-giving role that bees play in a healthy, balanced food chain.
    This year, Burt's Bees is taking another step to increase public 
awareness and contribute funding to support pollinator protection 
efforts by launching a ``Help the Honeybees'' Beeswax Lip Balm, with 5 
percent of proceeds directed to support the Pollinator Partnership's 
Honeybee Health Improvement Project. The lip balm package and 
supporting in-store displays publicize the issue, the need to take 
action and where to learn more about what can be done to help.
    In closing, we at Burt's Bees truly believe that by helping to save 
the bees, we save a lot more than the bees. That is why we are 
motivated to support pollinator health research to increase public 
awareness and encourage individuals to take action.
    We appreciate the time, attention and leadership you are devoting 
to the health of our pollinating partners.

    The Chairman. Thank you, sir. I appreciate your testimony.
    And finally, we have with us today Ms. Laurie Davies Adams, 
Executive Director of the Pollinator Partnership from San 
Francisco, California. Thank you for being here.

     STATEMENT OF LAURIE DAVIES ADAMS, EXECUTIVE DIRECTOR, 
           POLLINATOR PARTNERSHIP, SAN FRANCISCO, CA

    Ms. Davies Adams. Thank you very much. Mr. Chairman, thank 
you for this opportunity to testify. I am Laurie Davies Adams 
and I am the Executive Director of the Pollinator Partnership, 
a nonprofit promoting sustainable agriculture and biodiversity 
through research, education, conservation, policy and 
partnerships, and our largest initiative is the management of 
the North American Pollinator Protection Campaign, or NAPPC, 
which is a public-private collaboration of over 125 North 
American stakeholders from industry, government, NGOs and 
science to be proactive in their support of the health of all 
pollinators. So, we concern ourselves not just with bees but 
with butterflies, beetles, bats, birds and more.
    Now, you have heard that the critical role of animal 
pollinators in American agriculture is clear. It underscores 
the need, however, to have a continued focus on the totality of 
pollination systems. That includes managed and solitary bees 
but also other animals. The loss of habitat has been identified 
by the National Academy of Sciences as one of the irrefutable 
factors in the decline of pollinators. Pollinators suffer from 
real estate scarcity. Both commercial bees and natives face 
diminishing floral resources and nesting sites. The reason: 
development, pesticide misuse, invasive species, edge-to-edge 
farming. They have all contributed to the disappearance and 
fragmentation of habitat.
    This week, National Pollinator Week, we introduce a program 
on our website, pollinator.org, called Selecting Plants for 
Pollinators, a series of ecoregional guides that are available 
free of charge to farmers and ranchers, public land managers, 
professional home gardeners and home gardeners, and the general 
public to help solve the habitat problem. The guides are step-
by-step instruction manuals with specific plant lists and bloom 
periods for each ecoregion, and to help people know their 
ecoregion, we have created a ZIP Code habitat locator and that 
we developed with the U.S. Geological Survey and NBII. It 
provides Google satellite data to determine the exact habitat 
and then connects to an ecoregional guide. The first six guides 
roll out this week, two more each month until September when we 
will complete all 35 next year at the end of 2009, and with 
your permission I will show you this right after my testimony.
    Why have ecoregional guides? They provide the best science 
for critical pollinator habitat. All of our NALC partners, but 
most especially NRCS and CSREES, NACD and the Forest Service 
will help distribute links. Now, why is this so important to 
agriculture? These guides were developed on a model from 
Montana NRCS, a project developed by State Conservationist, 
Dave White, who pioneered WHIP and EQIP support for pollinator-
friendly plantings. So our guides expand that opportunity 
across the country and specifically support the recent 
inclusion of pollinator plantings in the farm bill.
    I think we can all feel proud of all of the work and all 
the testimony you have heard today and contributions by groups 
like NALC and by visionary companies like Burt's Bees and 
Haagen-Dazs and also by vast numbers of everyday citizens. This 
issue resonates with people more than any agricultural and 
conservation issue I can remember. It crosses every age, every 
demographic and every political stripe. People care about bees, 
but they also want to do something. America is awakening to the 
terrifying prospect that our pollinator and the agro- and 
ecosystems that they support are in jeopardy, but I also want 
to assure that you Americans are also expressing their 
eagerness to step forward to engage in positive result-
producing actions. Thanks to the ecoregional guides, there is 
something important to contribute on the ground. It is just one 
step, but it is significant. You have heard today about 
problems that involve nutrition, that involve pesticides and 
foraging. This is a first step that we can do in every 
Congressional district in every state, in every city, on every 
farm, in every school. We can do it now. It is part of a 
comprehensive approach that we applaud this Committee for 
having.
    We applaud your leadership and we hope that you will 
continue to push this as much as it deserves. Thank you very 
much.
    [The prepared statement of Ms. Davies Adams follows:]

    Prepared Statement of Laurie Davies Adams, Executive Director, 
               Pollinator Partnership, San Francisco, CA
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify about the status of research and other 
activities related to the health of honeybees and other pollinators. My 
name is Laurie Davies Adams, and I am Executive Director of the 
Pollinator Partnership.
Interest of the Pollinator Partnership:
    The Pollinator Partnership (P2) \1\ is a nonprofit organization 
headquartered in San Francisco, California. P2's mission is to catalyze 
stewardship of biodiversity. P2 places a high priority on efforts to 
protect and enhance animal pollinators (invertebrates, birds and 
mammals) and their habitats in both working and wild lands. More 
information about P2 may be accessed at http://www.pollinator.org.
---------------------------------------------------------------------------
    \1\ Founded as the Coevolution Institute, now does business as the 
Pollinator Partnership.
---------------------------------------------------------------------------
    P2 is a strong advocate of a collaborative, science-based approach. 
P2 is honored to have a number of beneficial pollinator partnership 
efforts ongoing through management of the North American Pollinator 
Protection Campaign (NAPPC), a tri-national, public-private 
collaboration of scientific researchers, managers and other employees 
of state and federal agencies, private industry and conservation and 
environmental groups dedicated to ensuring sustainable populations of 
pollinating invertebrates, birds and mammals throughout the United 
States, Canada and Mexico. NAPPC's voluntary participants from over 125 
entities are working together to proactively:

  <diamond> Promote awareness and scientific understanding of 
        pollinators;

  <diamond> Gather, organize and disseminate information about 
        pollinators;

  <diamond> Provide a forum to identify and discuss pollinator issues; 
        and

  <diamond> Promote projects, initiatives and activities that enhance 
        pollinators.

    Since its founding in 1999, NAPPC has been an instrumental 
cooperative conservation force in focusing attention on the importance 
of pollinators and the need to protect them throughout North America. 
More information about NAPPC and its collaborative efforts can be found 
at http://www.nappc.org.
Pollinators Play Critical Role in Agriculture and Are at Risk:
    Insect and other animal pollinators play a pivotal part in the 
production of food that humans eat--with estimates as high as one out 
of every three bites--and in the reproduction of at least 80 percent of 
flowering plants. The commodities produced with the help of animal 
pollinators generate significant income for agricultural producers. For 
example, domestic honeybees pollinate an estimated $15 billion worth of 
crops in the U.S. each year, produced on more than 2 million acres. It 
is increasingly recognized that native bees also contribute 
significantly, providing ``free'' ag pollination services. Recent 
estimates credit native pollinators for providing about $3 billion 
annually in crop pollination services.
    The cost for pollination services as a purchased agricultural input 
has actually increased at a higher rate than energy prices over the 
past several years. The availability and reliability of these 
pollination services are no longer certain. It is thus in the economic 
interest of both agriculture and American consumers to help ensure a 
healthy, sustainable population of honeybees and native pollinators.
    Today, possible declines in the health and population of 
pollinators in North America and globally pose what could be a 
significant threat to the integrity of biodiversity, to global food 
webs, and to human health. A number of pollinator species are at risk. 
Due to several reported factors, the number of commercially managed 
honeybee colonies in the U.S. has declined from 5.9 million in the 
1940's to 4.3 million in 1985 and 2.5 million in 1998. All indications 
are the problem has worsened in recent years.
    About 900,000 rented colonies are employed to pollinate 500,000 
acres of just one major cash crop, almonds, grown in California--and 
that acreage is increasing. Producers of other specialty crops are 
increasingly concerned about the reliability and cost of pollination 
services. Availability and reliability of pollination services are the 
top priority to producers--simply stated, no pollination, no crop!
CCD Wakeup Call for Pollinator Conservation Action:
    Even as efforts are appropriately focused on research to find out 
how to address Colony Collapse Disorder (CCD) and other issues related 
to pollinator health, there are scientifically based actions we can 
take. We have the scientific understanding to know that improving 
habitat for both honeybees and native pollinators is an important tool 
to improve pollinator health. Here are some conservation actions that 
can be taken now:

  <diamond> Farmers can incorporate pollinator-beneficial practices now 
        in their conservation efforts.

  <diamond> Congress can help now by funding research and conservation 
        provisions under the new Farm Bill to realize their potential 
        to provide farmers and ranchers with pollinator assistance.

  <diamond> USDA can help now by implementing pollinator provisions in 
        the new Farm Bill, coordinating efforts and collaborating with 
        the ag community and other natural resource managers.

  <diamond> P2 pledges to help now by continuing to facilitate 
        collaborative efforts on pollinator research, conservation and 
        public awareness.

  <diamond> All Americans can help now with pollinator-friendly 
        practices in their own back yards.
New Ecoregional Guides Tool for Native Habitat for Pollinators:
    To empower stakeholders with the information needed to move forward 
with pollinator habitat conservation efforts on the ground, P2 is 
pleased to announce the National Pollinator Week launch of the first 
six in a new series of practical Ecoregional Guides, ``Selecting Plants 
for Pollinators.'' There are 35 ecoregions in the United States, and 
within two years there will be a guide released for each ecoregion. Two 
new guides each will be released in July, August and September.
    These guides are intended to be practical tools for farmers, 
ranchers and gardeners who want to establish habitat for honeybees and 
native pollinators through native plants that are specific to their own 
region. The guides are available in downloadable form for free at 
http://www.pollinator.org along with information about how to use them. 
Exhibit 1 is a short Q&A on the guides. Exhibit 2 is a 1-page flier on 
the new guides that is being widely distributed.
    What is an ecoregion? Why aren't we developing guides by state or 
county or other familiar geographic delineation? Scientists in USDA and 
elsewhere told us that plants and pollinators don't ``think'' along 
state or county lines. Scientists recommended that we use an 
established system of ecoregions that could be used to match native 
plants and pollinators. Ecoregions (ecological regions, or bioregions) 
denote areas of general similarity in ecosystems and in the type, 
quality, and quantity of environmental resources. The biodiversity of 
flora, fauna (including pollinators) and ecosystems that characterize 
an ecoregion tend to be distinct from that of other ecoregions. These 
general purpose regions are critical for structuring and implementing 
ecosystem management strategies across federal agencies, state 
agencies, and nongovernment organizations that are responsible for 
different types of resources within the same geographical areas.
    You have no idea what your ecoregion address is? P2 was struggling 
with a way to connect this tool to potential users. Our partners at the 
National Biological Information Infrastructure (NBII) pointed us to an 
existing online system. NBII is a broad, collaborative program to 
provide increased access to data and information on the nation's 
biological resources.
    All you need is your ZIP Code, and our online ZIP Code Habitat 
Locator will connect you to your ecosystem map and guide. If the guide 
for your ecoregion is not yet available, you can enter your e-mail 
address and receive an alert when it becomes available.
    For illustrative purposes, Exhibit 3 is the full ecoregional guide 
for the Central Appalachian Broadleaf Forest. As indicated on the map 
on page 7 of the guide, this ecoregion includes the District of 
Columbia and parts of Virginia and Maryland, with the region portions 
of states from Pennsylvania to South Carolina. The first part of each 
guide covers standard information, including:

  <diamond> Why pollinators are important, and Getting started

  <diamond> Understanding the ecoregion covered by the guide

  <diamond> Meet the pollinators, and Which flowers the pollinators 
        prefer

  <diamond> Developing landscape plantings that provide pollinator 
        habitat

  <diamond> Tips for--Farmers, Public land managers, and Home 
        landscapes

    Each guide provides plant-pollinator information specific to that 
ecoregion, including (1) Bloom periods; (2) Native plants that attract 
pollinators; and (3) Habitat hints. Finally, each guide provides 
additional resources and tips, including (1) Habitat and nesting 
requirements different pollinators; (2) Basic checklist; and (3) Where 
to access additional information.
    It is important to emphasize that the guides are science-based and 
that great care has been taken to avoid including any invasive species 
in selecting the recommended lists of native plants specific to each 
ecoregion.
    The guides are being funded by the National Fish and Wildlife 
Foundation, the C.S. Fund, the Plant Conservation Alliance, the U.S. 
Forest Service, and the Bureau of Land Management. P2 is providing 
oversight. NAPPC volunteers have provided expertise in the development 
of the guides. The concept was also reviewed by a number of agencies 
and trade associations like the American Farm Bureau Federation and the 
National Garden Association. The guides will undergo continuing review 
and can be readily updated since they are maintained online.
    The ecoregional guides were inspired by ``Montana Native Plants for 
Pollinator-Friendly Plantings,'' a pamphlet published in 2005 by the 
Natural Resources Conservation Service (NRCS) in Montana under the 
leadership of David White, State Conservationist. The pamphlet was 
offered to farmers and ranchers and nurseries. On a trial basis, the 
State NRCS offered bonus eligibility points in selected cost-share 
programs like the Environmental Quality Incentives Program (EQIP) and 
the Wildlife Habitat Incentives Program (WHIP) to farmers and ranchers 
who opted to include pollinator habitat in their conservation efforts. 
P2 is conducting a follow up study under a Conservation Innovation 
Grant from the Montana NRCS--including a survey, field visits and a 
demonstration site to determine how well the program worked and how it 
could be made better in the future. One thing we have learned from this 
initiative is that native plantings differ in different parts of 
Montana. This helped prompt our effort to look for better approaches, 
which ultimately led to the ecoregional planting guides.
    P2 hopes to collaborate with NRCS, using the Montana pamphlet and 
the improved information in the ecoregional guides to develop similar 
user-friendly pamphlets for other states.
National Academy Report Blueprint for Science-Based Actions:
    The National Academy of Sciences (NAS) released a major report in 
late 2006--before CCD became an issue of concern--on the status and 
health of pollinators in North America that included a number of 
recommendations on research and conservation action. That report was 
released at a day-long Pollinator Symposium put together by P2/NAPPC 
and hosted by USDA. The NAS study came about as a result of a 4-year 
campaign by NAPPC partners and was supported by 52 national 
organizations including major farm, commodity and agribusiness groups. 
Diverse stakeholders found common ground in the principle that sound 
science is essential to guiding policies and actions related to the 
future of pollinators. In essence, the report from a cadre of top 
researchers in North America recommends that we must (1) improve our 
scientific understanding, (2) increase awareness about the amazing 
world of pollinators and their importance to our food supply and 
healthy ecosystems, and (3) take action to protect pollinators and 
their habitat. These recommendations are now serving as a science-based 
blueprint as we move forward on research, conservation and other 
initiatives.
P2/NAPPC Honeybee Health Task Force Research Efforts:
    To help address multiple concerns about the health of our nation's 
honeybees, last fall P2 facilitated the establishment of a Honeybee 
Health Improvement Task Force through NAPPC. Top scientists from 
universities and federal agencies were recruited and teamed up with 
leading representatives of the beekeeping community.
    Burt's Bees stepped up and donated vital funding to support the 
Task Force at NAPPC's International Pollinator Summit, hosted by the 
Department of the Interior last October. P2 applauds the leadership 
provided by Burt's Bees and major contributions for research on 
honeybee health and sustainable pollination to the University of 
California-Davis and Penn State by Haagen Dazs. Haagen Dazs has joined 
the growing P2 team this year as a partner and sponsor. An exciting but 
less well known story is that individuals from all walks of life are 
also making contributions to help support pollinator health efforts, 
from school children to private individuals and foundations.
    The Task Force has worked to identify specific research needs that 
would complement research being funded by USDA. In response to a 
request for proposals, nineteen eligible proposals were received from 
applicants all around North America, totaling more than $200,000 in 
funding requests. The caliber and diversity of the proposals received 
speak to the importance of and need for honeybee health research. The 
five one-year grants awarded cover a broad range of honey bee related 
topics such as the effects of climate or environmental variables, the 
effects of nutrition on honey bee physiology and/or colony health, the 
effects of sublethal doses of pesticides (including miticides) on honey 
bee physiology and/or colony health, and genetic stock improvement. A 
list of proposals that have been awarded follows:

  <diamond> ``Assessment of sublethal effects of imidacloprid on honey 
        bee and colony health'' (University of Maryland Foundation; 
        Dively and Embrey)

  <diamond> ``Diagnostic gene panel for honey bee breeding and disease 
        management'' (USDA-ARS Bee Research Lab; Evans and Chen)

  <diamond> ``Effects of miticide and Fumagilin-B on honey bee 
        survivorship and immune responses'' (Acadia University; Little, 
        Shutler, and others)

  <diamond> ``Changes in hormonal and protein levels in honey bees that 
        are experiencing migratory transportation'' (Michigan State 
        University; Huang)

  <diamond> ``Nutritional effects on intestinal health and longevity of 
        honey bee workers'' (University of North Carolina at 
        Greensboro; Rueppell)

    A more complete description of the Honeybee Health Task Force and 
research projects is provided in Exhibit 4 and at http://
www.pollinator.org/honeybee_health.htm.
    We appreciate the increasing efforts by the U.S. Department of 
Agriculture (USDA) to conduct and coordinate research on CCD and other 
challenges impacting honeybees and other pollinators, such as USDA's 
CCD research action plan launched last summer. We also applaud this 
Subcommittee, the Agriculture Committee and the Congress for enacting a 
new farm bill that for the first time includes pollinator-specific 
research and conservation provisions that lay the groundwork for 
additional action. The Pollinator Partnership is urging the Congress to 
provide additional funding for pollinator research and conservation in 
the Fiscal Year 2009 appropriations. We also urge the research and 
conservation agencies at USDA to take maximum advantage of the new 
pollinator provisions in the farm bill in implementing their programs.
New Farm Bill Provides New Pollinator Protection Provisions:
    P2 commends this Subcommittee and the Congress for including 
pollinator-beneficial provisions in the research, conservation and 
specialty crops titles of the new Farm Bill. A summary is available at 
http://www.pollinator.org/Resources/
PollinatingtheFarmBill,ConferenceReportSummary.pdf.
    Conservation programs can be highly effective in addressing factors 
which can contribute to pollinator declines including: habitat 
fragmentation, loss, and degradation causing a reduction of food 
sources and sites for mating, nesting, roosting, and migration; 
improper use of pesticides and herbicides; aggressive competition from 
non-native species; disease, predators, and parasites; climate change; 
and lack of floral diversity. Effective pollinator protection practices 
often overlap and complement other conservation practices, particularly 
those designed to improve wildlife habitat, and vice versa. In other 
instances, a practice designed to achieve wildlife or other 
conservation practices could generate significant pollinator benefits 
by integrating modest enhancements.
    The focused objective of targeted modifications to authorizing 
language is to better equip and direct USDA research and conservation 
agencies to build on current pollinator-related efforts by the 
Agricultural Research Service (ARS), the Cooperative State, Research, 
Education and Extension Service (CSREES), the Natural Resources 
Conservation Service (NRCS) and other agencies and to help farmers, 
ranchers, foresters and other private natural resources incorporate 
pollinator needs in their conservation efforts. Pollinators, 
agriculture and healthy ecosystems deserve no less.
Pollinator Importation Can Do More Harm Than Good:
    If CCD and other pollinator health issues continue to threaten ag 
pollination services, P2 cautions against scrambling to fill the void 
by importing non-native pollinator species from other countries or 
other eco-regions. If CCD proves to be a persistent problem, the 
pressure to allow such remedies could grow. We need to avoid 
compounding one problem by unintentionally creating others that could 
make the situation far worse. Imported species intended for a good use 
can quickly become out-of-control invasive species (including pests and 
diseases the imported species may carry and introduce). The unintended 
consequences could overwhelm the beneficial effects of research and 
conservation measures and actions facilitated by the Farm Bill.
    This problem and the demonstrated risks involved are so great that 
NAPPC collaborators teamed up in 2006 and produced a ``Bee Importation 
White Paper'' focused on the risks and consequences of importing non-
native bumble bees. The following excerpt captures what is at stake:

         ``Non-native species introductions may have dramatic negative 
        consequences. In the last century, invasive species of all 
        types have cost the U.S. an estimated $137 billion in damages 
        (Pimentel et al. 2000). Yet introductions of exotic plants and 
        animals persist, partly because those who introduce exotic 
        plants and animals may not fully understand or bear the 
        consequences of their behavior (Perrings et al. 2002), which 
        can be devastating on both economic and ecological scales.'' 
        [p. 23]

    The report is available at http://www.pollinator.org/Resources/
BEEIMPORTATION_AUG2006.pdf and includes a number of key 
recommendations. If trans-boundary shipments of pollinating species are 
considered, the greatest care must be undertaken in developing 
effective protocols to prevent such unintended consequences.
National Pollinator Week June 22-28, 2008:
    June 22-28, 2008 was designated as National Pollinator Week through 
a proclamation by Secretary of Agriculture Ed Schafer. A number of 
events across the nation to celebrate and raise public awareness about 
our pollinating partners and the need to take actions that protect 
pollinators and their habitat. For example--

  <diamond> On June 25, P2 hosted a briefing on the status and plight 
        of bees and other pollinators.

  <diamond> Governors in 26 States have signed proclamations Pollinator 
        Week at the State level.

  <diamond> Pollinator Week activities and events are occurring in at 
        least 38 States and Canada.

  <diamond> P2 has launched the first six Ecoregional Guides, 
        ``Selecting Plants for Pollinators.''

  <diamond> P2 is signing a Memorandum of Understanding with the 
        National Association of Conservation Districts (NACD), with the 
        first action focused on the Ecoregional Guides.

  <diamond> Pollinator Podcasts produced in partnership with the 
        Department of the Interior http://www.pollinator.org/
        podcast.htm.

  <diamond> Free items, including ``Bounty of Bees'' Poster and 
        Pollinator Wheels.

    The goal is to encourage actions in support of pollinators through 
the year. More information is available at (http://www.pollinator.org/
pollinator_week_2008.htm).
    CoE stands ready to work with this Subcommittee and interested 
stakeholders to help ensure that honeybees and native pollinators are 
sustained for the benefit of agriculture, consumers and healthy 
ecosystems.
            Respectfully Submitted,


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Laurie Davies Adams,
Executive Director.
                               Exhibit 1

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               Exhibit 2

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               Exhibit 3

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               Exhibit 4

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The Chairman. Thank you very much, Ms. Davies Adams. You 
had mentioned that you wanted to share something with us right 
after your testimony. Do you want to do that at this time?
    Ms. Davies Adams. Yes. If you go to pollinator.org, you 
will see this page. If you go to the next page, if you were to 
go up to the corner where the ecoregional guides are, you would 
go to a page that then asks you if you already know your 
ecoregion, you can get the guide for free, but you can also 
type in your ZIP Code and find your ecoregion. It will connect 
you to a map. This, for example, is a map that includes this 
area but it also shows you your total ecoregion. I actually 
have your ecoregion, Chairman. I can identify it for you but 
that guide is not coming until our next round. You are in the 
California dry step province.
    But I think what is interesting is, this is a new way for 
people to actually look at where they live. A lot of people 
say, think global, act local. Local really means your habitat. 
It really means a natural system of which you are a part along 
with plants and animals, so this is a system we hope everyone 
will take advantage of.
    The Chairman. Thank you. I couldn't agree more.
    Mr. Godlin, I want to start by asking you a question. 
Concerns continue to be raised over the impact of agricultural 
pesticides on honey bee populations. In the March 2007 hearing 
of this Committee, we asked those questions, and my experience 
has been that farmers and ranchers are generally incredibly 
wise users of agricultural pesticides. In fact, there are two 
reasons. First of all, they know the impacts of those 
pesticides and they want to be judicious in their application, 
and second of all, pesticides cost dollars, and they don't want 
to apply any more and increase their cost any more than 
necessary. So generally I found that farmers are very 
responsible users of pesticides, and follow the label 
directions on pesticides that have impacts on these practices 
to minimize those effects, is my understanding. Yet concern 
over the role of pesticides continues to appear. Many of you 
mentioned it in your testimony today. We have heard it several 
times. I would like for each of you to discuss as you are 
capable of in greater detail your perspective on pesticide use 
vis-a-vis this problem, and as I asked last year, is labeling 
the problem, is it an education problem, does EPA need to 
reassess its methodology for registering pesticides in view of 
what has been claimed to be potentially lethal and sublethal 
effects on the bee population. We will start with you, Mr. 
Godlin, and then we will go down in the same order as you 
originally testified.
    Mr. Godlin. Thank you. It is true that they don't want to 
apply anything they don't need to, and------
    The Chairman. That being farmers?
    Mr. Godlin. Farmers, and we are, as I said, we rent bees 
for almonds and we rent bees for seed alfalfa on the J.G. 
Boswell Company. They spray us. We know they are going to spray 
us. I don't put that many hives in that contract for that 
reason, but we always had a relationship with that company 
forever. They have tried very hard not to kill bees. They have 
worked on a number of concoctions trying to do as little damage 
as they can, and yet still protect their crop. Other crops that 
we sit around are corn, alfalfa and cotton, and again, these 
are places where I am sitting to try to benefit my bees with 
pollen and nectar, and farmers don't grow crops for bees, they 
grow crops to sell to make money, and I am a guest. I pay them 
honey. I give them whiskey at Christmas. I am their best 
friend, and I am registering with the counties for pesticide 
notification so I can either move the bees out or not go, and 
we do have registration and pesticide notification that has 
been very helpful. But again, I am not going to tell that man, 
hey, you can't spray your crop. I am gone. He is going to say 
``What? You know, I am not growing this for you,'' and this is 
the problem is, we don't have a way to--I have to take the hit 
or not go, and if I don't go, I am sitting on what we call 
fencepost honey or dirt clod honey and those don't exist, so I 
am kind of forced to go to these locations year after year. 
Some years are worse than others. Some years, bug pressure is 
not bad, we don't have a problem. Other years, it is terrible 
and we are forced to pull out, give up, get out, it is bad, 
don't go. But we go to these growers with our hat in our hand 
to ask for these locations, and that is the problem. We don't 
have the authority or the right to tell these guys what to do 
with their crop.
    The Chairman. We understand that. Let me ask a follow-up. 
With regard to, you were talking about one farmer that you 
still provide your bees to, you know they are going to spray. 
Have you seen significant detrimental effects post spray in 
those areas? Is that something that------
    Mr. Godlin. Sometimes.
    The Chairman. Sometimes? So it may not be the cause all the 
time?
    Mr. Godlin. No, I don't think so. I know that they keep 
working on better and better materials, like the imidacloprid 
to get rid of the organophosphates that everybody knows are 
harmful. But as far as the labeling and things, I am not a 
scientist. I am not a spray guy. I just know that I think 
progress is being made, but it is terribly slow.
    The Chairman. Thank you. Anyone else want to comment on 
this question? Yes, let us go on the order. Mr. Mendes.
    Mr. Mendes. I think it is important to say that we are 
really not talking about misuse of pesticides. Certainly that 
could happen but that is not our concern right now. I have been 
in the pollination business 30 years. I work with 200 cranberry 
growers. I work with vine crops in Florida. Growers are 
responsible for the most part. You get an exception once in a 
while, but that is not my experience at all. Growers aren't the 
problem. The mode of action of the products that we are 
concerned with now has changed and the regulation has not kept 
up with it. The way that pesticides are regulated under EPA 
right now is a system called LD50s. It is a lethal dose that it 
kills a certain percentage of the bees, and the new products 
that we are concerned about have very low toxicity to adult 
bees. That is not our concern. We have dealt with that over the 
years. You get a bee kill, you get a lot of dead bees on the 
ground, you know what you hit, you know what happened, you move 
on with that, and I think that is what Steve was talking about.
    But what has happened now, these new products, these 
systemics, they can be applied to the soil, they can be applied 
foliarly, they can be seed treated on corn, for instance. Corn 
is coming up everywhere. The price of corn is sky high. People 
that have had problems in the Midwest in the last 2 years, they 
planted corn near their bee yards, all of a sudden their bees 
are coming apart and they don't come apart right away. The way 
these products work is, it does not kill the adult bees. The 
bees come back to the hive, it goes into the pollen. They feed 
that pollen to the bees in the developmental stages and it 
affects the nervous system of the bees. The reason we know this 
is, if you read the research on how these products are used in 
a normal way to treat termites, this is what they say, that it 
affects feeding behavior, it affects the immune system of the 
insect and it creates memory loss. That is what we are seeing 
in our hives. If you want to understand CCD, the frustrating 
thing is that the cause and effect seem separate. You could be 
exposed in March or April and your bees look fine through the 
summer. Come October, first little bit of cold snap or first 
time when there is no food coming into the hive, they are 
coming apart, or even in January they are coming apart. So the 
whole mode of action has changed.
    So it is not a misuse. The farmers aren't the problem. It 
is the products that they have to work with, and the difficulty 
right now is these new products are the wave of the future. I 
talked to my blueberry growers, I talk to my cranberry growers. 
They are pulling the organophosphates and they are replacing 
them with these products and it is scaring me to death because 
I can't--I don't even know when I am hit. It has made the bees 
sick and you can't fix that once it is inside the hive. So it 
is a very different process than what we have dealt with in the 
past.
    The Chairman. Thank you, sir.
    Anyone else want to speak specifically to this? Let us go 
in order. Mr. Edwards.
    Mr. Edwards. Yes. Thank you, Mr. Chairman. I would just 
like to say that I agree with Mr. Mendes that the farmers are 
going to use what they have available to them. Now, what tests 
the EPA are conducting with regard to the honey bees, we can't 
control that. Obviously it is a concern for us. We want to use 
these products as a tool, and in the most cost-effective and 
safe way as possible for the environment and for us.
    One thing I think we need to be aware of, I think that a 
problem of this magnitude and what we are seeing happen to the 
honey bee in general, I think it is going to be like any other 
disaster. There is no one cause. I think at the end of the day 
when we figure this out, if it is tomorrow or if it is 15 years 
from now, it is going to be a multipronged issue that has 
several variations of problems to it. I think pesticides can be 
the easy scapegoat right now in the early stages and I will 
just push for more testing, more research, and that is 
definitely what we need at the university level because the 
first thing, pesticides cause everything from cancer to 
baldness, just the first thing you shoot off the hip from, and 
I think we need to be very careful, but we do need to address 
the issue.
    The Chairman. Yes, I agree with you, sir, because it seems 
a little bit fishy to me. I don't dispute at all what Mr. 
Mendes says. I believe------
    Mr. Edwards. And neither do I.
    The Chairman.--it is very plausible. But on the other hand, 
you are seeing wild bees be affected. You are seeing bees being 
affected in other countries that wouldn't have access to those 
products. So the fact that this is global in nature lends 
itself to the belief that there may be multiple causes, or 
there may be one cause that is affecting us that we haven't 
figured out yet. It could be just bees are made weaker by a 
combination of all these factors and then they are being more 
susceptible to diseases that then get spread through global 
transportation methods that are now being employed.
    Mr. Flanagan, then Ms. Davies Adams.
    Mr. Flanagan. Thank you, Chairman Cardoza. One quick 
comment. I have been in agriculture a long time and I am a 
believer in the benefits of the Clean Water Act and the Federal 
Insecticide, Fungicide and Rodenticide Act. Those two Acts came 
out of a crisis of the 1960s and I think it produced the safest 
food supply in the world and some of the best turnarounds in 
water quality possible.
    So having said that though, I think in the beekeeping 
world, the CEO of a beekeeping company is the same guy that 
drives the truck up to your land, that puts the bees out, that 
watches them. So, when these guys give anecdotal evidence about 
what they are seeing, that is the essential common sense of the 
matter and I think what it has caused us to wonder at Wyman's 
is about the Federal Insecticide, Fungicide and Rodenticide Act 
and the EPA that governs it, maybe we should review how the 
practices are done. What they have observed does make you 
wonder about the impact, the growing impact of our chemicals. 
All of us are certainly motivated to use less and less 
chemicals, both from our customer base and from our own cost 
profiles, but we need some of them, yet then we listen to the 
stories of these fellows and we think we have to step back and 
take a look at the whole rulemaking process, I believe.
    The Chairman. Thank you.
    Ms. Davies Adams, the last person to come in on this 
question.
    Ms. Davies Adams. This will be a quick recap of answering 
some of your questions. You asked about labeling. Yes, it is an 
issue. We need to work on more effective, easier to read, and 
easier to understand labels. We also need to think about 
multiple exposures. This is part of what the reality of the 
world is now. We need to also look at the mix and the 
combination of chemicals which are creating exposures. We also 
need to look at sublethal effects, which currently we don't 
look at, that is an easy thing to add, and long-term effects. 
Part of this is regulatory, part of this is monitoring, but we 
also need to look at the applicator certification programs 
state by state.
    The Chairman. Thank you.
    Mr. Mendes, I have a couple questions for you. You make 
reference to regulatory action in Germany and France. This is 
sort of a follow-up on the pesticide question. You make 
reference to regulatory action in Germany and France to 
restrict certain systemic pesticides. It is my understanding 
that European beekeepers are still suffering significant and 
nearly the same losses, if not more, despite these regulatory 
actions, and that the German decision was based on the action 
of a type of European planting equipment on the seed coating 
containing the pesticide rather than the misuse of the 
pesticide itself, as we were talking about earlier. Do you have 
any specific information on general health and condition of 
European bees that you can help us with? It is my understanding 
that there have been no specific reports of significant honey 
bee incidents in the United States associated with the material 
that is in question in Germany, which is, as I understand it, 
clothianidin, which trade name is Poncho. So if you can------
    Mr. Mendes. Sure. The situation in France was interesting. 
I will try to do this briefly. They did pull one particular 
product off for one particular crop. They couldn't use 
imidacloprid on sunflowers. Well, what they replaced it with 
was the same basic type of product so they said well, we pulled 
the product and nothing improved but that really wasn't a step 
ahead, and that is an ongoing issue.
    The Chairman. You have to throw that question out is what 
you are saying. You can't say that------
    Mr. Mendes. Well, you pull the imidacloprid and you 
replaced it with fipronil so they both have a similar mode of 
action. So, to say why didn't it fix the problem, that is one 
thing that you put another product that had a similar mode of 
action. The second thing is, these products do stay in the 
soil. We know they are persistent in the soil. I don't have to 
say ``we think.'' We know they are persistent in the soil. Some 
of our early information in looking at this issue came from 
Canada, where they would use soil applications on potatoes. 
Bees don't work potatoes at all. They would put a soil 
application. The following year, they would rotate and put a 
cover crop of clover, and the bees would die from the clover a 
year later because this stuff stays in the soil for a long 
time. We know it stays there for a long time. The residuals are 
a big issue in all of this. Anything that is applied is there 
for a long time, very different than contact killers that once 
they are dry no longer are as much of a problem.
    As far as in this country, Poncho is used. I don't believe 
you cannot purchase any good quality corn seed in this country 
that is not seed treated. The folks that are getting hit really 
bad right now are in areas where there hasn't been corn 
traditionally. They have bought either CRP land or land that 
was on other crops to switch over to corn. This happened last 
summer. In the fall, the bees are coming apart. So these 
products are used here. It hasn't been documented because the 
cause and effect isn't clearly understood. There are a lot of 
beekeepers. This is not generally understood in the beekeeping 
world. Dave Hackenberg and I have started right from the 
beginning on this and we have done a lot of research, and I 
would love to have the data to either prove or disprove. That 
is really what we are asking is, give us the ability to collect 
the data. If we are wrong, nobody is going to be happier than 
us because this is such a big issue that it would be wonderful 
if this was just a specific bee virus that is causing this 
problem. We just don't see that happening.
    And what I will add in, this is anecdotal but my own 
experience and experience of several beekeepers is, you bring 
your bees to an area where these products are being used. 
Several months later, they are collapsing. The bees that you 
left in the woods far away from those crops, they are just 
fine, and this has happened for 2 years now. Anything that is 
exposed, several months later, those bees are no good. The bees 
that stayed away from it, same management practices, those are 
fine. But you can't change regulation with that kind of 
information.
    The Chairman. Correct. I understand that. Thank you.
    Let me follow up just briefly. Is there anyone here who 
uses their bees to pollinate organic crops? There are two names 
for this Committee. It is Horticulture and Organics. Organics 
are a growing area. It would make sense if what you say is 
correct that the organic fields wouldn't have the same cause. 
Now, they could be next to a field that has some other products 
so that can't be a direct necessary link but does anyone want 
to speak to that question?
    Mr. Mendes. Sure. I work with a couple of organic farms in 
Florida that grow vegetables, but they are adjacent to orange 
groves or something else where the bees are exposed and organic 
agriculture in this country is in small pockets. It is not 
widespread enough. And in my case, I pick up the bees and I 
move them. I take them to blueberries, I take them to 
cranberries, and so------
    The Chairman. You can't speak to the specific exposures?
    Mr. Mendes. No, not at all.
    The Chairman. Okay. Thank you. That question didn't help us 
very much then. Mr. Mendes, I am going to follow up with you 
one more time, and that is, has the ABF conducted any 
assessment of the potential effects on the recent floods in the 
Midwest and the fires in the Southeast and in California, what 
those calamities might mean to bee production and your 
industry?
    Mr. Mendes. Well, we are farmers. I mean, we are subject to 
weather. Anybody who is in those areas certainly is devastated. 
It is more common to have problems with drought. I mean, we 
have had drought in several parts of the country for the last 
couple of years, California last summer. I mean, any weather-
related incident is certainly going to affect beekeepers as 
much as anything, so the floods, the droughts, whatever we have 
is going to hurt things. The problem the industry is having is, 
we are in a weakened position already, so any additional damage 
is going to show up more.
    The Chairman. Thank you.
    Ms. Pien, can you tell us how your company began 
identifying pollinator health as an economic issue rather than 
simply as a marketing issue and that type of question?
    Ms. Pien. Yes. We first discovered issues through reports 
from The New York Times and CBS's 60 Minutes, and when we 
learned that honey bees are responsible for one out of every 3 
bites that the Americans take, we felt compelled to leverage 
really the passion that consumers have for Haagen-Dazs ice 
cream to help draw attention to this crisis. You know, as I 
have spoken out, we did a survey and more than half of 
Americans aren't even aware of the honey bee crisis, and given 
that this crisis impacts every one of us who cares about the 
food that we put into our mouths, we felt like this is an issue 
that we had to get involved in and help address and proactively 
take action towards.
    The Chairman. Thank you.
    Mr. Replogle, does your company own any of its own hives or 
do you just purchase the products that you put into your own 
products, purchase the ingredients, and how does your company 
view its support for the Pollinator Partnership long term, and 
what were the decisions that led you to support the program for 
a second year?
    Mr. Replogle. Very good question. Currently, we do not have 
our own hives although our roots are from a beekeeper. Burt and 
Roxanne, the founders of our company, Burt is a beekeeper. In 
fact, I spoke to him on the way here this morning, and he is 
very passionate about this issue, as a beekeeper would be, and 
he believes that that has to be the force of business is to 
protect well-being. Our company's mission is to make people's 
lives better every day naturally, and this is a fundamental 
issue that goes back to the roots of our business, back to Burt 
as a beekeeper, and so today actually we source all of the bee 
byproducts from others. We do not have any of our own hives 
today but we are advised and guided by our legacy and by Burt, 
who is and has been an active beekeeper.
    The Chairman. Thank you.
    Ms. Davies Adams, thank you for your testimony today. I 
appreciate it. Can you tell us more about the process used by 
the Pollinator Partnership in deciding which proposals are 
funded?
    Ms. Davies Adams. We have a Honey Bee Health Improvement 
Committee that has a distinguished list of scientists, all of 
whom are listed in my written testimony, but they include the 
chair of the National Academy of Sciences study, May Barenbaum, 
Nick Calderone, Gene Robinson, a number of distinguished 
scientists who are already engaged, including ARS scientists. 
We put a Request for Proposals out to the scientific community 
and we received 22 proposals. We had a review committee 
consisting of bee scientists who evaluated them and determined 
a ranking for each of the proposals, and we then funded the 
number of proposals that we had money for. Those that we 
thought were extremely important and vital, we went out and 
looked for money for and we actually received funding not just 
from our corporate partners but from an oncologist in Vermont, 
from a 4th-grade class in California. We have sought more 
funding because there were so many proposals that we felt were 
worthy.
    The Chairman. It really is amazing, the passion, when you 
talk about that 4th-grade class and others, the passion that 
has been brought to this issue from the grassroots and just 
concern by the public at large has been remarkable. I had 
interviews with a number of news media groups from all other 
the world including the BBC just last month, so I am very 
familiar with what you speak.
    That was my last question. I am going to turn it over now 
to Mr. Etheridge, who has a series of questions. Mr. Etheridge, 
the floor is yours.
    Mr. Etheridge. Thank you, Mr. Chairman. Let me first 
apologize to our panelists. I had a bill on the floor and I 
couldn't be in two places at once, and we have a fairly 
important piece of legislation dealing with the CFTC and all 
the issues surrounding the issues we worry about today. So 
thank you, and I am sorry I wasn't here, and if you have 
answered any of these questions when I get to them, just let me 
know and I will move to my next question.
    Mr. Replogle, it really is good to see another North 
Carolinian here today, so thank you for being here.
    Mr. Replogle. Thank you, sir.
    Mr. Etheridge. And I would venture to say with 400 people 
that drive in from a pretty good distance, and I would almost 
guess some of them live in my district, so I am going to take 
that as a yes anyway. But I don't think you mentioned this in 
your testimony, but my question has to do with, has the CCD 
problem and the shortage of bees that it is creating thus far 
had an economic impact of significance on your business because 
you indicated you have no bees but you buy your wax from 
producers. So it stands to reason that you have a loss of hives 
across the country. You have to be expanding your area of where 
you are purchasing your materials.
    Mr. Replogle. That is right. It goes back to simple supply 
and demand. We have a demand for direct pollinated products. 
Sixty percent of our products use ingredients that are linked 
to pollination by bees and another 40 percent of our products 
use direct byproduct, wax, beeswax or honey. And therefore our 
supply being curtailed and as we heard today in testimony, the 
crop yield shrinking or the ability to plant more crops being 
impacted by the plight of the honey bee is certainly increasing 
the cost of our raw material ingredients, our natural 
ingredients. So far we have been successfully able to offset 
those costs by efficiencies in our business, but along with 
other price increases and cost increases in our business, it is 
putting a strain on our business, on our well-being and on the 
choices we make every day in terms of the well-being of our 
employees. So to continue to thrive and grow in the Tarheel 
State, we need to have a national solution to the honey bee 
crisis so that further detriment to the crops, and therefore 
the costs of doing business, not only for Burt's Bees but for 
the $4 billion natural personal care industry and the wider $50 
billion personal care business is not impacted.
    Mr. Etheridge. Thank you. I think a lot of folks don't 
really think about this sometimes. They think it is truly an 
agricultural piece or a piece dealing with one segment but I 
think your point and each one of you made this indirectly, we 
are all linked together in this thing and it is more fragile 
than we want to admit where we are on this planet and our food 
supply is a part of that.
    Mr. Godlin, we hear more and more and we have heard 
testimony about how it is becoming imperative that bees have to 
travel greater distances simply because of the problems we 
face. My question to you is, not knowing a lot about it, can 
you tell us how well bees adapt to the travel, and also both 
moving from field to field and from, I guess at the same time, 
from one part of the country to another, from one environment 
to another, with humidity, high temperatures, cooler 
temperatures, what kind of impact------
    Mr. Godlin. It is a very precarious job. It is a very 
precarious job. You have to have good operators. You know, we 
contract all the interstate stuff from the Dakotas and 
Minnesota. All those bees are hired trucks. We just run our own 
trucks within the state, 22-foot flatbeds, and we move them at 
night. You can't stop.
    Mr. Etheridge. Why not?
    Mr. Godlin. Well, the bees come home. The bees come home in 
the evening every night. All the foragers come in, get into the 
hives. You load them on the truck in the evening and move them 
to where you are going to go and unload them in the morning or 
in the middle of the night. It depends on the pressures to get 
it done. And the interstate trucking is that you have to have 
them netted and certain times of the year you can cook them. 
You can literally cook these bees, just like cattle. You have 
to------
    Mr. Etheridge. Tell us what you mean when you say ``cook 
them.''
    Mr. Godlin. Kill them. Overheat. You have to hose them 
down------
    Mr. Etheridge. I understand that, but we have cameras in 
the room and------
    Mr. Godlin. You have to hose them down and keep them cold 
and you have to run that truck all day long and fuel up at 
night and you have to plan your stops. It is pretty much a 3-
day run, and you have to be diligent to do it right. You know, 
I have heard horror stories of guys unhooking in Vegas and 
taking off with the tractor and there sat the bees in the 
parking lot, crazy stuff. But it is a dangerous, delicate job 
that we just try to keep a low profile on. We don't want people 
to know that when you are driving down I-5 through L.A. that, 
you got a load of dynamite on your truck there.
    Mr. Etheridge. Thank you, sir.
    Mr. Godlin. There you are.
    Mr. Etheridge. Mr. Edwards, let me also thank you for 
taking time. I know how busy things are on the farm right now, 
especially in North Carolina and I assume it is true in most of 
the country. And I think we all know just how serious this 
problem has become, and I don't think there is any question the 
need for research is critical. I think this Committee knows 
that and certainly the Chairman does and he has pushed hard for 
it in the farm bill we passed and he is now talking about doing 
more. I think that is appropriate, given where we are with this 
situation. But you made a point I think we need to hear again 
about helping out the beekeepers who are on the verge of going 
out of business, because once they are gone, we are really 
going to be in a bind. All of us are going to have a problem 
because I don't think folks want to go out and do like we did 
years ago with some commodities and actually pollinate them by 
hand, and we still do that for seeds and others and I don't 
think folks understand that. Aside from some type of crop 
insurance for the beekeepers, what else do you think we can do 
to better assist them beyond that and research? And also, are 
you aware personally of any beekeepers certainly in your area 
that you deal with that just aren't able to stay in business? 
You talked about having cut your production in half. How many 
other farmers that you are aware of in your region where an 
awful lot of cucumbers are grown that just are cutting back?
    Mr. Edwards. As far as the second question, as far as 
beekeepers, a very long-time beekeeper and I think some of the 
previous panel may have known him, will be quitting this year. 
It has just gotten too tough and I think he has fought it a 
little too long. It definitely is a labor of love to keep bees. 
I can pretty much tell you that these guys are not doing it for 
the money. So to me, they are very, very powerful ally. I know 
we talked and focused on saving the bees when we really need to 
be focused as well on saving the beekeeper. I think he is your 
number one ally in this, or she is our number one ally in this 
fight. They have been doing it long before it became popular. 
So as far as how to go about that, that is a very good 
question. Going from an idea to implementation is always a 
challenge, but I am not sure about this new farm bill, but I 
know in the previous one, a beekeeper, and I was talking with a 
good friend of mine that does bees and asked. They were not 
classified as a farmer in the Farm Service Agency so they had 
no access to low-interest loans, which could be a good option, 
or some type of insurance. They could not get any assistance. 
Basically they were classified as a farm service provider and 
not necessarily an agricultural producer or farmer, whichever 
you want to call them. I don't know if that has changed in the 
new legislation. So forgive me if I am wrong on that. But I 
think we definitely need to be very proactive in helping these 
guys out because they are definitely on the brink. Jeff Lee, 
who supplies my bees out of Mevin, North Carolina, Jeff has a 
Ph.D. in organic chemistry so he has done a total 180. He 
worked for a large company in the realm of chemistry and he 
just lost his job to outsourcing and became a beekeeper, but he 
has his house mortgaged, his credit cards totally maxed out. 
These guys are not doing it for the money. I mean, I don't 
think anybody will put on a suit and go among 500,000 swarming 
bees--I don't think they are doing it for the money. They have 
to love it on some level and I think we need to--we can use 
that passion that these guys have. I am not discounting the 
university-level research. That is absolutely crucial to the 
beekeeper and to the farmer, but I think we need to be very, 
very aggressive in helping the beekeeper and do something as 
quick as yesterday.
    Mr. Etheridge. Thank you, sir. I would not want to go into 
500,000 bees. I haven't done it recently. The last time we had 
a bunch, we had them in our church and it took a while to get 
them out. You know, they found a new home, and that was not an 
easy process.
    My final question, Mr. Edwards, and you mentioned this a 
little bit in your testimony about cucumbers and where you had 
one hive per acre, and now you have cut your acreage in half. 
If someone else wants to comment on this, that would be fine 
too, but have you had to increase or decrease the number of 
hives per acreage, as an example, put out hives for an acre and 
a quarter to an acre and a half? Do you know of anyone that 
has, and if they have, what did that do for production?
    Mr. Edwards. Well, I can tell you 10, 15 years ago, well, 
15 years ago my father grew cucumbers and other guys, really, 
pollinators were a way to enhance yield. It wasn't a necessary. 
Today I don't plant cucumbers unless I definitely know I can 
get the bees, because the native populations just aren't there. 
We used to do a hive to 2 acres, maybe even more, maybe 3 
acres. Now we are having to do a hive per acre because the 
native bees aren't there, and if we don't have them there, it 
causes yield problems, obviously, but the other thing it causes 
is misshapen fruit, which we can't harvest.
    Mr. Etheridge. Can you explain to folks what you mean by 
that statement?
    Mr. Edwards. If the pollination doesn't occur, and I am not 
an entomologist, but if the pollination doesn't occur in a 
timely fashion, our fruit set is very intense, very heavy in a 
very short time period so if you don't have a lot of bees out 
there really fast doing what they do best, it will cause 
misshapen cucumbers, nubs, they are also called, and crooks 
that can't be processed by the processing companies or the 
consumers won't buy them. They won't fit in a jar, a host of 
reasons why they are just not usable.
    Mr. Etheridge. Thank you, Mr. Chairman, and thank you for 
this hearing and let me thank each of you again for coming, and 
I yield back.
    The Chairman. Thank you, Mr. Etheridge. You have done a 
great job as always.
    I just want to make two observations as we close up today. 
The first one is that if in fact you cut down on acreage, as 
you have testified that you have done this year, there is a 
significant result of that. Agriculture is a supply versus 
demand commodity-driven, cost-driven industry, and when you 
have less supply and you have the same demand, you are going to 
have increased costs to the consumer, and so what the consumers 
are already conveying to Members of Congress is that they are 
concerned about their food prices going up. Well, based upon 
the testimony that we have seen today, we are going to see 
increased food prices because of the lack of pollinators.
    The second point and one of the more globally concerning 
points that I have heard continuously since we have been 
researching this topic, is that the natural bees, the bees in 
the wild that may have been pests to us when we were growing up 
and we were kids walking in the woods and suddenly getting 
stung have disappeared. That has got to give us all some 
significant concern, not just for food production but what is 
happening globally, and is there something that we don't 
understand that we need to understand about our environment and 
what is happening around us.
    So both of those things are of great concern to this 
Committee, to me personally, to Mr. Etheridge and all of us 
concerned about this question, and I would just encourage the 
researchers and the bureaucrats who have testified today, we 
are all going to have to get busy and get to the point of what 
is causing this before we have some calamitous effects that we 
can't control.
    So with that, I am going to end this hearing today. Thank 
you all for being here. Thank you for your testimony. We have 
some serious work to be done.
    [Whereupon, at 1:15 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
      
 Submitted Material by Maryann T. Frazier, Senior Extension Associate,
      Department of Entomology, The Pennsylvania State University
    This was prepared and is being submitted in response to Chairman 
Cardoza's request for specific information on what resources are needed 
to address the issues of CCD and declining pollinator health in the 
U.S. in a time critical manner over the next 12-18 months. While a core 
team of scientists from multiple institutions and disciplines has 
assembled and has sought funds to support research, the time critical 
nature for a solution to this national emergency requires additional 
personnel and resources to allow these scientists to have maximal 
impact in the immediate timeframe.

    Immediate objectives and needs (addressing the cause(s) of CCD; 6 
months)

    To complete pathogens and pesticides analyses of acquired samples 
on current CCD projects (meeting Goals 1 and 2 in the action plan)
    These samples come from 8 different studies or CCD field surveys 
and also include a small number of beekeeper submitted samples. We 
currently have a backlog of 4039 samples in storage and/or in the 
process of being generated from on-going projects. Some of these will 
be analyzed for pathogens and others for pesticides. The cost per 
sample for pathogen analysis is $15. The cost for pesticide analysis 
ranges from $95 to $259 depending on the hive matrix and residues being 
tested for. We estimate that to complete the analyses of the remaining 
samples will cost $250,000 beyond our current resources. The eight 
studies include cooperative efforts by the working team to examine the 
prevalence of pathogens across the U.S., the exposure of bees on 
pollination contracts on the East Coast to pesticides and the effects 
of gamma irradiation on pathogens and pesticides in comb from CCD 
colonies. While we have not completed the analysis of all samples, the 
results to date are being used to design and carryout hypothesis-driven 
research to help reduce colony losses. Additional resources for these 
analyses, would allow researchers to redirect current resources to 
support these experiments.

    Intermediate objectives and needs (addressing the cause(s) of CCD; 
12-18 months)

    While no one factor has been identified as the cause of CCD, 
several key questions have been generated from the significant work 
that has been done to date. Answering these critical questions is the 
next logical step to identifying the cause(s) and potential cure(s) for 
CCD. The research questions here represent current key areas of effort 
by the CCD working team to identify the cause of CCD. However, the 
resources currently available are inadequate to fully address these 
questions in the identified timeframe. The following objectives and 
resources are the best estimates of the CCD working team members to 
increase their impacts. A similar analysis of the USDA CAP grant 
multidisciplinary team could yield similar results, but were considered 
beyond the time allotted for this response.
Key Areas of Investigation
(1) Pesticides
    Are pesticides a key factor contributing to CCD and to pollinator 
decline?

    Key investigations

  <bullet> Conduct toxicity tests of individual pesticides and their 
        combinations to assess their causative association with CCD.

  <bullet> Determine sublethal effects of pesticides and selected 
        combinations of pesticides on physiological and behavioral 
        systems of insects, including immune system suppression, 
        interference with associative learning, and detection and/or 
        alteration of the chemical senses of honey bees.

  <bullet> Determine if adjuvants are toxic (compare toxicity of 
        formulated material to technical materials or active 
        ingredient.

  <bullet> Determine if pesticides in combination with other stressors 
        like IAPV are responsible for CCD

  <bullet> Determine if gamma radiation can be used to mitigate 
        pesticide build-up in bees wax comb and food

    Key personnel (CCD working team)

        Chris Mullin/James Frazier/ Maryann Frazier (PSU) Jeff Pettis 
        (USDA), Diana Cox-Foster (PSU) (second and last objective)

    Current Funding

        Most of this funding has been spent on CCD and beekeeper sample 
        analysis

        Critical Issues; $89,000 (6/08-6/10)

        NHB; $11,897 (2/1/08-12/31/08

    Pending:

        USDA-NRI 51.2B; $216,479 (1/1/09-12/31/10)

        Protecting Honey Bee Pollinators, CAP; $90,000 to Mullin et al. 
        in yrs 3 and 4 (8/1/08-7/31/12)

    Resources needed to address these questions:

        Additional Personnel: $80,000

        Operating Funds: $75,000

        Total: $155,000

    Investigation of pesticide involvement in bee declines requires use 
of high-performance liquid chromatography/tandem mass spectroscopy (LC/
MS-MS) methods to successfully analyze samples for systemic pesticides 
such as neonicotinoids and their metabolites at the sensitivity 
required for FDA/EPA compliance. LC/MS-MS analytical capability is 
particularly essential for understanding honey bee health in regards to 
systemic insecticides, since honey or pollen contaminated with 
neonicotinoids at ppb levels are known to impair bees. Multiresidue 
pesticide and toxic metabolite analysis that requires LC/MS-MS 
instrumentation is expensive, and the available analytical labs 
routinely analyzing neonicotinoid residues under good laboratory 
practices using LC/MS-MS is severely limited. Moreover, the 
infrastructure for graduate education of pesticide analytical chemists 
in the U.S., where there is sufficient equipment and expertise to 
address the fate and ecotoxicology of systemic pesticides, is almost 
non-existent.
    Equip a MS facility with LC/MS-MS, GC-MS, workstation with 
deconvolution software and toxic substance libraries; salaried for a 
qualified GLP technician for 4 years: $1,500,000.
(2) Pathogens
    Pathogens are clearly part of the problem underlying CCD. Increased 
pathogen loads are found in colonies undergoing CCD and suffering 
collapse. Recently, we identified a virus that appears to have been 
introduced into the U.S. within the last 8 years; the Israeli Acute 
Paralysis virus (IAPV) is not extensively found in samples collected 
across the U.S. in 2004 and has only been found in one sample collected 
in 2002. This virus was a good predictor of CCD by itself and in 
combination with three other pathogens (Nosema ceranae, Nosema apis, 
and Kashmir bee virus) it is a 100% predictor of CCD. At least two 
strains of IAPV are found in the United States and data indicate that 
the virus has greater variation than other bee viruses. How this 
variation in the virus is linked to CCD is not known. Current studies 
in containment greenhouses indicate that this is a fairly virulent 
virus; however, in the field, we have evidence that additional stress 
is needed to trigger the collapse. It is critical to identify these 
stressors and to learn how the diseases progress in the colony with 
CCD. In addition, we now have extensive evidence that these viral 
diseases not only are infecting the honey bee but also native 
pollinators. It is critical to learn how these diseases are impacting 
the native pollinators and if these diseases are contributing to the 
overall decline in native pollinators.
    Another essential component that is critically needed is the 
ability to effectively analyze the pathogens present in samples. 
Currently, few labs in the U.S. are able to detect these pathogens and 
none have the capacity to analyze increased numbers of samples from 
beekeepers, state apiarists or even from APHIS collections. In 
particular, individual beekeeping operations have requested analysis of 
pathogens in their colonies and have found these services greatly 
limited. Currently, discussions are being held on how the diagnosis of 
bee pathogens can be added to the National Plant Diagnostic Network 
portfolio. The NPDN has a regional distribution across the U.S. and the 
capacity to handle large numbers of samples. New detection methods are 
also needed that are faster and more sensitive across several 
magnitudes and that can identify known pathogens and parasites.

    Key investigations

  <bullet> Do different strains of IAPV have different virulences?

  <bullet> How do stresses such as sub-lethal pesticide exposure affect 
        the disease status of a colony?

  <bullet> What is the impact of the honey bee viruses and other 
        pathogens on native pollinators?

  <bullet> How can the NPDN portfolio and capacity be increased to 
        detect bee and pollinator diseases?

  <bullet> What measures can be taken to decrease the overall disease 
        prevalence in a colony and increase colony health and strength?

    Key personnel (CCD working team)

        Diana Cox-Foster (PSU), Jeff Pettis/Judy Chen/Jay Evans (USDA), 
        Dennis vanEngelsdorp (PDA), Dave Tarpy (NC State), additional 
        university and USDA/ARS researchers

    Current Funding--Cox-Foster

        Penn Dept Ag.; $100,000 for viral work (through 7/09)

        Critical Issues; $52,000 (end 12/2008)

    Resources needed to address these questions

        Additional Personnel: $80,000

        Operating Funds: $75,000

        Total: $155,000

        Improved detection methods for known pathogens/parasites: 
        $500,000

        Increased capacity of the NPDN--additional equipment, 
        materials, etc.: $1,000,000

        National Survey of pathogens/parasites in honey bee colonies 
        and queen breeding operations (APHIS and Apiary Inspectors of 
        America): $2,400,000
(3) Genetic Diversity
    What is the role of genetic diversity in the overall health of 
colonies and the honey bee population?

    Key investigations

  <bullet> Correlate queen mating frequency with the incidence and 
        prevalence of CCD and Nosema spp.

  <bullet> Compare the gene-expression levels of several important 
        antimicrobial peptides by larvae in response to disease 
        challenge and determine if genetic diversity within a queen's 
        brood influences the degree of immune response

  <bullet> Test a continuum of mating numbers by instrumentally 
        inseminated queens by inoculating full-sized field colonies 
        with disease to determine the minimum mating number of queens 
        by which they may gain health benefits from having their 
        colonies genetically diverse

  <bullet> Determine the physical health, insemination success, and 
        mating numbers of commercially produced queen bees to assess 
        the ``mating health'' and genetic diversity of the honey bee 
        stock in the U.S.

  <bullet> Quantify the level of genetic diversity in the feral honey 
        bee population, particularly in comparison to the managed 
        population

  <bullet> Determine if the non-managed honey bee population is 
        comprised of ``escaped swarms'' or is truly feral (i.e., 
        survivor stock); if the latter, the feral population may serve 
        as an untapped resource for genetic diversity and disease 
        resistance in the managed population

    Key personnel

        David Tarpy & Deborah Delaney (North Carolina State 
        University), Dennis vanEnglesdorp (PDA), Jeff Pettis (USDA), 
        Jay Evans (USDA)

    Current Funding

        North Carolina Department of Agriculture & Consumer Services, 
        Plant Industry Division, 2008-2009 (one year); ``Intracolony 
        dynamics of Nosema infection in honey bees''; $15,000 
        [terminates 05/30/09]

        United States Department of Agriculture, Arthropod and Nematode 
        Biology and Management (A): Organismal and Population Biology, 
        2008-2010 (two years); ``The collection of non-managed honey 
        bee colonies from the southern United States: characterization 
        and quantification of genetic diversity in U.S. honey bee 
        populations'' (PD: D. Delaney); $125,000 [terminates 08/30/10]

        United States Department of Agriculture, Arthropod and Nematode 
        Biology and Management (A): Organismal and Population Biology, 
        2007-2010 (three years); ``Assessing the mating health of 
        commercial honey bee queens''; $346,500 [terminates 07/31/10]

    Resources Needed (recurring)

        Additional Personnel: $75,000

        Operating Funds: $50,000

        Total: $125,000

    Long-term objectives and needs (addressing CCD and declining 
pollinator health; 2-5 years)

    Provide additional funding aimed at understanding pollinator (honey 
bees and native species) decline and improving pollinator health and 
conservation in the form of competitive granting program (NRI, CSREES; 
Critical Issues, CAP, PIPE). The PIPE program funding we recently 
competed for has been ``suspended'' due to financial restraints. 
Competitive funding programs like this are vital if researchers are to 
respond in a time critical manner to emerging threats to our food 
supply.
    Availability of this funding would allow the attention of the wider 
research community to be focused on improved pollinator health.

                                  <all>

</pre></body></html>
